<html>
<title> - FOREST PROTECTION INITIATIVES AND NATIONAL FOREST POLICY</title>
<body><pre>[Senate Hearing 107-308]
[From the U.S. Government Printing Office]



.                                                       S. Hrg. 107-308
                   FOREST PROTECTION INITIATIVES AND 
                         NATIONAL FOREST POLICY
=======================================================================



                                HEARING

                               before the

                            SUBCOMMITTEE ON
                        PUBLIC LANDS AND FORESTS

                                 of the

                              COMMITTEE ON
                      ENERGY AND NATURAL RESOURCES
                          UNITED STATES SENATE

                      ONE HUNDRED SEVENTH CONGRESS

                             FIRST SESSION

TO RECEIVE TESTIMONY ON THE INTERACTION OF OLD-GROWTH FOREST PROTECTION 
                 INITIATIVES AND NATIONAL FOREST POLICY

                               __________

                            OCTOBER 2, 2001


                       Printed for the use of the
               Committee on Energy and Natural Resources




                        U.S. GOVERNMENT PRINTING OFFICE
78-036                          WASHINGTON : 2002
____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512-1800  
Fax: (202) 512-2250 Mail: Stop SSOP, Washington, DC 20402-0001













               COMMITTEE ON ENERGY AND NATURAL RESOURCES

                  JEFF BINGAMAN, New Mexico, Chairman
DANIEL K. AKAKA, Hawaii              FRANK H. MURKOWSKI, Alaska
BYRON L. DORGAN, North Dakota        PETE V. DOMENICI, New Mexico
BOB GRAHAM, Florida                  DON NICKLES, Oklahoma
RON WYDEN, Oregon                    LARRY E. CRAIG, Idaho
TIM JOHNSON, South Dakota            BEN NIGHTHORSE CAMPBELL, Colorado
MARY L. LANDRIEU, Louisiana          CRAIG THOMAS, Wyoming
EVAN BAYH, Indiana                   RICHARD C. SHELBY, Alabama
DIANNE FEINSTEIN, California         CONRAD BURNS, Montana
CHARLES E. SCHUMER, New York         JON KYL, Arizona
MARIA CANTWELL, Washington           CHUCK HAGEL, Nebraska
THOMAS R. CARPER, Delaware           GORDON SMITH, Oregon

                    Robert M. Simon, Staff Director
                      Sam E. Fowler, Chief Counsel
               Brian P. Malnak, Republican Staff Director
               James P. Beirne, Republican Chief Counsel
                                 ------                                

                Subcommittee on Public Lands and Forests

                      RON WYDEN, Oregon, Chairman
DANIEL K. AKAKA, Hawaii              LARRY E. CRAIG, Idaho
BYRON L. DORGAN, North Dakota        CONRAD BURNS, Montana
TIM JOHNSON, South Dakota            PETE V. DOMENICI, New Mexico
MARY L. LANDRIEU, Louisiana          DON NICKLES, Oklahoma
EVAN BAYH, Indiana                   GORDON SMITH, Oregon
DIANNE FEINSTEIN, California         CRAIG THOMAS, Wyoming
CHARLES E. SCHUMER, New York         JON KYL, Arizona
MARIA CANTWELL, Washington           RICHARD C. SHELBY, Alabama

  Jeff Bingaman and Frank H. Murkowski are Ex Officio Members of the 
                              Subcommittee

                          John Watts, Counsel
                Frank Gladics, Professional Staff Member












                            C O N T E N T S

                              ----------                              

                               STATEMENTS

                                                                   Page

Bisson, Henri, Assistant Director, Renewable Resources and 
  Planning, Bureau of Land Management, Department of the Interior    14
Bonnicksen, Dr. Thomas M., Professor, Department of Forest 
  Science, Texas A&M University, College Station, TX.............
Collins, Sally, Associate Chief, U.S. Forest Service; accompanied 
  by Robert Lewis, Ph.D., Deputy Chief, Research and Development; 
  Mike McClellan, Ph.D., Russ Graham, Ph.D., and Curt Kotchak, 
  Ph.D., Vegetation Research Ecologists, U.S. Forest Service.....    18
Craig, Hon. Larry E., U.S. Senator from Idaho....................     8
Daucsavage, Bruce, President, Ochoco Lumber Company, Prineville, 
  OR.............................................................    65
DeFazio, Hon. Peter, U.S. Representative from Oregon.............     3
Franklin, Jerry F., Professor of Ecosystem Analysis, College of 
  Forest Resources, University of Washington, Seattle, WA........
Johnston, James, Co-Director, Cascadia Wildlands Project, Eugene, 
  OR.............................................................    58
Palola, Eric S., Director, Northeast Regional Office, National 
  Wildlife Federation............................................    53
Smith, Hon. Gordon, U.S. Senator from Oregon.....................    30
Torgerson, John, Alaska State Senator and Chairman, Committee on 
  Natural Resources, Alaska State Senate.........................    70
Wyden, Hon. Ron, U.S. Senator from Oregon........................     1














                     FOREST PROTECTION INITIATIVES 
                       AND NATIONAL FOREST POLICY

                              ----------                              


                        TUESDAY, OCTOBER 2, 2001

                               U.S. Senate,
          Subcommittee on Public Lands and Forests,
                 Committee on Energy and Natural Resources,
                                                    Washington, DC.
    The subcommittee met, pursuant to notice, at 2:35 p.m. in 
room SD-366, Dirksen Senate Office Building, Hon. Ron Wyden 
presiding.

             OPENING STATEMENT OF HON. RON WYDEN, 
                    U.S. SENATOR FROM OREGON

    Senator Wyden. The subcommittee will come to order. Today 
the subcommittee opens an important inquiry that I hope will 
end with strong protections for old-growth trees, healthier 
forests, and better ways of managing those forests for all 
Americans.
    Let me be clear about my own sense of where today's 
discussion of old-growth ought to go. Absent compelling forest 
health concerns, it is time to end logging on our ancient 
forests. My concept of forest management accepts a simple fact: 
Some things are too important to mess up. Our ancient forests 
are at the top of that list.
    I do feel that there are several absolutely essential 
components for an old-growth protection effort. It must be 
accompanied by management across the entire forest ecosystem. 
That includes a substantial thinning program, multiple use, and 
watershed restoration.
    From the beginning, the debate about old-growth has been 
highly polarized. We have some on one hand who would punish the 
Forest Service for not cutting enough trees. On the other, 
there are those who would stand in the way of all commercial 
use of our forests. Those uses are critical to stabilizing and 
promoting the health of those forests.
    I pursued county payments legislation with Senator Craig 
here in the U.S. Senate. Congressman DeFazio, of course, is the 
leader in the House on this issue, and we were working to 
lighten the economic load carried by timber-dependent 
communities and widen the way for a real discussion of a 
creative new approach to forest management. County payments are 
just one example of how the logjam over forest policy can be 
broken, providing for the ecological health of the forest and 
ensuring survival for resource-dependent rural communities.
    Forest Chief Mike Dombeck called that county payments law 
the most important forestry law in 40 years. Today, I say the 
subcommittee can develop old-growth policy initiatives that 
might be the most important forestry work for the next 30 
years.
    For decades, my home State has been a hotbed of contentious 
debate over forestry. In those 20 years, the fights over timber 
have become increasingly acrimonious. In 1984, the 
implementation of the Northwest Forest Plan tried to address 
questions of supply for the industry and protect old-growth, 
there were over a dozen pending lawsuits over the northern 
spotted owl, the marbled murrulet, and the possibility of 
future timber harvests from old-growth. Those same fights with 
respect to old-growth harvesting exist today, 17 years later, 
heightened by years of argument.
    I would submit that arguments over the treatment of old-
growth exist partly because there is not even basic agreement 
in our country about what constitutes old-growth. What a 
southerner calls old-growth and what an Oregonian calls old-
growth may be two completely different matters. One of the 
responsibilities of this subcommittee is going to be to look 
beyond immediate disagreements and address fundamental 
questions that continually fuel the fires of the old-growth 
debate.
    To date, the Northwest Forest Plan is the sole template for 
old-growth protection. Covering 21 million acres of Federally 
managed forests spread across 18 national forests and several 
Bureau of Land Management districts, the Northwest Forest Plan 
offered unique challenges in terms of forest management, not 
just for communities, not just in protected lands, but in 
understanding that the two are deeply interconnected.
    The design of the plan was supposed to allow forest 
managers flexibility to explore the connections between forest 
lands and forest communities so as to provide benefits to both. 
By recognizing that not all forest land is the same, but 
recognizing that the best use of some forest land is to benefit 
resource-dependent communities, and by recognizing that some 
should be preserved for its uniqueness and rarity, the 
Northwest Forest Plan sought to expand understanding of forests 
and improve management of them.
    This hearing is meant to explore the knowledge that is 
available with respect to old-growth, the effectiveness of the 
methods that have been used, and the potential of methods that 
have not yet been tapped. Old-growth is important first and 
foremost simply because there is relatively little old-growth 
left to protect. Additionally, if old-growth areas are lost it 
is not simply a matter of losing ancient trees. Within our old-
growth stands are unique specialized plants and trees that 
simply do not exist outside old-growth, animals that depend on 
old-growth stands for habitat and sustenance. The bottom line: 
we lose our old-growth stands, we lose a special world with 
them.
    Old-growth has to be managed in conjunction with late 
successional forests. Trees which are young today will not 
simply grow older and recreate old-growth habitats.
    After much listening and after many long discussions with 
those on all sides, we are going to make it clear that we 
intend to reject those who would take an extreme position on 
this issue. The challenge is to come up with a creative path, a 
new strategy that interweaves environmental concerns with 
social and economic ones in order to ensure healthier forests 
and ecosystems.
    Development of new and creative strategies to both protect 
old-growth and sustain timber-dependent communities is going to 
be heavy lifting. It is going to demand something of all of the 
stakeholders. It is my intention, working in conjunction with 
Senator Craig, who has been extremely cooperative with me on 
these matters, to sit down and look for an honest exchange of 
ideas and find solutions.
    When we say stakeholders, we are talking about more than 
environmental interests and timber interests. We are talking 
about the concerns of the old-growth Forest Service, the Bureau 
of Land Management, the Fish and Wildlife Service, the National 
Marine Fisheries Service. We need their expertise and 
commitment in order to have effective management of our forest 
ecosystems.
    I want to make it clear at the outset that I am willing to 
work with anyone and everyone who is truly committed to 
protecting old-growth as part of a larger plan to restore 
forest health. This is going to be an effort to try to end the 
bickering and ulterior motives and the parochial agendas that 
have dominated this issue and at the end of the day to make 
sure that, with strong protections for old-growth trees, we 
have a healthier forest and a better way of managing the forest 
for all Americans.
    We are going to start the productive and lively discussion 
that this issue will surely generate with an excellent panel of 
witnesses. We are very fortunate to have one of Congress' true 
forestry experts, Peter DeFazio from the Fourth District, where 
these issues generate about as much passion as anywhere on the 
planet. He will begin our presentation.
    Then we are going to have Henri Bisson from the Bureau of 
Land Management, Sally Collins from the Forest Service, Jerry 
Franklin from the University of Washington, Dr. Tom Bonnicksen 
of Texas A&M, Eric Palola of the National Wildlife Foundation, 
Jim Johnston of Cascadia Wildlands Project, Bruce Daucsavage of 
Ochoco Lumber, and John Torgerson of the Alaska State 
Legislature.
    Let me make it clear to our witnesses, we will put their 
prepared remarks into the record in their entirety and know 
that it is almost a biological compulsion to read every word 
that is on paper in front of you, but we will put that in the 
record, and if our witnesses could highlight their principal 
concerns that would be helpful.
    Peter, I am especially glad you are here. You have taught 
me an awful lot about these issues during my service in the 
Congress and it is appropriate we begin with you.

               STATEMENT OF HON. PETER DeFAZIO, 
                U.S. REPRESENTATIVE FROM OREGON

    Mr. DeFazio. Thank you, Mr. Chairman. I can say indeed it 
is a pleasure to be here today. It is not often in the past 
that I have talked about wading into the contentious issues of 
forest management as a relief from my normal duties, but I have 
been totally immersed in aviation and aviation security issues 
for a couple of weeks and it is good to get a little 
perspective on other issues that are very important to my 
constituents and to our country.
    When I was first elected to Congress in 1987, I had a 
conference that I put together. I thought, if only we could put 
the issue of forest management far enough into the future, 
perhaps we could try to find common ground and get people to 
agree on what they would like our forests to look like 20 or so 
years from now. So I put out a conference call to ``Our forests 
in the year 2010.'' Among the participants was the then chief 
forester, but also Jerry Franklin made one presentation. I had 
one memorable panel which included both Andy Kerr and Chris 
West.
    It became clear that, even if we put the debate out 23 
years, there was still a very vigorous debate and disagreement. 
I believe that today, getting close to that time, there is 
actually more grounds for common agreement. In part, they come 
from the failures of the Northwest Forest Plan.
    The Northwest Forest Plan certainly imposed some order on 
chaos. We had basically the entire system under one form or 
another of court management or injunction. There was certainly 
on the part of the last administration an attempt to bring 
together some of or many of the diverse parties and try and put 
in place a plan that would provide some protection for those 
things which we wished to protect and to provide some 
predictability for those who were dependent upon forest 
resources for their living.
    Unfortunately, I think there were some fatal flaws inherent 
in that, and others what follow me perhaps will address those 
with more specificity, but let me give my lay person's view of 
the issue.
    I remember, again, talking to Dr. Franklin back then and 
said, you know, I do not quite understand, Jerry. If we draw a 
line around a late successional reserve, which is a previously 
managed second growth area tree plantation, what do you get in 
20, 40, 50, or even 100 years? His response was: You get dog 
hair, dog hair being not a functioning old-growth-like forest 
ecosystem or even a mid-range sort of forest system, but 
actually something that is unnatural, planted to unnatural 
densities, with very little understory and diversity, actually 
in some cases you could almost say sort of a biological desert.
    That has, unfortunately, given what has proven to be fatal 
flaws and inflexibility, the current status of where many late 
successional reserves covering hundreds of thousands of acres 
are headed. I have a particular concern with the Coast Range in 
Oregon and some in Oregon and northern California, but 
particularly in Oregon, where there are tens of thousands of 
acres that are at a critical point to go in and thin. If the 
only value were to manage those forests to be future old-
growth, you would still have to go in there and conduct this 
thinning.
    But if you miss a critical window to do the thinning, the 
trees will get too tall, particularly in areas where you have 
high winds, and if you did the thinning 10 or 15 years too late 
you are likely to get a lot of blowdown and you have missed, 
obviously, that which could have been captured in the interim 
period.
    The Forest Service has very little money to conduct these 
sorts of what would be called restoration forestry sales and/or 
restoration forestry practices, and they are falling further 
and further behind on the thinning.
    Now, the issue obviously becomes, there is built-in 
distrust here. There is the distrust that many environmental 
groups have for the management agency or the industry. There is 
certainly folks in the industry who feel like they were burned 
by the Clinton forest plan and the promises of some 
predictability there. We have got to get past that, and you are 
going to hear from some folks today who are trying to develop a 
path past those old disagreements and kind of what I would call 
old business.
    I really think there is something here that we can all 
grasp if this is done properly, Mr. Chairman, and if we were to 
get into or go into some of these late successional reserves, 
not on a necessarily standard prescription, but to really 
enhance their long-term viability as functioning forest 
ecosystems, to speed their movement toward more old-growth-like 
characteristics and the diversity that comes with that, there 
would also be a significant amount of viable commercial product 
that would come out of those areas.
    One thing that I suggested to the last administration, to 
Assistant Secretary Lyons from his first day in office, or 
maybe before his first day in office, was I was really 
interested in the idea of moving away from selling timber on 
the stump to contract logging under the direction of the Forest 
Service, in which case you could have a lot more control over 
what happens in a given area so that you do not get trees cut 
that were not supposed to be cut and you can do the 
prescriptions as you wish, bring the logs out to a sort yard as 
the industry does, sort them by age, species and type, and then 
sell them from the sort yard for a much higher value, rather 
than selling someone something that is 30 percent hemlock who 
only wants fir and then they are going to bid lower and then 
they are going to resell it. It becomes very inefficient, plus 
you lose the control over the forestry practices and it assumes 
more of the aspect of a commercial timber sale, even if you are 
doing restoration forestry, than under a contracted logging and 
removing the product to sort yards for sale.
    I think--and you will hear from people, again, much more 
qualified than I who have looked at--and I have asked recently 
with a letter I directed from some members of the House to the 
Chief to get some quantifiable numbers on what might be 
available and over what period of time, what budgetary 
requirements we would need.
    But I think what you will find is for people like Ochoco 
Lumber, people you will hear from later today, people who have 
done what we were encouraging the industry to do--move away 
from your old-growth, adopt more efficient practices, look 
toward a sustainable supply of second growth timber--that we 
can probably project out 20 years, which for many folks would 
be very desirable, with some degree of certainty how much could 
be available, how much timber could be available, while at the 
same time we are managing the forests for environmental 
purposes, restoration forestry purposes, and critically, as you 
mentioned earlier, moving out of old-growth timber sales.
    That is the continuing bone of contention and we are still 
tied up in the courts like we were in the early nineties. So I 
think there is really the possibility of tying together a 
package here which could have broad support, both from the 
industry, environmental groups, and policymakers.
    There are some specifics that will have to be worked 
through in terms of how can we assure, even if we are moving 
toward restoration forestry and thinning over these hundreds of 
thousands of acres of second growth in LSR's, that it is being 
done properly? You would have to build in certainly the 
protections of the reviews there.
    But also, what sort of agreement can we come to over the 
criteria that will be used so that they cannot, if there is 
broad agreement, as you said, be tied up by someone on the 
extreme from even moving forward on something that everybody 
admits would have environmental benefit and provide a 
commercially viable product?
    These are yet difficult questions to be worked through and 
with sort of the historic distrust, it will be a little bit 
difficult. But I appreciate the chairman's leadership with this 
subcommittee and would look forward to working with him and his 
staff and other interested members, the gentleman from Idaho 
and others, on moving forward from this point.
    I think we have an opportunity here, and I did not even 
touch on the issues of fire and things where again there is 
potential for some predictability and restoring forest health 
and removing a viable product. But I believe that is going to 
be the subject of a future hearing.
    [The prepared statement of Mr. DeFazio follows:]
     Prepared Statement of Hon. Peter DeFazio, U.S. Representative 
                              From Oregon
    Mr. Chairman, in 1993, as part of the Clinton Administration's 
Northwest Forest Plan, large tracts of previously harvested timberland 
were set aside as Late Successional Reserves (LSRs). The purpose of 
establishing these reserves was to develop late successional forests, 
more commonly known as old growth. At that time, I raised concerns 
about simply drawing lines around large tree plantations without 
developing a comprehensive plan to manage the resulting protected 
forest. I asked University of Washington forest scientist, Jerry 
Franklin, what would become of the newly protected areas in one hundred 
years? He informed me that those plantations would develop into ``dog 
hair.'' Mr. Chairman, if you have ever seen a forest that looks like 
dog hair, you'll know that it is not really a forest at all. But ``dog 
hair'' forests are what we are quickly developing in many Northwest 
LSRs. These reserves could play an important long-term role in 
regenerating late successional forest conditions, but they need to be 
effectively managed to achieve that goal.
    In May of this year, I participated in a field trip with Regional 
Forester Harv Forsgren, along with a team of district rangers and 
forest scientists, to examine the effects of tree thinning within LSRs. 
I was very impressed by what I saw. In the untreated stands, trees 
stand at a density of about two hundred to four hundred per acre--the 
``dog hair'' conditions of which Mr. Franklin spoke, and I was 
concerned about, over eight years ago. The trees are small in 
diameter--many less than ten inches--without full, healthy crowns. In 
addition, the forest is nearly devoid of under-story foliage. The lack 
of sunlight and nutrients reaching the forest floor has created a 
``biological desert'' where there should be species of hemlock, maple, 
alder, salmonberry, and numerous other plants. By contrast, the study 
areas that have been thinned to approximately sixty trees per acre show 
signs of a healthy, functioning forest--larger trees, greater crowns, 
and a diverse collection of vegetation. In yet another area I visited, 
where scientists have thinned to thirty trees per acres, the positive 
effects appear even greater.
    This is not to say that all LSRs should be uniformly prescription 
thinned to thirty trees per acre. We should rely upon good forest 
science to determine the best way to thin to improve the ecological 
health of the forest. Some of the latest research suggests that old 
growth forests began lightly stocked, then thickened into highly 
differentiated stands through seeding over about a twenty-year period. 
Some heavily crowded stands may have to be prescription thinned, while 
others will be thinned very selectively. Whatever the method, the 
ultimate goal is to enhance forest health and develop old growth.
    LSR thinning is also linked to the Northwest's old growth forests 
in another important way. When the Northwest Forest Plan was first 
proposed, one of my primary objections was that it would fail to 
resolve the region's forest management controversies. The reason was 
simple: much of the plan's timber sale volume came from old growth 
stands and roadless areas that were not included in reserve areas. 
During the development of the forest plan, I advocated a reasonable 
management option that would have helped resolve the disputes about 
cutting old growth forests by logging primarily in second growth stands 
while reserving many old growth stands. Unfortunately, after hundreds 
of hours of secret meetings, the Clinton Administration did not 
consider any proposals that incorporated the alternative management 
policies I advocated. As a result, we are still faced with highly 
controversial old growth timber sales in the Pacific Northwest.
    The goal of LSR thinning is the restoration of late successional 
forests. However, LSR thinning will incidentally result in marketable 
timber. According to preliminary estimates, the amount of board-feet 
recovered from thinning operations would be significant in meeting our 
wood products needs and possibly keep open struggling sawmills, which 
are vital to the economy in many depressed Northwest communities. By 
shifting the focus of the Forest Service away from controversial timber 
sales and toward needed thinning operations, we can rescue many family 
wage jobs while improving forest health and developing protected old 
growth.
    To better manage the wood byproduct of LSR thinning operations, I 
have proposed establishing Forest Service run sort-yards. Contracting 
the logging operation without selling the standing trees will achieve a 
more suitable thin, and help to alleviate some concerns about thinning. 
Contract logging will allow the Forest Service to decide what trees are 
to be removed to achieve the greatest ecological benefit, as opposed to 
a timber company having a direct financial interest in the size and 
species of harvested trees. Once in the yard, the trees can be sorted 
by size and species and auctioned off to the highest bidder. The 
private sector has run similar sort-yards for years to bring about the 
maximum utilization of trees harvested and maximum returns.
    I have been encouraged by the support from environmental groups, 
the timber industry, the Forest Service, and the scientific community 
for all of these ideas. Thinning within LSRs, protecting old growth, 
and using Forest Service run sort-yards provide a desirable outcome for 
all interests. We have a unique opportunity to bring all these groups, 
who have at times been at bitter odds, together to achieve healthy old 
growth forests.
    I have recently been joined by a number of my colleagues from the 
Northwest in sending a letter to the Chief of the Forest Service, Dale 
Bosworth. In the letter, my colleagues and I request a range of 
information from the Forest Service about the environmental and 
economic benefits of LSR thinning; the result if thinning is not 
completed; and the resources necessary to complete the thinning 
operations. Once the Forest Service responds to our letter, it is my 
hope that we can begin to address the needed thinning of LSRs through 
the legislative and appropriations processes.

    Senator Wyden. Well, Peter, thank you for an excellent, 
excellent statement. I am going to let Senator Craig begin with 
both his opening statement and any questions for you.
    Senator Craig, before you came I made mention of the fact 
that I was especially proud that we showed in the last session 
of Congress, when everybody would have said no way and no-how 
could the two of us come together on something like county 
payments.
    I wanted to see us really swing for the seats again. I 
think that there is a chance, as Congressman DeFazio has 
mentioned, this afternoon to come up with something that would 
ensure millions and millions of board-feet for our mills, with 
a substantial thinning program, old-growth protection, reform 
of forest management practices, which, having sat by you for 
several years now, you have made a very good case for.
    I want to let you begin both the statement and questioning 
of Congressman DeFazio by way of saying that I want us to go 
back to the same spirit we did last session on this issue, 
because I think we could do something like that bill last 
session that would also pay dividends for another 30 years. Why 
don't you proceed in any way you choose?

         STATEMENT OF HON LARRY E. CRAIG, U.S. SENATOR 
                           FROM IDAHO

    Senator Craig. Mr. Chairman, thank you.
    Congressman, thank you for being before the committee today 
to talk about an issue in the whole of the concept of our 
forest management that is of very real importance. I must tell 
you, when I think of old-growth and someone talking about 
preserving it, I guess it is in my mind an oxymoron. It is kind 
of like defying gravity. Old in a living thing ultimately is 
not old any more; it is a slab of carbon laying on the ground 
rotting.
    That is a pretty blunt statement. I know that west side 
douglas fir have a different lifestyle than the climax forests 
of the inland West as it relates to lodgepole pine and all of 
that, but the ultimate factor is that certain trees die at 
certain times.
    I am also a little nervous about continually finding new 
preserves or reasons to preserve. We just came out of a most 
contentious fight with a former President who tried to reserve 
some 60 million additional acres all in the name of roads or 
roadless areas by finding ways to greatly restrict access.
    I understand what you and our chairman are trying to do and 
I am going to try to be cooperative in as many ways as 
possible. At the same time, when I look at your State and my 
State and the number of acres we have already set off-limits, 
for all the right reasons in most cases, I find it difficult 
for me to run to find another reason to set aside more acres.
    I understand the frustration of the industry: Gee, this 
time if we support this maybe we will get an allowable cut. But 
I have heard that argument for 20 years as I have seen the 
allowable cut first move to half, then a third, and now hardly 
a representative portion of where we once were.
    I am not sure what gives us the key to the right or 
reasonable forest management, balanced management, recognizing 
the need to thin, clean, create vitality on the forest floor 
for the purposes of wildlife and watershed, and even to produce 
a few sticks to build homes with in the end.
    So I will listen with great curiosity and I am going to 
make every effort to work with my chairman to see if we cannot 
resolve this issue, because there are a good many things that 
the chairman and I believe in strongly, and that is the 
viability and the health of our public forested lands. I have 
grown to believe that unless you designate specifically, under 
the reality that we are going to let Mother Nature be the sole 
manager of certain portions of the resource, as we have 
determined with wilderness and other designations--I guess my 
ultimate question would be, if you establish old-growth 
preserves and they become designated areas for their uniqueness 
and they are swept and cleaned by fire, would there be a 
willingness to undesignate them, to clean them out and gain 
some of the value that would be left there, to allow them to 
regenerate into an old-growth stand again?
    My guess is that would not be the case. I would not expect 
you to respond to it unless you wish, simply because it would 
be a preserve into which man should not and would not trammel 
under any circumstance, as is true in wilderness, as is now 
true in our unroaded areas, where we are denied even the right 
to go in and the take from those unroaded areas the burned 
trees that have been devastated by fire.
    Our Forest Service in the last few years has just given up 
on trying to, because they knew by the time they fought the 
courts and the interest groups that the salvage would be 
salvage-less because the value would so have deteriorated, that 
they would just as well walk away from it. I watched that 
happen in my State a year ago and find that somewhat tragic.
    So I think you hear by my statement a high level of 
frustration as it relates to how we approach constantly locking 
up portions for their uniqueness until there comes a day when 
there is none left to lock up, let alone none to manage in a 
multiple or a balanced way.
    We know that there are a good many acres out there that we 
now manage for that purpose, and I suspect that some of them 
will always be there, although I must tell you that you, Peter, 
and I and the chairman have served in the House, and I will 
never forget the day when we were designating a wilderness in 
southern Missouri for its uniqueness, its beauty, and its 
pristine qualities, except we were going to have to remove 250 
miles of roads and one power line and about 35 miles of 
barbwire fences, and the reason was because it had once been 
logged and mined and it had regrown so beautifully that someone 
was now wanting to claim it as a wilderness.
    Well, it is now wilderness. It is known as the Mark Twain, 
although it was once an actively managed resource for the 
purpose of returning value to those who were managing it at the 
time, and my guess is managing it to much less strenuous 
environmental standards than those who would manage it today.
    I guess that is a chance for me to express some of my 
frustrations. I pledge to my chairman that we will work 
together to try to resolve this. In my State we have a stand 
that is nearing old-growth today. It is 100 years old. Well, it 
will not be 100 years old for 8 more years, Mr. Chairman, 
because in 1910 Mother Nature burned over 2 million acres of 
it, and across my State of Idaho and into Montana and into 
Washington is this marvelous stretch of perfectly even-aged, 
beautiful timber that started to regrow in 1911, and it has not 
been touched.
    It has now reached its life cycle, so it is by definition 
old-growth by the term of the species. It is now ready to be 
burned. It is starting to die. The question is in my State, 
will we preserve it or will we develop the mosaics of uneven 
age stands that are a result of wise and effective timber 
management for the purposes of lessening the fire rate, 
creating 500 or 600 jobs, and adding phenomenal value to and, 
my guess is, properly managed, a much higher sensitivity and 
quality of environment and watershed that is much more 
productive and useful than the kind that is now nearly ready to 
deteriorate, as my foresters or our foresters in the U.S. 
Forest Service tell me.
    Senator, this is but a match or a lightning strike away 
from the episodic character that it held in 1910, when nearly 
two million acres, one community, five logging camps, one 
train, and ten people died. That is a frustration that needs to 
be worried about and I worry about it.
    Thank you, Mr. Chairman.
    Senator Wyden. I thank my colleague. I am going to have a 
couple of comments, but first our colleague Mr. DeFazio.
    Mr. DeFazio. I think I can find a question somewhere in 
that statement, Mr. Chairman. Obviously, I am much less 
knowledgeable about east side issues, my district being 
entirely a west side one, and the life cycles there, although I 
spend a fair amount of time in central Oregon, but that is 
again even different than the intermountain region in Idaho. So 
I am not going to pretend to be an expert on the life cycles 
there.
    But what we are talking about with late successional 
reserves here is essentially under the Clinton plan the late 
successional reserves, in part because of the reluctance of the 
Forest Service and in part because of some of the processes 
that were set out, are not being thinned to varying standards, 
which would in fact create or attempt to duplicate, and you 
will hear from experts after me, the mosaics that the gentleman 
mentioned on the west side.
    So first I would say that in fact where we would be on the 
west side--and again, I am not so knowledgeable of his State or 
the categories there--but the old-growth that we would preserve 
on west side is probably a lot less acres than what is 
currently set aside in late successional reserves that require 
some management to achieve their real potential and to better 
emulate a natural system.
    I think there is some potential grounds for agreement here. 
Beyond that, on the slab of carbon laid on the ground, I 
recommend that some time if the Senator wishes to visit my 
district we will go through the A.C. Andrews Experimental 
Forest and you can see a very exciting experiment they have 
growing there of a log rotting, which they have been monitoring 
now for some 30 or more years, I am not sure how many years, 
and the value of something actually that is rotting and what it 
contributes.
    There is not--even when a forest reaches a climax and trees 
do fall over there is some very substantial benefit that they 
have demonstrated there. In many cases the old-growth we are 
talking about west side could well have another 200 or 250 
years of viability and that is a little longer-term look than 
we usually take in Congress.
    I think preserving that while we bring along some other 
areas, and then perhaps natural processes will befall that area 
and it will begin the cycle all over again. I cannot look quite 
that far in the future, but that is the sort of thing we are 
talking about here.
    I just recommend, I think we both probably need to learn 
more about each other's side of the mountains and what the 
problems are there and it could be helpful to both of us 
probably.
    Senator Craig. Mr. Chairman and Peter, thank you. I am not 
as aware of your side as I am our side, although I spent the 
last 20 years looking at these issues. As I said, you will have 
my attention and my cooperation where we can to see if we can 
resolve this issue.
    I think the health of our forests nationwide depends on 
more active management and less lockup, although some 
uniqueness deserve to be preserved and I voted for those and I 
have worked with you on it. I am not sure I am going to give 
you my time to go look at a rotting log, though.
    Thank you.
    [Laughter.]
    Mr. DeFazio. It is a pretty exciting experiment, let me 
tell you. You will hear about it later, I am sure.
    Senator Craig. Trust me.
    Senator Wyden. Let me see if I can respond to my friend for 
a minute----
    Mr. DeFazio. They do other things there, too.
    Senator Wyden. First, let me again pledge my full 
cooperation with you on this effort. In addition, this morning 
I had a good conversation with Frank Murkowski about this and 
made it very clear that we are going to be working closely with 
him. Of course, Alaska has some special concerns in this 
regard.
    Second, I think with respect to old-growth--and Peter I 
think touched on it and I want to be clear what I am talking 
about. I am talking about old-growth in the context of an 
integrated management plan, so that we look directly into some 
of the things that you hold hearings on, painstaking hearings, 
about what it took to come up with a good management plan.
    In that regard, Peter has talked about, and he did not 
mention it in his testimony, I do not think, about how some of 
the forests and maybe some of the south coast, Peter, that you 
mentioned, you think almost would be pretty good examples of a 
model kind of forest, where you could really look to gain some 
valuable information about how you come up with an integrated 
management plan and have strong old-growth protection.
    Do you want to comment on that, your idea of whether the 
Congress ought to be looking at, not just in Oregon but 
elsewhere, at the possibility that there are some forests that 
could be pretty good models of what we are trying to do?
    Mr. DeFazio. I think in particular, Mr. Chairman, we were 
talking about an area on the Siuslaw where they actually in a 
fairly short area, which only old politicians who have been 
around a long time can cover, you can go to an area and see an 
area that was naturally reforested, I believe after a fire or 
something.
    But it is an extraordinary density. You can see in that 
area that the trees are in fact--to tell the truth, I cannot 
remember whether this one was--I have been to both, some that 
are naturally grown back. This one may have been actually 
planted. But the trees are very small, very close together, 
nothing on the forest floor, as I said virtually a biological 
desert.
    You can walk a fairly short distance to a stand which was 
thinned to a certain density, the number of trees, and you find 
trees of the same age that are much larger in diameter, 
substantial undergrowth, some sign of wildlife. Then you walk 
in a little further to an area that was even more substantially 
thinned, again exactly the same age. The trees are again 
larger; the undergrowth, you have got to push your way through 
it. There are signs of big game, deer and elk and other things 
in that area.
    So it is just sort of an extraordinary example of where we 
could be going with some management. The interesting thing is, 
if you took both someone from a timber company and some 
environmentalists there and you said, look at these three 
areas, what do you think, everyone would go to the first part, 
which goes to the dog hair category, and say: Well, we do not 
want this. Some people would look at the second area and say: 
Well, this is really where we want to go. Others would look at 
the third area and say: No, this is what we want.
    So the difference now is the difference between the second 
area and the third area, which is the amount of thinning that 
is being done and what your ultimate desired condition is and 
what you are managing that for.
    In a way it is a cop-out, because in a way what I am 
talking about here could put the debate over the real future of 
some of these west side forests off indefinitely. We could put 
it off for another generation, because if you could get 
agreement on going in and doing the necessary thinning and 
removing that you would begin to be managing toward that second 
and third category, because you would have the diversity.
    But what would happen is you would not go back into those 
areas, even if you decided you were just managing these forests 
for timber, not to ultimately regrow to old-growth-like 
characteristics, for another generation. So in a way it is 
almost like the thing we always love to do around here, which 
is study a solution to put off difficult decisions.
    In a way, we could give the next generation a gift, which 
is we are going to improve the value of these things 
dramatically and put it on a path where you can ultimately 
choose. But our intention is we would be managing, as you and I 
have talked earlier, for the old-growth characteristics, 
restoration forestry.
    Again, it is probably very different than your forests, but 
on the west side it is pretty dramatic to see this.
    Senator Craig. Peter, thinning and space and moisture and 
sunlight have the same effect east side, west side, just 
different species.
    Senator Wyden. I just think--and Larry really touched on 
it--what we hear again and again every time we are home as 
westerners is people want the win-win. They want to preserve 
treasuries, they want to protect those local economies. I think 
that the Congress' inability, starting with the Northwest 
Forest Plan, to come up with something like, I hope we will do 
this time, really gets us more to a lose-lose. We are not 
meeting a resource-dependent community's need for economics, 
which is why we hear about the frustration that you describe so 
well, nor do we deal with some of the protections for old-
growth that in places that Peter is talking about sound like 
naturals.
    I think this is exactly what I hope to do by starting off. 
Peter, do you want to add anything?
    Mr. DeFazio. No, Mr. Chairman. I have emphasized the Coast 
Range, but those are the conditions that pretty much prevail 
over a wider area and perhaps even is applicable--I mean, I 
know it is applicable to some extent--in central Oregon, 
perhaps even over into the intermountain region.
    Obviously, in putting this together we should take a broad 
view. But I have been particularly focused and my energies 
really go to those areas of forests that have been under the 
Northwest Forest Plan. But I am not averse to looking beyond 
those areas and trying to develop some knowledge and expertise 
beyond that. But this is where I have been particularly 
focused.
    Senator Wyden. Thank you very much.
    Mr. DeFazio. Thank you.
    Senator Wyden. We will be working with you.
    Okay, Mr. Henri Bisson, Bureau of Land Management; Sally 
Collins, Forest Service.
    While you are getting settled, let me recognize my 
colleague.
    Senator Craig. Mr. Chairman, let me ask unanimous consent 
that my full statement be a part of the record.
    Senator Wyden. Without objection, so ordered.
    [The prepared statement of Senator Craig follows:]
   Prepared Statement of Hon. Larry E. Craig, U.S. Senator From Idaho
    I want to thank Chairman Wyden for calling this hearing today. As 
with most issues we face on our public lands, the issue of old growth 
is as contentious as they come.
    Representative DeFazio, welcome, I appreciate you coming over today 
to help us better understand the old growth issue through the eyes of 
your constituents in Oregon. I also appreciate your commitment to 
finding solutions to these contentious issues. We need to come together 
to find solutions that are good for the environment and good for the 
people who depend on our public lands for their economic survival.
    Mr. Chairman, I will begin by saying that the term ``preservation 
of old growth'' is an oxymoron. The very concept of attempting to 
freeze trees, in time, is akin to denying that gravity exists. Every 
forest ecosystem in this country proceeds through an evolutionary 
process. Some, like Westside Douglas fir, take a long time to make the 
transition from young saplings through a final catastrophic, or man-
made, event that brings them full circle. Others move from regeneration 
to maturity to death and then rebirth in as short as 100 years time.
    Those who would permanently set-aside old growth remind me a bit of 
Don Quixote. If we pursue such a course in our efforts to deal with 
forest health, I fear we too face a future of tilting at windmills.
    Second, given our forest heath concerns, I want this Congress to 
clearly understand that I am very skeptical about the wisdom of 
considering any additional set-asides.
    Congress and past Administrations have set-aside an area equal in 
size to the States of Maine, New Hampshire, Vermont, New York, 
Pennsylvania, Massachusetts, Connecticut, Rhode Island, Maryland, and 
Delaware. These set-asides are in prescriptions that severely restrict 
or eliminate our ability to manipulate these forests for the good of 
the land.
    If many of these set-asides are destined to burn, are we prepared 
to un-designate these area after they burn? Some how I think not. 
Rather, the same folks who would end all timber harvesting on public 
land will more likely come back for another bite at the apple demanding 
additional set-asides from the remaining maturing forests.
    Finally, Mr. Chairman, the culture of my State is that we are 
brought up to avoid waste and to assure that our inactions do not 
damage the forests that we will pass on to our children and grand 
children.
    Just last week we learned that we have over 73 million acres of 
public land in the West that are at risk for catastrophic fire. This is 
a tremendous amount of fuel to be volatilized and pumped into our air 
sheds as carbon dioxide, not to mention all of the other pollutants and 
habitat damage caused by these fires.
    Mr. Chairman before we attempt to preserve something that will 
inevitably die and decompose, I hope we will work to remove most of 
these trees as they die and will work very hard to find ways to store 
them in American's favorite investment and most effective carbon-sink--
homes!
    I look forward to today's testimony and hearing how our witnesses 
feel old growth issues should be addressed.

    Senator Wyden. All right, let us begin with Mr. Bisson. 
Welcome. We will make your prepared statement part of the 
record and if you can summarize.

   STATEMENT OF HENRI BISSON, ASSISTANT DIRECTOR, RENEWABLE 
 RESOURCES AND PLANNING, BUREAU OF LAND MANAGEMENT, DEPARTMENT 
                        OF THE INTERIOR

    Mr. Bisson. I will briefly summarize my comments this 
afternoon.
    Senator Wyden. Great, great.
    Mr. Bisson. Good afternoon, Mr. Chairman, Senator Craig. I 
thank you for the invitation to speak this afternoon on behalf 
of the Department of the Interior to discuss the status of old-
growth forests on public lands.
    Approximately 48 million acres of diverse forests and 
wetlands are managed by the BLM. 2.7 million acres are located 
in western Oregon and northern California. Public domain 
forests and wetlands outside of western Oregon comprise about 
46 million acres, 28 million acres of which are in Alaska. The 
BLM's largest forest management program is centered in western 
Oregon and northern California.
    In 1995, BLM incorporated the Northwest Forest Plan into 
its land use plans. The main tenets of the plan are to protect 
and enhance late-successional and old-growth forest ecosystems 
and habitats for associated species to provide a framework for 
maintaining and restoring aquatic ecosystems and to provide for 
a sustainable supply of timber. Each of these tenets is equally 
important in achieving balanced implementation of the plan.
    Under the plan, late successional forests are defined as 
stands which are generally 80 years and older. Old-growth 
forests are defined as stands which are 200 years and older. At 
the outset of the plan, BLM managed approximately 1.06 million 
acres of forests that were 80 years and older and 357,000 acres 
of forests that were 200 years and older.
    The plan established a series of reserves to cover 
approximately 80 percent of the total plan acres. Late-
Successional Reserves are large blocks of land which include 
both younger and late successional forest types. They encompass 
the majority of significant late-successional and old-growth 
forests.
    Thinning of younger forests within the LSR's, as suggested 
by Mr. DeFazio, is allowed in order to foster old-growth 
development, but large-scale commercial harvesting of trees is 
not permitted in LSR's.
    Riparian Reserves along rivers and streams are responsible 
for maintaining and restoring riparian structures and 
functions. They are an important component of old-growth 
systems as well and timber harvest restrictions are 
approximately the same as within the LSR's.
    Within the Northwest Forest Plan area there are also 
Congressionally Reserved Areas, such as national parks and 
wilderness areas, that contain old-growth.
    The term ``Matrix'' is defined as that area of the plan 
that is managed primarily for timber production. The Matrix 
represents 20 percent of the BLM-managed area. The objective of 
the Matrix is to provide a steady supply of timber that can be 
sustained over the long term without degrading the health of 
the forest. Matrix standards and guidelines provide that we 
leave snags and live trees and downed logs and woody debris 
behind. We also have Survey and Managed standards and 
guidelines which have been the subject of previous hearings up 
here, which have resulted in management recommendations for 
more than 300 rare and little-known species. Recently, we 
implemented changes that were instituted via a supplemental 
environmental impact statement and record of decision. The 
Matrix lands are managed using a variety of treatments, 
including thinning and regeneration harvest, generally in 
stands less than 80 years old.
    At the onset of the plan BLM anticipated that approximately 
3 percent of late successional and old-growth forests would be 
harvested during the first decade of the plan implementation. 
During the first 3 years, harvest rates of late successional 
forests closely aligned with the plan assumptions. During the 
last 3 years the BLM has sold only 20 to 30 percent of the plan 
assumed levels. The reduced harvest has primarily been a result 
of litigation and from efforts to implement the survey and 
managed standards and guidelines.
    As a result, significantly less than the 11,000 acres of 
old-growth projected to be harvested was actually harvested on 
BLM managed lands. The majority of harvest on BLM lands since 
1998 has come from thinning in forest stands that are less than 
80 years of age. The majority of the existing late-successional 
and old-growth forest is protected. Given the extensive reserve 
system and the standards and guidelines under which the Matrix 
is managed, the development of the late-successional and old-
growth forests will exceed the rates of harvest.
    I would like to talk about public domain forest for at 
least a second. The Bureau recognizes the role that remnant 
old-growth forests play in providing unique historical and 
ecological niches across the landscape. Over the past decade, 
our public domain forests have been managed to maintain the 
desired forest conditions intended to reflect the potential 
natural community.
    Our program emphasis has shifted away from supporting 
commercial treatment to maintaining, restoring, and improving 
forest sustainability and health. We face significant 
challenges in managing our public domain forests and woodlands 
because our inventory data on these acres is outdated and our 
professional forester work force has declined dramatically 
since 1991. We estimate that 75 percent of our remaining 
professionals will be eligible for retirement within the next 5 
years.
    Old-growth occurs in noncommercial forest types, such as 
pinyon-juniper woodlands and we are currently managing these 
old trees, considering them as we move ahead with land health 
treatments that we are implementing in some of our stands. We 
are also doing forest restoration treatments in conjunction 
with implementation of the National Fire Plan and in some 
areas, such as Mount Trumbull in Arizona, projects are designed 
to protect and enhance old-growth forests and restore 
historically based natural conditions.
    The Bureau, thanks to Congress, has been able to augment 
our forest health activities through the Forest Health and 
Ecosystem Restoration Fund. This revolving fund has accounted 
for $50 million worth of forest health and restoration 
treatment since its inception.
    Mr. Chairman, that concludes my prepared remarks this 
afternoon.
    [The prepared statement of Mr. Bisson follows:]
   Prepared Statement of Henri Bisson, Assistant Director, Renewable 
 Resources and Planning, Bureau of Land Management, Department of the 
                                Interior
    Good afternoon Mr. Chairman. Thank you for inviting the Department 
of the Interior to discuss the status of old-growth forests on public 
lands managed by the Bureau of Land Management (BLM). Approximately 48 
million acres of diverse forests and woodlands are managed by the BLM 
throughout the western United States, of which 2.7 million acres are 
located in western Oregon and northern California. Public Domain forest 
and woodlands managed by the BLM outside of western Oregon comprise 
approximately 46 million acres, including 28 million acres in Alaska. 
The BLM's largest forest management program is centered in western 
Oregon and northern California. Therefore, my comments will focus 
primarily on this program. However, I will also address Public Domain 
forest management and some of the challenges we face in that program as 
well.
    In 1995, the BLM incorporated the Northwest Forest Plan (NWFP) into 
its land use plans for the six western Oregon districts and three 
northern California field offices covered by the NWFP. The NWFP's 
system of land use allocations and operational standards and guidelines 
represent the management framework from which the plans were developed. 
The main tenets of the NWFP are: 1) to protect and enhance late-
successional and old-growth forest ecosystems and habitats for 
associated species; 2) to provide an ecosystem-wide framework for 
maintaining and restoring aquatic ecosystems; and 3) to provide for a 
sustainable supply of timber. These tenets are reflected in these 
locally-based land use plans. Each of these tenets are equally 
important in achieving the balanced implementation of the plan.
                late-successional and old-growth forests
    Although definitions differ by ecosystem, under the NWFP late-
successional forests are defined as stands which are generally 80 years 
and older, and old-growth forests are defined as stands which are 200 
years and older. Old-growth forests, as defined in the NWFP, are a 
subset of late-successional forests. At the onset of NWFP 
implementation:

  <bullet> In Western Oregon, approximately 48 percent of the forests 
        on BLM's 2.2 million acres were 80 years or older. 
        Approximately 16 percent of those forests were 200 years or 
        older.
  <bullet> In northern California, approximately 60 percent of the 
        forests on BLM's 146,000 acres were 80 years or older. 
        Approximately 25 percent of those forests were 200 years or 
        older.
                      reserve land use allocations
    The Northwest Forest Plan established a series of reserves that 
cover approximately 80% of the total Plan acres. The principal types of 
reserves are:

  <bullet> Late-Successional Reserves (LSR)--These reserves are large 
        blocks of land which include both younger and late-successional 
        forest types. They encompass the majority of both the existing 
        ecologically significant late-successional and old-growth 
        forests. The objective of LSRs is to protect and enhance 
        conditions of late-successional and old-growth forest 
        ecosystems. Thinning of younger forests within the LSRs is 
        allowed in order to foster old-growth development. Large scale 
        commercial harvesting of trees is not permitted in LSRs.
  <bullet> Riparian Reserves--The Riparian Reserve allocations, located 
        along rivers and streams, are responsible for maintaining and 
        restoring riparian structures and functions. They maintain 
        habitat for riparian-dependent and associated species, and for 
        species that are dependent on the area between the upslope and 
        riparian areas, and provide safe travel corridors for many 
        terrestrial animals and plants. Riparian Reserves are an 
        important component of the old-growth system. Timber harvest 
        restrictions are approximately the same as for LSRs.

    Congressionally-Reserved Areas--Congressionally-reserved areas, 
such as National Parks and Wilderness Areas, also form an important 
part of the NWFP strategy for protection of old-growth.
                       matrix land use allocation
    The term ``Matrix'' is defined as that area in the NWFP that is 
managed for timber production. The Matrix, which represents 20 percent 
of the BLM-managed NWFP area, is the focus of the social and economic 
component of the Plan. The objective of the Matrix is to provide a 
steady supply of timber that can be sustained over the long-term 
without degrading the health of the forest or other environmental 
resources. There are a variety of standards and guidelines, protection 
measures, and environmental requirements in place for the management of 
these lands:

  <bullet> Standards and guidelines, applied in association with timber 
        harvest, require the retention of snags, live trees, down logs 
        and woody debris, measures designed to promote diversity and 
        protect late-successional and old-growth forests and associated 
        species.
  <bullet> ``Survey and Manage'' standards and guidelines have resulted 
        in management recommendations for 301 rare and little-known 
        species. Recent changes in the ``Survey and Manage'' standards 
        and guidelines were instituted via a Supplemental Environmental 
        Impact Statement (SEIS) and Record of Decision (ROD), which was 
        signed by the Secretaries of the Interior and Agriculture on 
        January 12, 2001. These changes should enable us to conduct 
        surveys in a more timely way, to establish an annual species 
        review process, and to create a better adaptive management 
        process. As the newly revised standards and guidelines are 
        undertaken, activities on some Matrix lands are expected to 
        resume, while protecting many species dependent on the region's 
        old growth ecosystems.

    The Matrix lands available for timber harvest are managed using a 
variety of treatments, including thinning and regeneration harvest. 
Thinning treatments remove individual trees to enhance the growth and 
health of the remaining stand. These partial harvest treatments are 
generally applied in forest stands less than 80 years of age. 
Regeneration harvest treatments remove most of the merchantable timber 
while retaining 6 to 25 live trees per acre to provide a ``legacy'' of 
older forest components. After a regeneration harvest, trees are 
planted to produce a young forest stand developing along side the older 
forest legacy trees which were retained. In addition, consultation is 
conducted with the National Marine Fisheries Service and the U.S. Fish 
and Wildlife Service when actions may effect threatened or endangered 
species.
                    first decade growth and harvest
    At the onset of the NWFP, BLM managed lands with approximately 
1,061,000 acres of forests 80 years or older (late-successional), and 
357,000 acres of forest 200 years or older (old-growth). BLM 
anticipated that approximately 3% of late-successional and old-growth 
forests would be harvested during the first decade of the NWFP's 
implementation.
    During the first three years of the NWFP, harvest rates of late-
successional forests closely aligned with the Plan assumptions. 
However, during the last three years, the BLM sold only 20 to 30 
percent of the Plan assumed levels. The reduced harvest is primarily a 
result of litigation, including recent litigation on anadromous fish 
and the northern spotted owl, and from our efforts to implement the 
Survey and Manage standards and guidelines. As a result, significantly 
less than the11,000 acres of old-growth projected to be harvested in 
the first decade was actually harvested on BLM-managed lands in western 
Oregon.
    Since FY 1998, there has been very little harvest of old-growth or 
other late-successional forests in the Northwest. The majority of 
harvest during this period has come from thinning in forest stands less 
than 80 years of age.
    The majority of the existing late-successional and old-growth 
forest is protected. Given the extensive reserve system and the 
standards and guidelines under which the Matrix allocation is managed, 
the development of late-successional and old-growth forests will exceed 
the rates of harvest.
                    public domain forest management
    Management of the Public Domain forests and woodlands is guided by 
the Federal Land Policy and Management Act and the BLM's Public Domain 
Forest Management Policy. The Public Domain Forest Management Policy 
requires that forest ecosystems be maintained. In addition, over the 
past decade, our forests have been managed to maintain or create 
desired forest conditions which are intended to reflect their potential 
natural community, including related contributions to biodiversity and 
wildlife habitats. The BLM's policy directs managers to conduct and 
maintain current inventories of forest land and to use the Bureau land 
use planning process to map desired future forest conditions and 
implement management actions needed to achieve those conditions. The 
Bureau recognizes the role that remnant old growth forests play in 
providing unique historical, ecological niches across the landscape. As 
such, program emphasis has shifted away from supporting commercial 
treatment actions to a strategy aimed at maintaining, restoring and 
improving forest sustainability and health.
    The Bureau faces significant challenges in managing Public Domain 
forests and woodlands. Inventory data on these lands is outdated. 
However, we are drafting a proposal to participate more fully with the 
Forest Inventory and Analysis (FIA) program of the USDA Forest Service 
in order to fill the gap in our inventory data. We are also poised to 
launch a new Bureau-wide inventory program, the Forest Vegetation 
Inventory System (FORVIS). This inventory database will be implemented 
over the next 2-3 years.
    Our professional forester workforce declined over 36% between 1991-
1996, and we currently estimate that 75% of remaining professionals 
will be eligible for retirement within the next five years. In the 
event all of these individuals were to retire, we would be left with a 
mere 15% of the forester workforce of 1991. We are currently exploring 
ways to address this problem, including contracting, funding positions 
using fire plan funds, and sharing staff with the U.S. Forest Service.
    A certain percentage of ``old growth'' occurs in non-commercial 
forest types such as the pinyon-juniper woodlands of Arizona, New 
Mexico, and Nevada. With the expansion of pinyon-juniper woodlands 
outside of their natural range, due primarily to fire exclusion, there 
is a need to identify appropriate ecological sites for this forest type 
and to initiate actions to return it to the ``natural'' range. 
Currently, old growth trees are considered those native species that 
are at least 150 years old. Several states are piloting projects to 
manage their pinyon-juniper stands, and, where ecologically 
appropriate, reduce it's wildfire potential where fire exclusion has 
allowed for its unchecked expansion. Materials produced as a by-product 
of this ecologically based management strategy may provide measurable 
benefits for bio-energy production.
    Forest restoration treatments, particularly in dry forest types, 
are being undertaken with the complimentary objectives of protecting 
communities and providing forests that are resilient to disturbance 
factors, such as insects and disease. In other areas, such as the Mt. 
Trumbull area in the Grand Canyon Parashant National Monument, projects 
are designed to protect and enhance old growth forests and restore 
historically-based natural conditions as they existed prior to 
intensive livestock use and fire suppression.
    The Bureau, with the approval of Congress, has been able to augment 
forest health activities through the Forest Health and Ecosystem 
Restoration Fund. This revolving fund has funded over $50 million worth 
of on-the-ground forest health and restoration treatments since it's 
inception in 1993.
    Overall, the BLM's Public Domain Forestry Program manages those 
areas which contain old-growth stands where they exist in their natural 
range. The continued health and vigor of these older trees is 
considered in the treatments that are designed to improve forest 
resiliency, reduce wildfire hazards, and support a high level of 
biodiversity.
    Mr. Chairman, this concludes my prepared statement. I will be 
pleased to answer any questions that you or other members of the 
Committee might have.

    Senator Wyden. All right, very good.
    Ms. Collins.

       STATEMENT OF SALLY COLLINS, ASSOCIATE CHIEF, U.S. 
  FOREST SERVICE; ACCOMPANIED BY ROBERT LEWIS, PH.D., DEPUTY 
 CHIEF, RESEARCH AND DEVELOPMENT; MIKE McCLELLAN, PH.D., RUSS 
  GRAHAM, PH.D.; AND CURT KOTCHAK, PH.D., VEGETATION RESEARCH 
                ECOLOGISTS, U.S. FOREST SERVICE

    Ms. Collins. Thank you, Mr. Chairman, and thanks for the 
opportunity to appear before you today. It is always nice to be 
around fellow Oregonians.
    I am Sally Collins, the Associate Chief of the U.S. Forest 
Service, and I am accompanied here on my left by Dr. Robert 
Lewis, the Deputy Chief of Research and Development. In 
addition to that, I have with me three vegetation research 
ecologists from around the country: Dr. Mike McClellan from 
Juneau, Alaska; Dr. Russ Graham from Moscow, Idaho; and Dr. 
Curt Kotchak from Morgantown, West Virginia. We brought these 
folks in case of some technical questions about old-growth in 
the various ecosystems around the country.
    What I would like to share with you today is how the Forest 
Service through science has defined old-growth and its role in 
the ecosystem and spend a little bit of time talking about our 
old-growth policies as well as the Northwest Forest Plan, 
although I am reserving a lot of that to a subsequent hearing 
where we will actually talk about that. So I hope that is okay.
    At the outset, I want to make clear just four main points 
about old-growth forests that we have discovered over the 
years. First, there are a lot of terms used interchangeably to 
describe old-growth, terms like ``old forest,'' ``late 
successional,'' ``climax forest,'' ``ancient forest,'' ``forest 
primeval.'' All those are terms that really have almost 
interfered with the discussion and confused a lot of the 
dialogue around this issue. What we have spent the last number 
of years doing is defining that, and I will talk about that in 
a minute.
    The second point is old-growth forests are a vital part of 
healthy ecosystems.
    Third, old-growth characteristics vary across different 
ecosystems. We have heard that already and you will hear that 
some more today.
    Four, like other forest types, old-growth forests are 
dynamic forests that do not last forever.
    The Forest Service has developed specific definitions for 
old-growth for major forest and community types around the 
country for all nine Forest Service regions. In the southern 
and eastern region, a significant effort involving the Nature 
Conservancy was completed a few years ago. I want to add these 
to the record. There are 114 definitions of old-growth that I 
think are important to have in this dialogue.
    So I guess again, two points again to reiterate: that old-
growth has a lot of variety, a lot of variability; and second, 
that they are a dynamic system. All forests are in a continuous 
state of change. Insects, disease, wind, fire, and other 
natural forces are constantly at work altering the character of 
a forest. Fire can reset that successional clock, killing 
understory and removing and consuming dead material.
    It is important to note that forests in older even-age 
conditions like you would have even after a stand replacement 
fire can sustain themselves for long periods of time, but not 
permanently. As they continue to progress through their life 
cycles, many of the oldest trees typically die and, absent 
major disturbing activities, are replaced by shade-tolerant 
understory species. You have heard this. This is what 
succession is all about.
    Human management activities on forests can enhance or 
detract from old-growth activities or characteristics. 
Similarly, a lack of human management activities does not 
guarantee that old-growth characteristics will be established 
or maintained.
    Some believe that no management should protect old-growth, 
but we know silvicultural activities have the ability to 
accelerate the development of ecological characteristics 
associated with old and true forests. I spent some time talking 
to Tom Mills about the research that is being done on LSR's in 
the Pacific Northwest and we have determined--and some nice 
reports are out, very contemporary reports, about how this is 
possible.
    As you know, I spent a lot of my career in central Oregon. 
Many projects in LSR's in central Oregon where we actually 
protected the old-growth by having fire fuel breaks around 
those old-growth areas, so you could reduce the risk of fire 
through silviculture and protect old-growth that way.
    Just as a footnote before we leave this, in the West the 
area of older forest, over 150 years--and again, age is not the 
only criteria for an old-growth forest; there is all these 
other components that are different depending on species and 
area--we will double that number of the total forest area by 
2050, double the number of older forests, forests over 150 
years.
    Now, not all of those, again, are old-growth forests, but 
it will increase the number of older trees that are out there.
    Now, we have been recognizing the value of old-growth for 
the last 12 years in terms of Forest Service policy. In 1989, 
the Chief issued a policy statement on old-growth and in that 
we talked about the need to develop a good definition so we all 
are talking about the same thing. From that we have developed 
inventory information and so forth, and now we are in the 
position of being able to, through our forest plan amendments, 
have some good data out there that we can aggregate and use.
    Just a couple of comments about the Northwest Forest Plan. 
We are supportive of this notion of managing LSR's. We have 
been doing it. It has been working. We have averaged somewhere 
between 50 and 100 million board-feet a year of outputs from 
LSR's over the last 5 or 6 years and we know it can work, and 
now we have got research to support that conclusion.
    So with that, I just want to say the Forest Service is 
committed to maintaining significant areas of old-growth and we 
really look forward to working with the committee as we work 
through this really important issue.
    [The prepared statement of Ms. Collins follows:]
         Prepared Statement of Sally Collins, Associate Chief, 
                          U.S. Forest Service
    Mr. Chairman and members of the Committee, thank you for the 
opportunity to appear before you today. I am Sally Collins, Associate 
Chief for the USDA Forest Service. I am accompanied by Dr. Robert 
Lewis, Deputy Chief for Research and Development. We appreciate the 
Committee's interest in protection of old-growth on national forest 
lands. Today, I would like to share with you how, through science, we 
have defined old growth and its role in the ecosystem. I also want to 
spend some time discussing our old growth policy nationally and then, 
finally, focus on examples from the Pacific Northwest.
                        general characteristics
    At the outset, I want to make clear some important aspects of old-
growth forests that we have found:

  <bullet> Many terms are used interchangeably to describe old-growth;
  <bullet> Old-growth forests are a vital part of a healthy ecosystem;
  <bullet> Old-growth characteristics vary across different ecosystems; 
        and
  <bullet> Like other seral stages and forest types, old-growth forests 
        are dynamic forests that do not last forever.

    The terminology can sometimes be confusing. Terms such as ``old 
growth,'' ``old forest,'' ``late successional,'' ``climax forest,'' 
``ancient forest,'' and ``forest primeval,'' are often used 
interchangeably which sometimes leads to confusion in discussions about 
old-growth. A full discussion of these terms may be found in Appendix 
A.
    The Forest Service has developed specific definitions of old-growth 
for major forest/community types in all nine regions. In the Southern 
and Eastern Regions this significant effort was completed in 
cooperation with the Nature Conservancy. These are included as an 
appendix to this testimony.
                         old-growth variability
    Throughout the country there is a great deal of variety in old-
growth forests. In the arid west, ponderosa pine grows to large sizes 
in relatively open park-like conditions. Southern pine forests exhibit 
similar characteristics. These ecosystems are often dependent on 
frequent, light-intensity ground fires to thin competing vegetation. 
Dense canopies of hemlock dominate old hemlock forests of the Northern 
Rocky Mountains with little vegetation underneath, except hemlock 
seedlings and scattered shade-tolerant plants such as orchids. Along 
with this variety, there are numerous wildlife species and communities 
of species that are associated with mature and old-growth forests. Tree 
species that dominate old growth are determined by local topography, 
elevation, soil, climate, geology, ground water conditions, and 
especially by the disturbance history of the stand and the forest type. 
In the Eastern U.S., very few acres in old growth conditions exist due 
to past historic land use practices.
    Even forests that are not in a ``late successional'' stage can 
exhibit some of the ecological characteristics of old-growth. For 
example, aspen is short-lived and considered to be an early to mid-
successional species. At 50 to 100 years old, aspen forests can be 
dominated by large trees nearing the end of their life cycle with 
scattered dead trees both standing and on the ground. Young conifer 
trees invading the aspen might dominate the vegetation under the 
canopy. The forests are considered to be in an old-growth condition, 
even though they are not ``climax.'' While the aspen trees live a 
relatively short life, the root system--the clone--from which the 
individual trees grow, can live for thousands of years. When disturbed, 
such as through a wildfire or logging, the roots sprout new trees to 
replace those that have died. Absent any disturbance, ecological 
succession will continue as the aspen trees die, and a conifer forest 
replaces the clones.
                             dynamic system
    All forests are in a continuous state of change. Insects, disease, 
wind, fire, and other natural forces are constantly at work altering 
the character of the forest. Fire can reset the successional clock by 
killing understory and overstory and consuming dead material. 
Variables, such as fire intensity, fire frequency, and fire spread, 
play a major role in the amount, continuity, and extent of old-growth 
and other successional stages over time. Similarly, wind and insect 
activity create gaps or openings in contiguous old-growth forests in 
which shade intolerant species will establish.
    Across the country, many of our old growth forests were established 
decades or even centuries ago because of some intense disturbance such 
as a stand-replacing wildfire. Forests in an older, even-aged condition 
can be self-sustaining for long periods but not permanently. As they 
continue to progress through their life cycles, many of the oldest 
trees typically die over a period of time and, absent major disturbance 
events, are replaced by shade tolerant understory species. In this way 
an old-growth Douglas-fir forest may be replaced by an old-growth 
western red cedar/western hemlock forest.
    Human management activities on forests can enhance or detract from 
old growth characteristics. Similarly, a lack of human management 
activities does not guarantee that old-growth characteristics will be 
established or maintained. Some believe that no management other than 
protection should occur in old-growth. But silvicultural activities 
have the ability to accelerate the development of the ecological 
characteristics associated with old and mature forests. They also have 
the ability to reduce the risk of fire to existing stands of old-
growth. By using silvicultural treatments and/or controlled burning in 
some young, even-aged forests to enhance the development of their 
large-tree characteristics, the Forest Service is helping to create the 
ecological conditions associated with old-growth forests. Silvicultural 
treatments can also reduce the dense understories that have developed 
under some old growth forests, such as those in the ponderosa pine 
region, so as to reduce the moisture stress on large trees and the risk 
of stand-replacing wildfires.
    In the West, the area of forest older than 150 years will double to 
nearly one-third of total forest by 2050. (RPA Assessment 2000) While 
not all of these forests will have old-growth characteristics, many of 
them will meet old-growth criteria.
                                 policy
    The Forest Service recognizes the importance of maintaining an 
array of forest successional stages and conditions. In 1989, the Chief 
issued a position statement on old-growth. This statement recognized 
that there are significant values associated with old-growth and that 
decisions on managing forests to achieve old-growth values would be 
made during forest plan development. In 1990, the Chief directed 
Regional Foresters to develop definitions of ecological old-growth. 
These definitions have been developed for each Region as I mentioned 
previously. In January 2001, the Chief issued additional direction 
stating, ``Consistent with the direction issued in 1989, we will 
complete the inventory and mapping of old growth forests based upon the 
standard definitions and inventories of old growth by forest type and 
community that are already developed.'' Inventory and assessment of 
old-growth is being done on a forest-by-forest basis as forest plans 
are revised. In addition, Forest Service Manual direction is being 
developed to guide future revision or amendment of forest plan 
direction. We are considering the inclusion of the following elements 
in the directive system to implement the revised forest planning 
regulations:

  <bullet> The manner that we will protect, sustain, and enhance 
        existing old-growth forests as an element of ecosystem 
        diversity;
  <bullet> How we will plan for old-growth within a landscape context;
  <bullet> Direction to determine the historic extent, pattern, and 
        character of old-growth; and
  <bullet> How forest plans will project forward in time the amount, 
        location, and patterns of old-growth within the national forest 
        system envisioned under alternative management options.
                         northwest forest plan
    We understand there will be a future hearing before this Committee 
on the Northwest Forest Plan (NWFP), and we will defer until that time 
addressing how and whether the plan is working. However, with respect 
to the topic of this hearing, we thought you might be interested in how 
the NWFP addresses old-growth.
    The 24.5 million acres of federal land covered by the NWFP would 
provide for a substantial increase in old growth over the long-term. Of 
the land that is considered capable of growing forests (20.5 million 
acres), 41 percent was in a medium to large conifer condition in 1994. 
The NWFP projects a significant increase in medium to large conifer 
forest over the long-term for the area overall. In addition, the NWFP 
anticipates that forests of young trees will continuously occupy about 
20 to 40 percent of federal lands. There still remains, however, 
significant disagreement about the extent of old-growth forests in the 
Northwest prior to European settlement. The amount of old-growth may be 
more than existed prior to European settlement. For instance, Tom 
Bonnicksen states in America's Ancient Forest that older Douglas-fir 
forests covered about 60 percent of the ancient landscape along the 
Pacific. Elsewhere, young stands in late successional reserves 
established prior to implementation of the NWFP can be treated through 
silviculture to accelerate development of ecological conditions 
associated with mature and late successional forests.
    In areas where no timber production is scheduled, nature will 
continue to regenerate the forest through disturbances, such as 
wildfire, or the natural life cycles of individual plants. Between 1994 
and 2000, approximately 266,700 acres of national forest land in 
Washington and Oregon within the area of the NWFP burned. From 1995 to 
2000, approximately 25,000 to 30,000 acres of national forest land in 
Washington and Oregon within the area of the NWFP were harvested.
                                summary
    The Forest Service is committed to maintaining significant areas of 
old growth. Analysis of this issue and management decisions are guided 
by national policies and are appropriately handled at the forest and 
sub-regional level through revisions of our forest land and resource 
management plans. We will continue to actively manage late successional 
reserves to speed the development of old-growth characteristics. We 
look forward to working with this Committee as we move forward on these 
and other important forest management issues.
    This concludes my testimony. I would be glad to answer any 
questions that you may have.
                               appendix a
                             Defining Terms
    While we have developed definitions for each major forest/community 
type, there are alternative definitions and terms frequently used in 
the discussion. These terms often trigger thoughts of the Pacific rain 
forests with multi-storied forest structures of redwoods or Douglas-
fir, a fern-covered forest floor, and large, moss-covered trees 
decaying on the ground. But this picture does not accurately depict 
old-growth forests as they exist in other parts of the country.
    As we discuss the issues surrounding management of old-growth, I 
would like to share with you how we have defined these various terms:
    Late successional forest: A range of forest conditions that develop 
over time, beginning with stands in which tree crown expansion slows, 
openings between trees become larger and more stable over time in terms 
of stand structure, and large, standing dead and fallen trees begin to 
accumulate.
    Ancient forest: This is a term used by many that is not science 
based. It generally refers to forest areas that are relatively 
undisturbed by human action, ranging in size from a few to hundreds of 
thousands of acres. These areas may be near, surrounded by, or adjacent 
to forest areas that have been substantially disturbed or altered by 
human management. As described by many participants in the discussion 
of old growth, ancient forests seem to have the following 
characteristics:

  <bullet> Largely naturally regenerated;
  <bullet> Less than 30% of the stand or forest area has been logged 
        within the past century;
  <bullet> Relatively undisturbed such that human activities have not 
        significantly altered native forest structure, composition, or 
        function;
  <bullet> Relatively unmanaged, although they may have a history of 
        fire suppression or grazing; and
  <bullet> Composed of individual trees or stands of trees of different 
        ages, with old-growth components constituting at least half of 
        the stand or forest unit and having at least four trees per 
        acre over 150 years of age.

    Forest primeval; forest from very early times; original forest: A 
forest that is estimated to have existed on the planet about 8,000 
years ago, before large-scale disturbance by humans began. It should be 
noted that at the time of European contact, substantial acres of North 
America's original forest had been substantially modified by human 
action, including widespread use of fire and clearing for agriculture 
in some areas.
    Climax forest: Last stage of forest succession that can be self 
perpetuating over time absent any disturbance.
    Old-growth and old forest: Ecosystems distinguished by old trees 
and related structural attributes. The characteristics of old-growth 
will vary considerably based on forest type. For example, the 
characteristics of Douglas-fir old-growth in western Oregon are 
considerably different than those of ponderosa pine in eastern Oregon. 
Pinyon-juniper old-growth characteristics in the Rocky Mountains are 
very different than that of limber pine in the Intermountain Region. 
Certainly, these western old-growth forest types are very different 
than the hardwood forest communities in the East. Old-growth 
encompasses the later stages of stand development which typically 
differ from earlier stages in a variety of characteristics that may 
include tree size, accumulations of large, dead woody material in some 
forest types, number of canopy layers, species composition, and 
ecosystem function. The age at which old growth develops and the 
specific structural attributes that characterize old growth will vary 
widely according to forest type, climate, site conditions, and 
disturbance regime. For example, old growth in fire-dependent forest 
types may not differ from younger forests in the number of canopy 
layers or accumulation of down woody material. However, most old growth 
is typically distinguished from younger growth by several of the 
following structural attributes:

  <bullet> Large trees for species and site;
  <bullet> Wide variation in tree sizes and spacing;
  <bullet> Accumulations of large, dead, standing and fallen trees 
        (except in forest types characterized by frequent, low 
        intensity fires);
  <bullet> Decadence in the form of broken or deformed tops or bole and 
        root decay;
  <bullet> Multiple canopy layers (in some forest types); and Canopy 
        gaps and understory patchiness.

    Senator Wyden. Thank you very much.
    Ms. Collins, you have got those big tomes in front of you 
and you said there were 114 different studies about what 
constitutes old-growth, correct?
    Ms. Collins. It is not studies. They are definitions of 
old-growth based on region, species, and community type. So 
basically these are our definitions of old-growth.
    Senator Wyden. My reason for asking is that--I am sure that 
is the case--has anything been done to find commonalities 
between those 114? Because it would seem to me that if we took 
what those 114 said, well, we can come up with three-quarters 
of what it takes to get a definition of old-growth by just 
taking common elements, then we can work with you, the 
Congress, on a bipartisan basis and get the rest of it.
    Have you done that?
    Ms. Collins. Yes, there are some common elements, and when 
we talk about the term ``old-growth'' we can--Robert, you may 
want to answer that question.
    Dr. Lewis. Right, there are some common terminologies that 
can be used, depending on the forest type. But one thing that 
would be in common is the structure: multiple layers, multiple 
canopy levels. The reason we have so many types is because we 
have the entire USA. We have eastern forest as well as the 
western forest. We have pinion pine, which might be very small 
in diameter, but yet hundreds of years old.
    So you can see why there are so many variations in 
definition, but basically we look at the characteristics of a 
stand, of a forest, based on the species that are involved, 
such as ponderosa pine.
    Senator Wyden. Doctor, could you get to the subcommittee 
within 2 weeks a list of the common characteristics that you 
have found on old-growth? In addition, could you provide a list 
of the areas where there are differences of opinion? Because I 
would like to find some ways to expedite this whole effort 
because, as Ms. Collins said, in 1989 people were talking about 
it and people are still going to talk about it unless we move 
this along. So in 2 weeks could you have that for us, doctor?
    Dr. Lewis. We could give you the definitions that we have 
and also some commonalities that we have. We are basically 
looking at the composition and structure of stands.
    Senator Wyden. I know you have got the book with 114. What 
I want are the areas with respect to those 114 different 
assessments where there are commonalities, and then I want to 
know where there are differences, so that we can begin to speed 
this up to get a definition.
    Dr. Lewis. There are six characteristics that we usually 
look for. One would be large trees; wide variation in tree size 
and spacing; number three, relative high accumulation of large-
sized dead and fallen trees; decadence, that means deformed 
trees, trees with broken tops and so forth; multiple canopy 
layers; and canopy gaps and understory patches.
    These are the six commonalities that we see in old-growth. 
Now, when you use the term ``large trees'' you have to keep in 
mind that this term is relative. A tree is large relative to 
the species of that tree. A redwood tree, very large; eastern 
cottonwood, it dies when it is relatively small and it gets to 
that stage where it will be no more.
    One thing about old-growth, the term that we use, it is a 
term that has value to it. It has been stated earlier that 
these trees are not static, these stands, these ecosystems. 
They constantly change. Every year there is one change or 
another, whether it is a change due to changes in the climate 
or whether it is a change due to an invasive species invading a 
particular site. It will not remain a snapshot in time.
    Senator Wyden. Ms. Collins, 2 weeks, can we have it?
    Ms. Collins. Yes, you can.
    Senator Wyden. Okay, very good.
    Now, my understanding is some of the technology, 
particularly remote imaging capability, can be of real value in 
terms of completing the inventory and the mapping of old-
growth. Why has it taken so long to get the inventory, given 
the technology that seems to be out there the speed it up? Are 
you lacking money, are you lacking people? What is holding it 
up?
    Ms. Collins. Well, we have a forest inventory program that 
actually Robert is in charge of, that looks at forest inventory 
information on a very broad scale using all of that kind of 
information, and we have research plots all over the country. 
We have been monitoring those and we do have very good data 
from that.
    It depends on the scale that you need to use this 
information. At a forest plan level you need a certain kind of 
information. At a broad regional level that FIA, forest 
inventory information, is very useful and provides a lot of 
context. If I as a forest supervisor want to do something on a 
specific set of 500 acres, I need to know more than that data 
can give me specifically.
    So that is the kind of information that we are looking at 
in terms of having the level of resolution at the point that 
you actually decide to do something on the ground. So we have 
to have a different level.
    Senator Wyden. That tells the public where the old-growth 
is, right?
    Ms. Collins. It gives you, the larger inventory data gives 
you a general sense, but it does not tell you specifically 
where all the old-growth is.
    Dr. Lewis. Yes. The FIA program, the forest inventory and 
analysis, does an analysis of the Nation's forests, both public 
as well as private. It does the entire Nation. We look at 
attributes such as tree size, and the FIA counterpart data 
would be the DBH, the diameter-breadth-height; multiple canopy 
layers, tree species, snag, tally, or cull data; coarse, woody 
debris; stand age, meaning the age of the trees; and the growth 
rates; and the total bough mass and composition.
    All of these data are acquired through the forest inventory 
and analysis program, and we present a snapshot of the Nation's 
forests, whether Federal or private. But we do produce 
specialized reports for the regions and national forests.
    Senator Wyden. Now, Ms. Collins, in your prepared testimony 
you said that the inventory would be completed as the existing 
forest plans were revised. But obviously, revising the forest 
plans has not been going forward in a timely way. Lots of them 
are not going to be revised within 15 years, as required by the 
National Forest Management Act. So the public is going to have 
to wait even longer for mapping and inventory information.
    Do you not think it is important to get this information so 
we can move more expeditiously with management activities and 
an integrated management plan?
    Ms. Collins. Let me just put on a forest supervisor's hat 
for a minute. In terms of managing a national forest out there, 
I knew where all the old-growth was. What we have Northwest 
Forest Plan is some common definitions so that across a whole 
region we are talking about the same thing. For the first 5 
years I was a forest supervisor I had 15 different definitions 
of old-growth that I was working on on one forest. It was very 
confusing.
    So what we need to do is as we refine these definitions 
make sure that we are all talking about the same thing and we 
know what we are protecting old-growth for, we know exactly 
what characteristics we are looking for and where those are on 
the ground.
    As we revise the forest plan, all of that will be mapped 
and all of that will be integrated into that larger plan. But 
as projects appear on a daily basis, we bring that new 
information in. We are always out there gathering new 
information and bringing that new information into our planning 
effort, so we know the context of the planning, we know where 
the old-growth is for a given project, we know what we need to 
sustain the, for example, Northwest Forest Plan standards and 
guidelines.
    So it is brought into the decisionmaking on a day-to-day 
basis.
    Senator Wyden. The only problem is, unless this is sped up 
it is going to be too late. It is going to be too late both in 
terms of protecting old-growth and in terms of meeting the 
economic needs for the communities. I want to emphasize, with 
lots of the plans not being revised as the law requires, not 
being revised in a timely way, I think it is inevitable that 
people are going to wait even longer for mapping and inventory 
information, and I do not think you all are even taking full 
advantage of some of these technologies, which is why I asked 
about remote imaging capability.
    So we are going to start by having you in the next 2 weeks 
get me these common definitions so that I can see what areas 
there is common ground on and what areas that there are not. 
Just know that this subcommittee is going to be prodding your 
agency very, very hard to get on with this inventory and using 
the technology, making sure that the plans are updated. At the 
pace we are going this could be the longest-running battle 
since the Trojan War, and I do not think these communities, 
both from the standpoint of economic needs and these special 
treasures, our old-growth, can afford that. That is something I 
feel strongly about.
    Let me ask you about thinning and the potential there for 
thinning in the LSR's. I want to ask both of you, you, Ms. 
Collins, and you, Mr. Bisson. How much timber volume in your 
view could be harvested annually through a program of thinning 
the LSR's to quicken their development of old-growth 
characteristics?
    Ms. Collins. We had our forest analyst in Portland do an 
analysis that came up with a figure of 86 million board-feet 
that could be annually harvested in those stands that have 
commercial value between 30 and 80 years of age in LSR's. Now, 
over the last 10 years, as I said, we have harvested somewhere 
between 55 million board-feet a year and 115 million board-feet 
a year. So that is very--in that time period, just based on 
what we could do, where we could put our program of work that 
year and what went through the system.
    So we have the capacity to do something just under 100 
million board-feet, in that area.
    Senator Wyden. Mr. Bisson.
    Mr. Bisson. For the BLM, we estimate that about 15,000 
board-feet per acre of timber would be produced as a byproduct 
from thinning to meet the LSR habitat goals; and an annual 
thinning program of approximately 11,000 acres, which we think 
we could sustain, would produce approximately 165 million 
board-feet a year.
    Senator Wyden. Now, the projections you are giving are 
based on current budgetary levels?
    Ms. Collins. Well, I do not know. That was the long run 
sort of floor plan analysis capacity of a long-term program 
that we were given. I am looking at something else here in 
front of me----
    Senator Wyden. Why do we not?
    Ms. Collins. Yes, this is pre-commercial thinning, okay.
    Senator Wyden. It is at current budgetary levels?
    Ms. Collins. Yes.
    Mr. Bisson. Not for us.
    Senator Wyden. Yours is the ideal?
    Mr. Bisson. Ours would require about a $20, $25 million 
increase per year to carry out that kind of a program.
    Senator Wyden. How much of a budgetary increase, then, 
would the Forest Service need to do a thinning program at a 
desirable level?
    Ms. Collins. All right, let me just say what I have in 
front of me here. We can get back to you on it with more 
specifics on this, but the Forest Service estimates it would 
cost about $32 million to initiate an LSR thinning program that 
is really of this size. We think we have about 1.5, 1.6 million 
acres of overstock stands, so 75,000 initial treatment acres, 
and some of those are commercial, some of those are pre-
commercial.
    We can get you more specific information if you need it, 
but that is what they just handed me.
    Senator Wyden. Do your agencies favor thinning in 10- to 
30-year-old stands, which I gather a lot of the experts feel 
are more ecologically productive, or thinning in older, 50- to 
80-year-old stands, which many assert are more cost-effective?
    Dr. Lewis. I would invite one of our silviculturalists to 
come up to the podium as well, but it depends on the management 
situation, the species that you are dealing with. Russ? Russ 
from the Rocky Mountain Experiment Station from Moscow.
    Dr. Graham. Mr. Chairman, I think we have excellent 
opportunities to clean and weed our young stands to produce 
desired conditions into the future. The rub comes to that. 
Usually there is a non-marketable value to thinning of that 
small material. Uneven spacings, multi-species spacings, can be 
very effective in producing those conditions.
    Senator Wyden. So does that put the Forest Service in the 
10- to 30-year camp or the 50- to 80-year camp?
    Dr. Graham. I believe that from my point as a researcher 
and as a Forest Service person it puts us in both camps very 
effectively, throughout the Rocky Mountains, throughout I would 
argue, through the West Coast, this is where we can operate in 
both of those arenas very effectively to create these 
conditions.
    Senator Wyden. BLM, what is your position on this?
    Mr. Bisson. We will take any thinning we can get. Right 
now, virtually every thinning we try to do gets protested or 
appealed. I am not being facetious. I think we would propose to 
do thinnings in both age categories.
    Senator Wyden. You share the Forest Service version that 
within an integrated forest management plan and area you can 
probably have the two go side by side?
    Mr. Bisson. Yes.
    Senator Wyden. A question for both of you in the 
scientists' division. I want to make sure that we are working 
with Fish and Wildlife and National Marine Fisheries Service, 
because the history of every one of these issues is that one 
hand of the government does not talk to the other on the key 
questions and it is clear that one of them that we are 
wrestling with right now is the definition question.
    Are you all talking now to Fish and Wildlife and National 
Marine Fisheries Service, so that we can get at least the 
question of definitions, ramifications for habitat, sped up and 
there is some coordination?
    Dr. Lewis. As a practice, this agency has worked very 
closely with Fish and Wildlife Service. As a research 
organization, we are interested in objectivity, in actually 
having a clear, objective, empirical number of studies that we 
can deliver to the policymakers to enable them to make better 
decisions.
    On the old-growth issues, we have done some work out in the 
Pacific Northwest, as well as other parts of the country as 
well. There are a number of issues surrounding it that we 
clearly do not have that empirical data that we think we need.
    Senator Wyden. What is the work you are doing with Fish and 
Wildlife and NMFS now on old-growth? Because that is going to 
be clearly critical to getting this done
    Dr. Lewis. We have with them on the northern spotted owl. I 
do not know if Sally has anything that she wants to add in the 
policy arena. Hold on just a minute.
    Dr. Graham. In my own personal experience, we worked with 
the interior Columbia River Basin project. We worked quite 
heavily with National Marine Fisheries and Fish and Wildlife 
Service in the planning process and in the assessment of the 
salmon and the forest habitats of the interior Columbia Basin 
in Oregon and Washington and western Montana and Idaho. So we 
did have a lot of work with those organizations during that 
process over the last 7, 8 years.
    Senator Wyden. Do you want to add anything to that, Ms. 
Collins?
    Ms. Collins. I think in terms of the research part of it, I 
think that actually we do a lot of research into habitat needs. 
Forest Service does a lot of research into habitat needs of 
different species as well as definitions for old-growth. I 
think the U.S. Fish and Wildlife Service and the National 
Marine Fisheries Service use a lot of our research.
    Dr. Lewis. I would like to share one other example. We 
worked with Fish and Wildlife Service very extensively on the 
Mexican spotted owl and the northern goshawk in ensuring that 
we had sufficient habitat to avoid getting some of these 
species being listed as threatened or endangered based on 
empirical information, based on science.
    Senator Wyden. I bring it up by way of saying that at the 
end of the day when we are going to try to see if we can put 
together this creative new approach, I just do not want to be, 
particularly with the Forest Service, Ms. Collins, I do not 
want to be in the position of being told we are still going to 
need more from NMFS, we are going to need more from Fish and 
Wildlife, so that is why you guys cannot go forward, and you 
cannot try to move a bill.
    Ms. Collins. I want to be there right with you.
    Senator Wyden. You are on notice that that is something we 
expect to have done now as we try to get definitions, as we try 
to get the inventory questions, as we try to get the remote 
imaging capability work going forward.
    Just a couple of other questions at this point for our 
first panel. Mr. Bisson, the agency has said that the reason 
that the probable sale quantity has not been met stems from 
lawsuits, including one related to a survey and management. But 
as I understand it, the lawsuit was filed because the agency 
had not completed the surveys as required by Northwest Forest 
Plan.
    Could you set out for the record today why the surveys were 
not complete?
    Mr. Bisson. I am afraid I cannot do that at this point. I 
would be happy to respond in writing, Senator Wyden. I am just 
not familiar with the exact circumstances that you just 
described.
    Senator Wyden. Because largely you all came here, your 
testimony was more focused on the forest land than it really is 
on the old-growth question, which is what we have talked about 
specifically. So I ask why it was that we were not getting the 
probable sale quantity that the forest plan called for, and it 
seemed to me it was about lawsuits. I figure if you all were 
going to make that the focus of your testimony when we ask for 
something else, you ought to tell us why it is not being done.
    Mr. Bisson. Part of the issue I think revolves around 
species several years ago that were very difficult to inventory 
and to locate. Even scientists I do not think had very good 
methods in terms of locating them. They were on the survey and 
manage list, and I think the purpose for this supplemental EIS 
was to eliminate species that were very difficult to locate.
    We are also going through a process, I think many of the 
stands, the Matrix stands in particular, where we are doing 
Survey and Manage we are finding some of the Survey and Manage 
species in many locations, and we are in the process of 
developing strategies to manage those species so that we can 
make decisions on which areas would be managed for those 
species and free up other Matrix lands where we could proceed 
with timber sales.
    Senator Wyden. Next time you come and talk about something 
other than what we asked for, be prepared to be asked some 
questions about it.
    Mr. Bisson. Yes, sir.
    Senator Wyden. Because we wanted to get in with you in more 
detail on the old-growth question, and it seems to me most of 
your testimony deals with the forest plan. Since this is our 
first hearing on the subject, I want you to know how we are 
going to go about it in the future.
    Mr. Bisson. Yes, sir.
    Senator Wyden. I want to recognize my colleague here in 
just a moment, but one last point for you, Ms. Collins, if I 
could. On this question of the definitions of old-growth and 
having you go through those gigantic tomes in front of you and 
speeding this up and working with the other agencies and 
getting the inventory process, what is behind it is that 
decisions are now being made with respect to forest plans and 
public processes that require people have this information.
    I mean, in the process of revising forest plans people are 
saying on certain stands, save this and log that, and it is 
done in a public way. If the public does not have the 
information that I am talking about with respect to old-growth, 
information that the agencies started talking about in 1989 and 
the public does not know, for example, about old-growth 
characteristics, it is a little like your agency is asking the 
public to go on a blind date with the Forest Service.
    I think that we have got to do better than that, and that 
is what we are going to try and do, with your cooperation and 
your assistance on this issue.
    Let me recognize now my colleague from Oregon. I appreciate 
him coming.

         STATEMENT OF HON. GORDON SMITH, U.S. SENATOR 
                          FROM OREGON

    Senator Smith. Thank you, Senator Wyden. I have been at a 
national security briefing, so I am sorry I am late to this. 
But this is also important because it relates to our resource 
security.
    I welcome you all. I would ask that my statement be 
included in the record.
    Senator Wyden. Without objection, so ordered.
    [The prepared statement of Senator Smith follows:]
   Prepared Statement of Hon. Gordon Smith, U.S. Senator From Oregon
    Thank you, Mr. Chairman, for holding today's hearing on the 
management of ``old growth'' forests. This is a topic that is often 
confusing, and always controversial. I would also like to welcome 
several Oregonians to the hearing today, particularly Bruce Daucsavage 
of Ochoco Lumber in Prineville, Oregon. Bruce, more than any of us, 
knows the impact of failed forest policies on small communities and I 
am glad to have him with us. Also here today are Oregon Congressman 
Peter DeFazio, James Johnston of Eugene and Sally Collins--former 
Supervisor of the Deschutes National Forest--who is now Associate Chief 
of the Forest Service here in Washington.
    Let me begin with the problem of definitions. Age, size, diversity, 
structure--these are all components that at different times have played 
into the definition of old growth. For some, old growth refers to a 
specific type of habitat for a particular species like the spotted owl. 
For others, old growth is more of a conversational term, simply 
implying big trees. Even if scientists could agree upon one definition, 
the fact is that old growth lies in the eye of the beholder--and the 
beholders are legion.
    Ten years ago, the term ``old growth'' had a fiery birth in the 
Pacific Northwest and has been emblazoned in forest management ever 
since. Since then, we have all done our best to cope, comply with 
federal law, and keep our communities alive. Whether or not that has 
worked, or is viable, will be the subject of another hearing.
    What I would like to have addressed today is one particular aspect 
of the Northwest Forest Plan relating to old growth. In the Record of 
Decision, thinning of young stands was considered beneficial to the 
development of late-successional and old-growth characteristics. 
Unfortunately, this management tool has been under-utilized.
    The Suislaw National Forest in Oregon, for example, is largely 
classified as Late Successional Reserve (LSR) and moving rapidly into a 
competitive stage which scientists say offers very little biodiversity 
and will not develop into healthy vibrant stands that will reach 150-
500 years old.
    The forest professionals of the Siuslaw National Forest have 
identified approximately 300,000 acres in need of density management, 
including areas hand-planted over the past 35 years. An aggressive 
thinning proposal--approximately 5,000 acres per year--enjoys broad 
support for its potential benefit to both local economies and to the 
objectives of the Northwest Forest Plan. When I inquired with the 
Forest Service regarding this proposal, I was told that two factors 
precluded moving forward with an aggressive thinning program: 
insufficient funds and inadequate authority.
    At their root, these barriers reflect a decision to contract-out 
thinning projects, rather than selling thinning projects as sales. I 
very much hope that the Forest Service is exploring alternative means 
of spreading out the cost of thinning, either through additional 
Congressional authorities or through changes in management priorities. 
Over time, I would like us to remain focused on progress on this front, 
as well as the most appropriate roles for Congress and the 
Administration.
    Let me conclude by again thanking all those who are here to 
testify, and for my colleague from Oregon for holding today's hearing.

    Senator Smith. Ms. Collins, nice to see you. I wonder if 
you can give me a sense over the last--it seems like every year 
we are losing about 10 million acres of grassland, forest land 
to fires. How much old-growth are we losing in that equation?
    Ms. Collins. I think it was something over--and I will just 
talk about the Pacific Northwest and the only thing I have in 
my head at the moment is the Pacific Northwest and the 
Northwest Forest Plan. But I think we were looking at some 
figures earlier today, that there were about 250,000 acres that 
burned, and I am not sure if that is in the last year.
    Senator Smith. This year or each year?
    Ms. Collins. Since 1994 to 2000, so that is about 8 years. 
252,000 acres. A lot. We have harvested about 30,000 acres.
    Senator Smith. We have lost a quarter of a million and 
harvested----
    Ms. Collins. Harvested about 25 to 30,000, yes.
    Senator Smith. Is there anything that we are talking about 
doing in terms of forest health that could have reduced that 
acreage? Has any proposal been made by anyone that would have 
made that acreage smaller and perhaps the damage less?
    Ms. Collins. We have been doing a lot of work all over for 
forest health treatments. We might be--that number might be 
larger if we had not done that. We have examples all over 
central Oregon, as an example, where we have stopped fires that 
might have gone further into stands because we had some good 
thinning around those other stands. We have done that.
    So I know that a lot of that good forest health treatment 
is going on out there. Whether it is aggressive enough, whether 
it is enough to do the kind of work that needs to be done, is 
really a good question.
    Senator Smith. When you gave me that percentage of how many 
acres have been--not percentage, but the number of acres that 
have been burned that constituted old-growth, that obviously 
assumes there is a definition of old-growth. What is that 
definition?
    Ms. Collins. It is interesting that you said that, because 
I kind of got these two larger binders here with 114 
definitions that we talked about all over the country for about 
6 years. We came up with a compendium, a collection of 
definitions that relate to species and community types in the 
nine regions of the Forest Service.
    But we know that there is a certain collection of 
characteristics that are pretty consistent. They are the 
largest trees on that particular site----
    Senator Smith. What would their age generally be?
    Ms. Collins. In general, it is all over the place. Aspen 
can be old at the age of 80 to 100. So each species--and I am 
speaking and I should be handing this over to the scientists.
    Senator Smith. How about douglas fir? What is old-growth?
    Ms. Collins. Do you want to answer that one, Russ?
    Dr. Graham. Well, again, douglas fir, remember, grows from 
the Mexican border to the Canadian border nearly to the middle 
of Wyoming.
    Senator Smith. But Pacific Northwest douglas fir?
    Dr. Graham. So what I would say is it can grow--old-growth 
may be on the West Coast, might be 200 years plus. In the 
middle of central Idaho, we can have old-growth douglas fir of 
400 years. So again, even douglas fir can be maybe as young as 
100 years to as old as maybe 400 years.
    Senator Smith. How about ponderosa?
    Dr. Graham. Ponderosa pine is another wide-ranging conifer 
species, again very much like douglas fir. In northern Idaho we 
might have old-growth characteristics as young as 80 to 100 
years. Meanwhile, in southern Arizona and southern New Mexico 
it might be 200 or 300 years old. Also, you have got to 
remember in Arizona, the Mogian Rim, a tree gets over about 24 
inches in diameter and about 100 feet tall, lightning is going 
to take care of that old-growth.
    Senator Smith. As a general rule, on the west side of 
Oregon and Washington and California old-growth would be 
anything above 100 years?
    Dr. Graham. That is usually a good benchmark statement, 100 
years.
    Senator Smith. And east side would be 80 and above?
    Dr. Graham. Probably 150.
    Senator Smith. 150.
    Dr. Graham. But again, you could have, in pinion juniper 
you might have not those forest structures developing until a 
much older age. In some ecosystems you might have what would be 
valued and described as old-growth at a much younger age or a 
much older age. But those are some ballpark numbers of ages, 
yes.
    Senator Smith. Would those ballpark numbers in the Forest 
Service be a consensus opinion? I am really just asking this 
because----
    Dr. Graham. No.
    Senator Smith. No, okay. Would it not be helpful to have a 
definition that is sort of a reasonable--reasonable people 
could agree that in these kind of conditions, this number of 
years constitutes old-growth? Because I just think this is such 
a moving target, that by some standards you cannot cut anything 
because it is all old and by other standards it is clearly not.
    I do not know how to get my hands around this issue if the 
experts do not have any consensus, either.
    Dr. Lewis. I remember reading the background of the 
original definitions in 1989 and every region came in with a 
different definition. When you refine it to different forest 
types, you further break it out in various refinement.
    Senator Smith. Do the Federal courts have any definition?
    Dr. Lewis. I do not think anyone has a consistent 
definition. It is almost like my age. When I was 40 I was not 
old, but now I am older. It is a relative term and it means 
different things in different parts of the country and to 
different people.
    Senator Smith. I guess the reason I am asking what is old-
growth and is there a consensus is it sort of answers my next 
question, which is is there any consensus as to how to manage 
old-growth for health? You described, Sally, a lot of things 
that have been done, but does anybody agree on whether what you 
have done, is it of value?
    Ms. Collins. Well, I think it depends on whether you are 
talking about a management question or a research question. I 
think we have some good research that is beginning to show us 
that we can manage stands to create these old-growth 
characteristics more quickly than if we just left them alone, 
especially if you are talking about a sort of even plantation 
kind of setting that we are talking about in some of these 
LSR's that we talked about in central Oregon.
    But I think it really is important to think about what do 
you need these definitions for. We think we need these 
definitions because it takes that kind of variety and 
acknowledgment of differences in order to effectively manage 
them, because the research is different. The research is 
different on managing LSR's on the west side and the east side 
of Oregon.
    We do not have research, for example, that says thinning 
LSR's on the east side of Oregon accelerates the old-growth 
conditions. We do know the research is pointing to that 
conclusion on the west side. What we know on the east side is 
it is good at protecting. Because of the fuel breaks that we 
can create, we can protect the old-growth from getting burned 
perhaps.
    So again, it is very specialized. We really feel like we 
need to know what these definitions are in order to know what 
we are managing for and what we want to emulate, and 
acknowledge those differences.
    Senator Smith. Do you have the authority to set these 
standards regionally in terms of a forest?
    Ms. Collins. Yes.
    Senator Smith. Do you feel like, if you have the authority, 
would it not be helpful to establish a case for your management 
of the area, whether it is a little or whether it is a lot, 
that is defensible in Federal court? Is that important to do? 
It just seems to me that this is the first order of business, 
to get our hands around what it is we are even talking about.
    Ms. Collins. Well, that is why we did this effort, to get 
these common definitions, because we do think that they are the 
best we have to go to court or to manage for whatever 
objectives we come up with in our individual forest plans and 
our individual regions. We have to have something that we can 
use as sort of a baseline: This is what old-growth is here.
    If we want to recreate it, if we want to move toward it 
over time, naturally, whatever it is we want, we have to have 
that as a template, as a basis for doing that.
    Senator Smith. Sally, you are speaking as though you have 
got this done, but I thought I heard you say before there was 
no agreement.
    Ms. Collins. There is a set of agreed upon definitions. But 
I will tell you, you will have, as in any research community, a 
lot of lively debate and discussion about it.
    Senator Smith. Would it be helpful if Congress just 
legislated what it was?
    Ms. Collins. It is like any science that is constantly 
evolving. As we learn more, it is more refined. I am answering 
again a scientific question I should not.
    Dr. Lewis. No, go right ahead.
    There are some points that I think we should keep in mind. 
All of these ``old-growth forests'' were managed by nature at 
one time.
    Senator Smith. Yes.
    Dr. Lewis. And in some areas they were replaced about every 
300 years by fire. Even if people did nothing, they would come 
to an end, an end point, and they will have a rebirth and they 
will develop all over again.
    We have managed for certain characteristics, certain 
attributes that we commonly associate with ``old-growth,'' such 
as large trees, habitat for certain species. We can do that and 
we have demonstrated that through some of the demonstration 
ecosystem management projects, and we think that this might be 
a way to try to enhance and accelerate some of those attributes 
and qualities that we look for and that we value.
    You wanted to know what could we do to manage. It is a fact 
that these old stands need to be protected from invading 
species of insects, disease, we have wind-throws. Anything we 
can do to actively manage them to allow them to prolong their 
life spans in a particular state or appearance, then I think 
that is a good thing.
    Senator Smith. I guess, Mr. Chairman, the only thing I 
would ask is is there anything that we can do that could be 
helpful to you in resolving this debate for purposes of setting 
a standard, which is what laws are, by which we judge conduct? 
Do you need Congress to do anything, or should we just be 
quiet?
    Ms. Collins. You go ahead.
    Dr. Lewis. I think someone in some of this briefing 
material quoted Jack Ward Thomas as saying that these systems 
that we are managing are incredibly complex. There is not a 
simple answer. There is not an answer that can apply in the 
States of Oregon, Washington, all the way to Mississippi, where 
I reside from.
    Scientists will differ. Scientists in this room today as we 
speak probably do not have the same definition of old-growth. I 
wish you could.
    Ms. Collins. I would like to just say one thing about that, 
because I do think--and when Congressman DeFazio was talking 
about those, earlier talking about those three different 
examples of forests and what they looked like--we have to be 
able to experiment. We have to be able to do the active 
management. We have to be able to get out on the ground and try 
some things.
    I can say as a frustrated manager, trying to do that 
sometimes we ended up going to private land to try some of 
those kind of different prescriptions, to show what it looked 
like to do different things on the land. So there are probably 
a variety of things that we can work on together that make some 
of that easier for us, and we would certainly support these 
ideas that you have for LSR management. We are really right 
behind that.
    Senator Wyden. I thank my friend for making a number of 
important points.
    Let me give you a sense of what we are going to try and do. 
Senator Craig and I have talked about it and I have talked 
generally about the issue with Senator Murkowski this morning. 
You are absolutely right, this question of getting the 
definitions is going to be central. I think it is fair to say 
what we have got at this point on this issue of old-growth 
definitions are those two tomes that Sally must be carrying 
around in a wheelbarrow or somebody else uses for their morning 
workout.
    What we have asked the agency and what Ms. Collins has 
agreed to do is to give us within 2 weeks a set of the areas 
where there is agreement on the definitions of old-growth and 
then the areas where there is disagreement, so that we can then 
work with the agencies to try to get the agencies to bring us a 
common position on old-growth.
    I was just thinking about the prospect of you and I at our 
regular Oregon Senate lunch on Thursday trying to do this 
ourselves in the Senate Dining Room, and I was cringing at the 
prospect.
    So what we are going to do is get within 2 weeks the Forest 
Service judgment about where there is common ground, where 
there is not common ground.
    Ms. Collins. Or maybe those things, if I might add, that we 
have some common ingredients that I think Robert started 
talking about prior to you arriving, Senator. There are some 
common ingredients and there are some of those that vary by 
ecosystem type that are common, that vary that are common. So I 
think that is what we can get to you in a couple weeks.
    Senator Wyden. That is what we will look for. Know that the 
reason for asking you to make sure that you are coordinating 
this work with particularly Fish and Wildlife Service and NMFS 
is not just that that has very often been the stumbling block 
when we go later to try to put together some agreement on these 
issues, but those agencies contribute important matters such as 
habitat with respect to old-growth and take you beyond just the 
question of age, which is what people normally think about when 
they think about old-growth.
    So we are asking you to do that for a reason that relates 
directly to trying to get our arms around these terms.
    Unless my colleague has anything else he wants to add, we 
will excuse you at this time.
    Ms. Collins. Thank you.
    Senator Smith. Thank you.
    Senator Wyden. Thank you.
    Our next panel, Jerry Franklin and Dr. Tom Bonnicksen.
    [Pause.]
    Senator Wyden. Gentlemen, we welcome you. Dr. Franklin, 
this testimony reminds me of the song, ``We Have Passed This 
Way Before.'' It seems that after years and years of pounding 
away at this, much of what we talked about a decade ago is 
still contentious.
    I think, knowing you, we appreciate your willingness to 
look at the longer range. That is what I want to try to do 
here, in hopes that we can take steps that really will be 
significant for decades to come. Why don't you give us your 
thoughts as to how to get there.

    STATEMENT OF JERRY F. FRANKLIN, PROFESSOR OF ECOSYSTEM 
            ANALYSIS, COLLEGE OF FOREST RESOURCES, 
             UNIVERSITY OF WASHINGTON, SEATTLE, WA

    Mr. Franklin. Thank you, Senator. I am always pleased the 
work with you.
    Senator Wyden. Thank you.
    Mr. Franklin. I have provided you with some written 
testimony and I am not going to read that. I do want to point 
out I have also provided you with a paper that I prepared on 
thinning in late successional reserves.
    Senator Smith, I would like to point out we also provided 
the committee with a reprint of an article that is about to be 
published in a scientific journal on the development of douglas 
fir stands, coastal douglas fir stands. That provides I think a 
lot of answers to the questions you have raised about when is a 
forest mature, when is a forest old, how do you recognize it. 
So I just mention that that is part of the deposit that I have 
made.
    Old-growth forest ecosystems are distinctive and important 
ecosystems in essentially all forested regions in the world. In 
temperate regions we tend to be concerned about them because 
they are dramatically reduced in extent, yet they are very 
important because of certain organisms and processes that occur 
there.
    There is a scientific consensus regarding the fundamental 
nature of these forests, and I think the folks that preceded me 
gave you some sense of that. Certainly they include old, 
decadent large trees for the site on which they are occurring. 
But in terms of a generic characterization of old-growth 
forests, we can say that they are structurally complex for the 
type and site, which means there is a lot of different 
varieties of structures; trees of various sizes and conditions 
and states; and yes, there is a lot of standing dead and down 
wood material. Those are very important structural elements as 
well.
    In addition to the variety of structures, however, there is 
also a lot of complexity in the spatial pattern in which those 
are arranged. There is a lot of stand heterogeneity. Natural 
stands are heterogeneous in structure, not homogeneous.
    Some of these stands are very long-lived. In the case of 
coastal douglas fir forests, unless they are destroyed by 
fire--and many are not--they probably have a span of at least 
1,200 years with a douglas fir component as a part of them. So 
since most of our old-growth forests in western Oregon and 
western Washington are about 500 years old, we have a lot of 
time in which we can expect them to make a contribution and 
provide big old douglas firs.
    Now, there are a lot of issues with regards to definitions. 
This is something that we are all going to struggle with, 
because it is not simple and simple answers could lead the bad 
policy. You do have to do it by each forest type and region, 
albeit there are these generic attributes of these forests.
    You do need to recognize that probably structural 
complexity is a better measure than age of whether a forest is 
mature or old.
    Third, and this is the tough one, it is probably more 
useful to recognize that there is a gradient of old-growth 
development rather than thinking simply in terms of black or 
white, that it either is or it is not. It is sort of like us as 
human beings: Are you young or are you old? Well, you probably 
exhibit attributes of both, and it is an evolutionary process 
and really, except in a very legal way, we never say at some 
point, you are old now. We know this comes on gradually.
    We also need to be aware that when we deal with fire-prone 
forests like the east side forests we really have to scale up 
our consideration of an old-growth forest stand to include the 
entire patch mosaic that is ecologically the old-growth stand.
    Definitions are going to be tough. One last comment about 
that: Do not make the mistake of thinking that clearcuts are 
equivalent to natural early successional conditions. They are 
not. They are extremely contrasting with the kind of early 
young forest conditions that nature created. If you do not 
believe it, go look at the Warner Burn on the Willamette 
National Forest.
    You asked me to address the question of whether Federal 
agencies are making major contributions to old-growth and old-
growth protection, and they very much are with the policies 
that have been adopted. These include reserve-based strategies 
in some cases and old-growth emphasis areas, as in the case of 
the Sierra strategy that was just adopted. They are also doing 
it with various kinds of restoration programs and with the 
modified management that they are doing on their ordinary 
forest lands, things like structural retention as a part of 
their harvesting regimes.
    Old-growth protection can be integrated with commercial 
activities, no question in my mind about that. We do it in at 
least two ways. One is with restoration, and we have talked 
about that: the thinnings, where our goal is to restore late 
successional conditions in these LSR's and in the stands. Do 
look out for setting timber targets because you do not want to 
create incentives just to produce volume as opposed to 
restoring structure.
    We do also need to be aware in these thinning activities 
that what we are doing is in fact trying to increase the 
structural complexity, including the heterogeneity. So 
traditional activities as we would do for commercial timber 
production do not translate directly to what we want to do in 
habitat restoration, but it will produce commercial wood 
volumes.
    In addition to that, we have an outstanding opportunity to 
integrate production of commodities with restoration in our 
active management of forests in areas that are subject to 
chronic fire. This is a case where potentially there is a high 
level of fit between producing some commodities and restoring 
the kinds of processes and structures that were characteristic 
of the pre-settlement forests.
    I see my time is up.
    Senator Wyden. Well said.
    Dr. Bonnicksen.
    [The prepared statement of Mr. Franklin follows and the 
information referred to is retained in subcommittee files:]
    Prepared Statement of Jerry F. Franklin, Professor of Ecosystem 
   Analysis, College of Forest Resources, University of Washington, 
                              Seattle, WA
    My name is Jerry F. Franklin and I am Professor of Ecosystem 
Analysis in the College of Forest Resources, University of Washington. 
For over 40 years I have studied the ecology and management of natural 
forests throughout North America, Japan, Australia, and temperate South 
America. Approximately half of the 300+ articles and books that I have 
authored or co-authored deal with old-growth and other natural forests
              status of old-growth forests across the u.s.
    Old-growth forests, defined from an ecological perspective, exist 
in many areas and forms throughout the United States. The ecological 
conditions in old-growth forest ecosystems (i.e., composition and 
structure) do vary substantially with:

  <bullet> Region (``biome''), reflecting variability in climate and 
        native biota;
  <bullet> Site conditions within a region, particularly with 
        productivity levels; and
  <bullet> Disturbance regime, such as chronic vs. catastrophic fire.

    Old-growth forests were much more widespread in pre-settlement 
times than currently, although the percentage varied by biome and 
disturbance regime. In the Pacific Northwest the scientific consensus 
is that the extent of old-growth forests has varied between 
approximately 1/3 and 2/3 of the forested landscape during the last 500 
years. Currently both the extent and quality of old-growth forests vary 
substantially among regions reflecting the type and timing of past 
human activities.
                 characteristics of old-growth forests
    A scientific consensus exists regarding the fundamental nature of 
old-growth forests as a result of extensive research conducted during 
the last 35 years, primarily under sponsorship of federal resource 
management agencies and National Science Foundation.
    Old-growth forests are ecosystems that have had time to undergo 
extended structural development and, often, compositional change. Old-
growth forests typically do include some trees that are old, decadent, 
and large for the forest type and site condition. More generally old-
growth forests are distinguished from younger and, especially, 
intensively managed forests, by high levels of stand structural 
diversity. This structural complexity is recognizable as diversity in:

  <bullet> Structural features, including live trees of widely varying 
        sizes and conditions and standing dead trees and down logs of 
        diverse decay states; and
  <bullet> Spatial arrangement of structures, including presence of 
        multiple or continuous canopy layers (vertical heterogeneity) 
        and of open and densely-shaded patches (horizontal 
        heterogeneity).

    Both the richness of individual structures and the within-stand 
spatial heterogeneity in structure are important features of 
essentially all old-growth forests in the temperate zones, regardless 
of whether they are characterized by chronic or catastrophic 
disturbance regimes. Details of structure do vary with forest type, 
site productivity, and disturbance regimes.
    Old-growth forests are not necessarily ``climax'' forests of shade-
tolerant species. In fact, most old-growth forests include significant 
representation of shade-tolerant, pioneer tree species and always have. 
Old-growth forests do incorporate the effects of chronic disturbances, 
such as low- to moderate-intensity fire and windthrow events; in fact, 
these disturbances create much of the spatial heterogeneity that is an 
important feature of old-growth forests.
    Old-growth forests are known to fulfill important and distinctive 
ecological functions. Provision of habitat for many specialized animal 
and plant species is one of the old-growth forest functions and is 
related directly to the structural richness (diversity of structural 
``pieces'' and complex spatial arrangements) found in old-growth 
forest. Other important functions have to do with regulation of 
hydrologic processes (including flood events), sequestration of carbon, 
and maintenance of soil and nutrient capital.
                    definition of old-growth forests
    We have an adequate knowledge base to provide working definitions 
of old-growth forests for most forest types. Definitions already exist 
for many major forest types in the US and can be used as starting 
points for development of a national policy. Each major forest type 
does need to be considered individually. Furthermore, definitions need 
to reflect the substantial variability that can occur in old-growth 
forest conditions even within a forest type, such as the Douglas-fir 
forests of the Pacific Northwest, mixed-conifer forest of the Sierra 
Nevada, or longleaf pine forests of the southeastern United States.
    Two significant adjustments are needed in current approaches to 
old-growth definition in the view of many knowledgeable scientists, 
including myself:

  <bullet> Absolute (black-and-white) definitions of old-growth need to 
        be replaced by indices recognizing relative levels of late-
        successional function and structure; and
  <bullet> Old-growth definitions for chronically perturbed forest 
        types (e.g., those subject to chronic, low- to moderate 
        intensity fire) need to recognize and incorporate the spatial 
        complexity (patch mosaic) of these stands.

    Regarding the first point, scientists and managers are finding it 
more useful to recognize a continuum or gradient of structural 
complexity (i.e., ``old-growthedness'') in place of definitions that 
categorize forests as either ``old-growth'' or ``not-old-growth''. 
Scientifically, this is accomplished by creating and utilizing indices 
based upon multiple structural features of the stands. Examples are 
provided by studies in Douglas-fir forests in the Pacific Northwest 
(e.g., Franklin and Spies 1991) and the Sierran mixed-conifer forests 
(Franklin and Fites-Kaufmann 1996). Creating and applying black-and-
white (either/or) definitions for old-growth forests recognizes neither 
1) the continuum of natural stand-development processes (and, 
consequently, ecological function) and 2) the contribution that stands 
with some old-growth structures and attributes make to old-growth 
functioning in landscapes.
    In the Pacific Northwest (and probably elsewhere) it may be useful 
to refine the broad categories of stand development utilized in policy 
development. We have been utilizing ``late-successional'' as the label 
for all forests over 80 years old with old-growth forests as a subset 
of the late successional and everything else as ``early-successional'' 
forest. Adopting early-, mid- and late-successional as broad categories 
of stand development while recognizing that these are segments of a 
continuum in structural complexity may help clarify the important 
contributions made by each of these stages to biological diversity and 
ecological functions. For example, mid-successional forests are 
typically undergoing development of structural complexity with the 
formation of multiple canopy layers and canopy openings or gaps 
(Franklin et al. 2001). Such stands contribute habitat for many late-
successional species even though they have much lower levels of woody 
debris (snags and logs) and of decadence than old-growth forests. 
Surprisingly, early-successional forests developed following natural 
disturbances, such as wildfire, often have high levels of structural 
complexity in the form of snags and down wood, and provide important 
habitat; natural early-successional stands contrast greatly with 
clearcuts and should not be equated with them in policy analyses.
               old-growth protection by federal agencies
    Federal agencies are making major contributions to old-growth 
forest protection by:

  <bullet> Adopting plans that protect much of the remaining old-growth 
        forest; and
  <bullet> Implementing programs to restore late-successional 
        conditions.

    These contributions are coming primarily from USDA Forest Service 
but with significant contributions from USDI Bureau of Land Management 
in the west and USDI National Park Service throughout the nation. The 
federal government has a unique role in conservation of old-growth 
forests in many parts of the United States; most significant remaining 
examples of such forests are confined to public lands. Several regional 
strategies have been adopted that protect most remaining old-growth 
forests on federal lands, including the Northwest Forest Plan (NWFP) 
(all federal forest lands within the range of the northern spotted owl) 
and Sierra Nevada Forest Plan Amendment (national forests in the Sierra 
Nevada and Modoc Plateau). Plans to conserve old-growth forests are 
also being adopted on other federal ownerships, including the northeast 
and southern Appalachian Mountains.
    Federal agencies have also developed and implemented programs to 
restore late-successional forests and conditions. The silvicultural 
activities undertaken to accelerate development of late-successional 
structure in young, second-growth stands located within Late 
Successional Reserves (LSRs of NWFP) are one example; this is being 
done in order to expand availability of such habitat and to restore the 
integrity of the LSR landscapes. Programs for treatment fire fuels, 
including prescribed burns, are being adopted and implemented in old-
growth forest types that were naturally subjected to frequent light-to-
moderate intensity fire, such as the pine and mixed-conifer forests 
found in western North America.
      integrating old-growth protection and commercial activities
    We can protect and even restore old-growth forest conditions and 
still provide for commercial uses of forests, albeit not on every acre. 
The strategies adopted to do this need to reflect differences in the 
ecology and history of the subject forests, however: one prescription 
is not adequate to address the diverse challenges of maintaining old-
growth forests and habitats. For example, fuel hazard reduction and 
prescribed burning are not appropriate for old-growth forests in the 
coastal Douglas-fir forests of northwestern Oregon and western 
Washington.
    Protection of areas of existing, old-growth forest (``reserves'') 
is central to any regional forest strategy that is intended to conserve 
biological diversity and ecological processes (Noss and Cooperrider 
1994). There is a scientific consensus regarding the need for reserves 
but not about the extent of reserves that are needed; the extent of 
reserves needed is highly dependent upon the level of risk to late-
successional species that is acceptable, which is, of course, a social 
rather than a scientific decision. Reserves are viewed as critical 
because existing old-growth forests have the highest probability of 
providing the habitat needed by old-growth related organisms. Retaining 
such forests provides lower risks to old-growth organisms (i.e., higher 
certainty of sustaining these organisms) than assuming that suitable 
habitat can be re-created in managed forests. In effect, reserves are 
the best insurance against failure.
    Some reserves need to be actively managed to maintain their old-
growth values while others essentially take care of themselves. For 
example, old-growth forests on sites that were naturally subjected to 
frequent light to moderate fire regimes will often need active 
management to restore and maintain appropriate fuel loadings and fire. 
This is recognized in the guidelines for management of Old Forest 
Emphasis Areas of the USDA Forest Service' Sierra strategy and has been 
practiced for many years in the national parks of the Sierra Nevada by 
the USDI National Park Service.
    Using silvicultural activities to restore and expand the forest 
area with old-growth characteristics is often appropriate, including 
the use of prescribed fire where appropriate (e.g., pine and mixed-
conifer forests). Creative ``thinning'' projects in young stands in 
NWFP LSRs provide an excellent example of the possibilities (Franklin 
2001). These include such practices as:

  <bullet> Variable-density thinning to increase stand heterogeneity, 
        including canopy openings and heavy cover;
  <bullet> Thinning some dominant trees to release and maintain shade-
        tolerant conifers and hardwoods;
  <bullet> Creation of coarse woody debris (snags and logs on the 
        forest floor); and
  <bullet> Underplanting of shade-tolerant species.

    Such activities can help advance structural development in stands 
and restore the integrity of the late-successional landscapes. These 
silvicultural projects can also yield significant amounts of small- and 
medium-diameter timber but we need to avoid setting timber targets that 
could obscure ecological goals and create distrust among stakeholders. 
Dr. Andrew Carey has been a leader in conceptualizing integrated 
approaches to biodiversity and wood production, research sponsored in 
part by the congress (e.g., Carey et al. 1999).
    I do believe that sustained flows of wood products could come from 
management programs to restore and maintain old-growth forest 
conditions. Programs to restore late-successional habitat in coastal 
coniferous forests (outlined in the preceding paragraph) can provide 
such flows for several decades. One of the best long-term opportunities 
would be continuing programs to restore and maintain old-growth 
conditions in forest types naturally subject to frequent, light- to 
moderate fire regimes, such as the ponderosa pine and mixed conifer 
forests of the Sierra Nevada and intermountain west. Incidentally, any 
``diameter limit'' in such programs should be keyed or indexed to 
variations in regional and local site conditions; for example, 
appropriate diameters for removal in southwestern ponderosa pine 
forests are very different from appropriate diameter limits for mixed-
conifer forests on productive sites in the Sierra Nevada.
                  effects of changes in forest policy
    Changes in forest policy in the last two decades have altered 
completely the degree to which old-growth forests are being protected. 
They are also resulting in restoration of late-successional forest 
functions to a much broader area of the landscape. Current national 
forest policies emphasize ecological sustainability in contrast to past 
policies, which emphasized production of commodities with attempts to 
mitigate impacts on ecological processes and biodiversity.
    This change in forest policy has profoundly changed the prospects 
for old-growth ecosystems and related species in many regions, such as 
the Pacific Northwest. The Northwest Forest Plan has provided the 
essential central element of a regional forest strategy. It is a robust 
plan from an ecological perspective, proscribing traditional timber 
harvesting on over 80% of the 24.4 million acres of federal forest land 
within the range of the northern spotted owl. Organisms and ecological 
processes dependent on late-successional forests have unquestionably 
been well served by the NWFP. Industrial forest landowners and state 
trust land managers have been provided with significant regulatory 
stability that has allowed them to develop approved Habitat 
Conservation Plans in significant measure because most old-growth needs 
are provided for on federal lands.
    This is not to say that the NWFP is working perfectly. For example, 
the plan was intended to be adaptive. In application there have been 
few opportunities for flexibility and adaptive learning. Almost all 
participants in implementation--from the agencies to stakeholders to 
the courts--have contributed to this rigidity. While intellectually 
appealing adaptive management is actually threatening to stakeholders 
since it makes uncertainty in outcomes explicit! Adaptive Management 
Areas, which were supposed to be focal points for innovation and 
experimentation, have failed to fulfill their promise, partially 
because of a lack of institutional, including funding, support. We need 
to restore learning and adaptation to a central role in the NWFP but 
that will require congressional as well as agency and stakeholder 
support.
                              conclusions
    Old-growth forests are important and distinctive ecosystems in all 
forested regions of the world, recognizable on the basis of their 
structural complexity and providing unique ecological functions, 
including habitat for tens of thousands of specialized organisms. It is 
possible to integrate programs to maintain and restore old-growth 
forest ecosystems with commercial uses of forest lands, albeit not on 
every acre. Active management will be necessary to maintain old-growth 
forest in some landscapes. Current federal forest policies have 
dramatically improved the prospects for old-growth ecosystems and 
related organisms in many parts of the United States and have provided 
the core of regional strategies to conserve biodiversity to which other 
landowners can tier their activities. Adaptive approaches are essential 
but are proving difficult in practice.

STATEMENT OF DR. THOMAS M. BONNICKSEN, PROFESSOR, DEPARTMENT OF 
   FOREST SCIENCE, TEXAS A&M UNIVERSITY, COLLEGE STATION, TX

    Dr. Bonnicksen. Thank you, Mr. Chairman. My name is Dr. Tom 
Bonnicksen. I am Professor of Forest Science at Texas A&M 
University. I have spent my entire career, actually 32 years 
now, concentrating on the history of the native forests of 
North America in managing and sustaining them. Recently, last 
year, I published a book documenting the history of our forests 
from the Ice Age until the time they were discovered by 
European explorers.
    One of the things I can tell you about my experience over 
the last 32 years is that, frankly I have not seen any 
intellectual progress in this discussion. I do not think 
anything has changed from the heady days of protest and 
preservation that I experienced when I went to school at the 
University of California-Berkeley. Nothing has changed. The 
arguments are the same. There has been very little creativity.
    As a matter of fact, the Scandinavians and the Canadians 
have been so far ahead of us on this issue--and they come here 
to get an education; they go back to think about it--that we 
really ought to be looking elsewhere for our ideas than right 
here at home.
    I will give you one example. This idea that you walk into a 
douglas fir forest that is a dog hair thicket, wave your hand 
and say, this is unnatural and we do not want this. I have 
studied these forests. A dog hair thicket in a douglas fir 
forest is natural. They occurred historically. They are an 
integral part of this forest. You do not just wave your hand 
and say it is unimportant and in fact wave your hand and say 
all the successional stages of a forest are unimportant except 
old-growth, not if you really care about forests. Maybe if you 
are concerned about politics you can do that, but not forests.
    What is old-growth? It is not defined. There is no 
consensus in the scientific community or anywhere else, because 
it was a political term designed for the express purpose of 
arguing the case for setting aside forests in the Pacific 
Northwest. Since it served political purposes, it cannot in my 
judgment serve scientific purposes.
    The Forest Service has 114 definitions. There are 76 
scientific definitions in the literature, and it is a total 
waste of time to even come up with a definition because it is a 
political, not a scientific, term.
    If you want to really make progress, I suggest that you 
change future hearings to avoid the term ``old-growth'' and 
start considering the idea that the Congress on the other side 
is considering, which is H.R. 2119, which is using our historic 
native forests as a model for future forests and managing whole 
forests, instead of just this undefinable part of a forest 
called old-growth.
    But even if we use this popular definition that says it has 
got to have big old trees and lots of layers and lots of old 
stuff laying on the ground and we tried to manage our forests 
to achieve that, what are we going to get? Well, first of all, 
we are not going to get forests that look like anything we have 
had in North America for the past 18,000 years. We are going to 
get artificial forests that never existed and could never exist 
unless Congress passed a law to create them.
    To me that is a tragedy, because I care about our historic 
forests in North America, keeping them, sustaining them, 
bringing many of them back so that our children and our 
grandchildren, of which I have five, can see and experience 
them for themselves.
    For example, in the Pacific Northwest very few douglas fir 
forests ever lasted 1,200 years, I can assure you of that. The 
fire cycle is 400 years. Most of them are older than they ever 
would have been. If we actually tried to keep them 
indefinitely, they would not be douglas fir forests any more; 
they would be western hemlock forests. In New England, the 
white pine forests would be maple forests.
    The forest cannot remain the same. It will just simply 
succeed into something that can replace itself and it will look 
like nothing that ever existed before except on a very tiny 
scale.
    Frankly, if we want old-growth or whatever this thing is 
that we want, older forests, we are going to have to manage 
them. We cannot just put a fence around them and say that we 
are going to get them by leaving them alone, because what you 
are going to get is probably not what you want. I do not think 
you want the entire Sierra Nevada west slope covered with a 
white fir forest. I do not think you want western hemlock 
covering the entire Pacific Northwest or douglas fir replacing 
all the ponderosa forests or maple replacing all the oak 
forests in the East. I do not think that is what you want. I 
certainly do not want it.
    So if we are going to get it, we are going to have to 
manage it, and we are going to have to manage it in a way that 
simulates what happened historically. Many of these forests are 
very, very old indeed if you do not look at the age of the 
trees as well. Some of them do not actually need any 
management.
    I can give you an example, the high mountain balsam fir 
forests in the Northeast. You do not have to touch it. It 
cycles every 60 years because of wind and ice. It has been 
doing it for 10,000 years. That is a great forest to leave 
alone, but there are not very many forests like that.
    I care about real forests. I would like to sustain real 
forests and that is going to require management. Frankly, I 
suggest we purge the word ``old-growth'' from our vocabulary 
and let us think about forests as they really were historically 
and then use science and logic, dispassionate logic, to manage 
them and get them back. Let us look at what they do in 
Scandinavia and Canada to achieve that, because they care about 
these old forests as much as we do, but it seems like they are 
not hindered as much as we are.
    Frankly, we are like a car that is trying to move forward 
with a brake, the emergency brake, full on, and that brake is 
the idea of old-growth and that it is the only important part 
of a forest to preserve. We do not know what it is and it 
ignores everything else. I think that is sad. Even if we knew 
what it was as described popularly, historically it was always 
just a small part of the forest anyway, because these forests 
were mosaics--and in the Pacific Northwest sometimes a 100,000 
acre patch--of all different sizes.
    In the Sierra Nevada, for example, only 18 to 21 percent of 
that forest was like old-growth, and even in the douglas fir 
forest it only was 42 to 60 percent.
    So I think we should think about whole forests and not old-
growth, and that is what I would suggest for your next meeting 
if you want to make progress. Thank you.
    [The prepared statement of Dr. Bonnicksen follows:]
 Prepared Statement of Dr. Thomas M. Bonnicksen, Professor, Department 
      of Forest Science, Texas A&M University, College Station, TX
                              introduction
    My name is Dr. Thomas M. Bonnicksen. I am a professor in the 
Department of Forest Science at Texas A&M University specializing in 
restoration forestry. I have conducted research on restoring and 
sustaining America's native forests for more than thirty years. I have 
written over one hundred publications and I authored the book titled 
America's Ancient Forests: from the Ice Age to the Age of Discovery 
(Copyright January 2000, John Wiley & Sons, Inc., 594 pages). The book 
documents the history of North America's native forests. It gives 
special emphasis to the way our native forests appeared at the time of 
European settlement and the role Native American's played in their 
development. Additional biographical information is available in the 
biographical summary at the end of this document.
                                outline
    1. What is old-growth?
    2. Problems with the term old-growth
          a) The popular definition of old-growth
          b) The idealized old-growth forest
          c) The real forest
                  i) Forest age
                  ii) Forest structure
                  iii) Area of old-growth
          d) The undisturbed forest
    3. Sustaining idealized old-growth forests
          a) Accelerating the decline of historic native forests
          b) Creating artificial old-growth forests
    4. Sustaining real old-growth forests
                          what is old-growth?
    In 1989, Malcolm Hunter published a paper in the Journal of 
Forestry that stated, ``There is no generally accepted or universally 
applicable definition of old-growth.'' His conclusion is still true.
    Old-growth remains undefined because it is not a scientific term. 
It is a popular term that cannot be generalized to all types of 
forests. Consequently, a scientist who refers to old-growth in a paper 
must provide a unique definition to clarify what is meant. This helps 
to explain why there are at least 75 definitions of old-growth in use 
today. None of these definitions achieved general scientific 
acceptance, including the definition used by the Society of American 
Foresters.
    So, what is old-growth? It is what anyone who uses the term says it 
is, and that changes from person to person. Old-growth emerged from the 
political campaign to protect uncut forests in the Pacific Northwest. 
Since it served political purposes it is not surprising that it cannot 
serve scientific purposes.
                   problems with the term old-growth?
The Popular Definition of Old-Growth
    The most popular definition of old-growth includes 1) large old 
trees in the overstory; 2) several layers in the canopy; 3) a variety 
of tree species; 4) many standing dead trees; and 5) many dead and 
decaying logs on the ground. It also requires that to qualify as old-
growth a forest must be undisturbed by human activity. At the very 
least, it requires that a forest be left undisturbed in the future in 
order to develop old-growth characteristics.
The Idealized Old-Growth Forest
    To many people, the popular definition of old-growth represents an 
idealized view of how a natural forest should look. This ideal means 
that a whole forest should look like old-growth. It also represents a 
belief that forests of large old trees covered the pre-European 
settlement landscape. However, most of America's historic forests were 
dramatically different from this ideal.
The Real Forest
    Forest Age: Most historic native forests did not fit the idealized 
old-growth image. While some forests such as high mountain balsam fir 
in the Northeast still look the way they did 10,000 years ago, the 
trees that make up the forest succumb to wind and ice in 50-60 years. 
Likewise, most jack pine forests only lived about 60 years before being 
destroyed by fire yet these forests have existed for about 8,000 years. 
Similarly, longleaf pine forests in the Southeast are about 5,000 years 
old. However, the trees mature at 150 years and seldom live more than 
300 years. Thus, what is old depends on the history of the forest and 
longevity of the trees of which it is composed.
    Forest Structure: Such structural attributes as layering in the 
canopy and dead trees are just as poor indicators of old-growth as the 
age of the trees. Most of America's historic native forests did not 
have this structure, although there are a few exceptions. They include 
western hemlock, white fir, beech-maple, and maple-basswood forests. 
These are self-replacing or climax forests. The young trees that fill 
openings created by the death of old trees are the same species as 
those that fall. The trees can replace themselves because they tolerate 
dense shade and reproduce on deep litter. Trees of all ages stand in 
these forests, snags are abundant, and the ground is cluttered with 
decaying logs.
    Self-replacing forests take many years to develop. Therefore, most 
of them grow in areas protected from fire. However, fires were common 
in the majority of America's historic forests and they occasionally 
burned self-replacing forests. Windstorms, insects, and other 
disturbances also took their toll of these forests. Therefore, no 
forest consisted entirely of old-growth, not even self-replacing 
forests.
    Self-replacing forests were limited in extent and they did not 
consist entirely of large old trees. For example, old trees only 
covered 63-87% of the area within self-replacing maple-basswood and 
beech-maple forests. Likewise, old trees only covered 56-77% of the 
area within the self-replacing western hemlock forests. The remainder 
consisted of fresh openings filled with herbs, shrubs, or young trees, 
dense patches of middle-aged trees, and many other stages of 
development scattered throughout the forest.
    Area of Old-Growth: Large old trees occupied only a small part of 
the majority of historic native forests because forests are made up of 
a mosaic of patches of various sizes and shapes. Each patch is in a 
particular stage of recovery from a destructive event that creates an 
opening in the forest. Some freshly opened patches contain herbs or 
shrubs, while others contain young, middle-aged, or old trees.
    As a rule, the proportion of a forest mosaic that consists of older 
trees is greater when disturbances such as fire occur infrequently. 
This means that the popular definition of old-growth only applies to 
the oldest or most decadent patches in a forest rather than a complete 
forest, and the proportion varies by forest type.
    The idealized image of whole forests composed of old-growth fails 
to adequately describe even the Pacific Douglas-fir forest that 
inspired the term. Historic wet Douglas-fir forests in the Pacific 
Northwest contained about 42-60% older forest spread over the landscape 
in large patches. The area varied because fires did not always burn the 
same amount of forest. Patches of older forest covered only about 12-
23% of the landscape in drier southern Pacific Douglas-fir forests 
where fires were more frequent.
    The same is true of other historic native forests. Fires were 
frequent in historic mixed-conifer forests in the Sierra Nevada. 
Therefore, patches were small and older forest covered only about 18-
21% of the landscape. Even so, the forest still looked like old trees 
dominated it because the patches of older forest were small and well 
disbursed among patches of younger trees. Similarly, ponderosa pine 
forests in the Southwest and Rocky Mountains contained patches of older 
forest that covered about 17-40% of the landscape. Lodgepole pine 
forests in the northern Rockies consisted of about 30% older forest. In 
the Great Lakes region, jack pine forests contained about 23-43% older 
forest. In the East, the red spruce-fir forest had about 55-60% older 
forest because fires were infrequent and large.
    The proportion of a forest that fit the popular definition of old-
growth in pre-European settlement times was not only less than the area 
covered by the whole forest, but it was often only a small part of the 
proportion of older forest. Older forests include the last three stages 
of development while old-growth only describes the last two stages. The 
old pioneer forest is the earliest stage of an older forest. It 
consists of old pioneer trees that became established when seedlings 
filled a fresh clearing. These pioneer species such as pine and 
Douglas-fir regenerate in openings because they are adapted to growing 
in bright sunlight on bare soil. They cannot grow in the thick litter 
and shade of dense forest.
    Old pioneer forests are open. They do not have layers in the canopy 
nor do they have many standing or fallen dead trees. Therefore, an open 
old pioneer forest is old even though it does not fit the popular 
definition of old-growth. Even so, some old pioneer forests, especially 
pine and oak forests, stayed open for centuries because frequent light 
surface fires kept the understory free of young trees and woody debris. 
Only the last two stages of forest development--old transitional and 
self-replacing forests--fit the popular definition of old-growth.
    An old transitional forest is decadent. It is an old pioneer forest 
that is breaking apart and nearing the end of its existence. The 
overstory trees are dying and being replaced by more shade-tolerant 
species. An old transitional forest is the next to the last stage of 
development. It has multiple layers, and standing and fallen dead trees 
are prominent. An old transitional forest is old-growth.
    When the last old pioneer tree topples, all that remains is a 
forest composed of shade-tolerant trees of all ages. This is the last 
stage of development and it is perpetually decadent. It is a self-
replacing forest and it is also old-growth.
    The Undisturbed Forest: Finally, the popular definition of old-
growth assumes that humans played no role in the development of 
historic native forests. This myth persists in spite of overwhelming 
historical and scientific evidence. The last time such forests existed 
in North America was during the last interglacial about 122,000 years 
ago.
    Paleoindians pushed southward between the ice sheets about 14,000 
years ago. They arrived in southeastern Wisconsin about 13,400 years 
ago, and they occupied all of North America between 12,000 and 11,000 
years ago. At the time of European exploration, as many as 12 million 
American Indians were actively managing every corner of the continent. 
Thus, the original forests described by the first European explorers 
and settlers were shaped by thousands of years of Indian use and 
management.
    These people were not passive occupants of forests. They created 
and deliberately maintained the forests that we value today, thanks 
largely to the use of fire, their most powerful tool for producing the 
resources they needed to survive. Indian-set fires were one of nature's 
ways of clearcutting forests. Indians burned large patches in 
northeastern oak forests to clear fields for planting. They moved to 
new areas when crop yields declined and all the firewood was gathered 
from surrounding forests. Their abandoned fields helped to regenerate 
new oak forests. Some Indian-set fires also went out of control and 
escaped into adjacent forests. Many of these came from abandoned 
campfires. Such accidental fires helped to thin forests and create 
openings where pine trees and other pioneer species could grow.
    Almost no part of the country was unaffected by Indian-set fires. 
Indians burned forests in California, the northern Rocky Mountains, the 
Southwest, the Northwest. and the Midwest. They doubled the frequency 
of fire in many forests.
    There are at least 62 documented reasons that Indians burned 
forests. For example, Indians set fires to reduce insect pests, keep 
forests open for easy travel, and stimulate the growth of shrubs and 
grass for big game. They also used fire to improve the growth of 
berries and to reduce fuels around campsites for protection from 
wildfires. The Maskouten Indians who lived along the Fox River in 
Wisconsin used fire so often that Father Pere Marquette knew them in 
1673 as the ``Fire People.'' Miwok and Monache Indians burned forests 
in California's Sierra Nevada to regenerate and protect black oak trees 
that produced the acorns that were their principal source of food.
    They also used fire to flush game and clear underbrush that could 
hide their enemies. In the Pacific Northwest, Indians burned Douglas-
fir and pine forests to make it easier to hunt deer and find wild honey 
and grasshoppers. Fires set by Indians to improve feeding grounds for 
wild game also maintained the pine-hardwood forests in north central 
Minnesota. Altogether, Indian-set fires helped to create and maintain 
about 87% of America's historic native forests.
    Thus, the forests and the Indians sustained one another. Remove the 
Indians and the forest and the wildlife must change. They were 
inseparable. There is no doubt that American Indians were an integral 
part of America's historic native forests.
                sustaining idealized old-growth forests
    Historic native forests differed markedly from the sentimental view 
some people nurture today. The management practices of American Indians 
and their ancestors, and the pervasive effects of insect and disease 
attacks, lightning fires, and other forces shaped America's historic 
forests and kept them beautiful and diverse. Trying to protect forests 
that currently fit the popular definition of old-growth, or creating 
more such forests, will accelerate the decline of America's historic 
native forests and replace them with artificial forests.
Accelerating the Decline of Historic Native Forests
    In the East, even though trees are becoming denser, stately forests 
of white pine no longer cover large areas as they did in pre-European 
settlement times. Protecting them from disturbance to create old-growth 
will ensure that they never recover. Similarly, the oak-chestnut forest 
is nearly extinct and leaving it alone cannot restore it. Sugar maple 
and red maple also are taking over northern and eastern hardwood 
forests and replacing oak--our national tree. Continued protection will 
also prevent oak from returning to these forests. Eventually, they will 
be converted to self-replacing maple forests.
    In the South, the vast longleaf pine savannas that spread over much 
of the landscape are nearly gone as well. This loss is especially 
tragic because the historic longleaf pine forest was not only beautiful 
but it also had the highest number of plant species of any forest in 
North America. In the Midwest, we have lost most of the oak-hickory 
savanna that once fringed the Great Plains and held early travelers 
spellbound because of its beauty and richness of wildlife. Neither of 
these forests will recover if left alone.
    In the Inland West, juniper is spreading within pinon juniper 
woodlands and replacing grasslands. Similarly, once open stately groves 
of ponderosa pine are becoming so thick with small trees that grass and 
wildflowers can no longer grow within the forest. Because of increases 
in the density of pine and other conifers, aspen forests are rapidly 
disappearing as a distinct forest type throughout their range. In 
addition, white fir is replacing Douglas-fir forests in the Southwest, 
and spruce and fir are replacing lodgepole pine and western larch 
forests in the northern Rocky Mountains. Like most of America's 
historic native forests, these forests too will not recover if left 
alone.
    In California and Oregon, thick forests of short lived and small 
white fir are replacing what were once open and patchy forests of 
ponderosa pine, giant sequoia, and other conifers. This invasion of 
white fir was unanticipated when Native Americans were removed from 
these forests in the 19th century and fires were put out. Complete 
protection will ultimately lead to the replacement of the original 
pioneer forests by self-replacing forests of white fir.
Creating Artificial Old-Growth Forests
    In the Pacific Northwest, for example, about 42-60% of the historic 
Douglas-fir forest consisted of old-growth, but the Forest Service plan 
calls for increasing it to 73% in reserves. If they succeed in 
protecting the forest for several centuries, a self-replacing forest of 
western hemlock that covers nearly 100% of the landscape will 
eventually replace it. This is a monumental change from natural 
conditions where only about 4% of the wet Douglas-fir forest consisted 
of patches of self-replacing western hemlock forest.
    The same thing is happening in the Sierra Nevada. The U.S. Forest 
Service Region 5 plan adopted in 2001 intends to accelerate the 
invasion of white fir into pioneer forests in order to create huge old-
growth reserves. The Forest Service plan calls for increasing old 
multi-layered forests that covered 12% of the landscape in historic 
native forests to the artificially high level of 64%. Like the Pacific 
Northwest plan, complete protection could eventually convert the entire 
reserve into a self-replacing white fir forest. This is not only 
unnatural, it is probably unsustainable.
    Many species of plants and animals that live in younger forests 
will decline in numbers while species that live in dense old forests, 
such as the California spotted owl, will increase to unnaturally high 
numbers. Regrettably, these artificially dense old forests will no 
longer represent the beauty and diversity of the historic native 
forests. This is a tragic and unnecessary loss of our Nation's natural 
and cultural heritage.
    Frequent fires set by Native Americans and lightning used to keep 
native forests in the Sierra Nevada open, but now they are so thick 
that any fire has the potential for turning a forest into a colossal 
furnace. Unlike the original native forests, fires also can spread 
freely across vast areas because trees have grown to similar sizes, and 
there are fewer patches of young trees, meadows, and clearings to slow 
the flames. Creating a huge area of artificial old-growth will 
dramatically increase the size and severity of future fires.
    The mammoth wildfire that scorched nearly half of Yellowstone 
National Park during the summer of 1988 is a good example of what can 
be expected in the Sierra Nevada if the Forest Service plan is carried 
out. This fire was significantly larger than any fire that occurred in 
Yellowstone in the past 350 years. One reason the fire was so large is 
that multi-layered older forest covered nearly 65% of the landscape. 
Historically, such older forests only covered 30% of the landscape. 
Therefore, what happened in Yellowstone is likely to happen in many 
other forests that are artificially converted to old-growth.
                   sustaining real old-growth forests
    All stages of forest development, not just old-growth, were an 
integral and essential part of America's historic native forests. 
Historically, each patch in a forest mosaic progressed through an 
endlessly cycle of renewal, aging, and destruction. This means forest 
mosaics are constantly changing and only a proportion of all of the 
patches are in the later stages of development which is old-growth. 
Furthermore, a patch of old-growth does not stay in the same place 
within a forest mosaic. Eventually, the patch of old-growth is 
destroyed while a younger patch of trees somewhere else in the forest 
mosaic grows into old-growth to replace it. This occurred every 400 
years in Pacific Douglas-fir forests and more frequently in many other 
forests. A similar process must continue in order to sustain both 
historic native forests and old-growth.
    A forest cannot be preserved because it is alive and continually 
changes. It must be managed. Therefore, the only way to restore and 
sustain our native forests is through active or hands-on management at 
a cost that taxpayers are willing to pay. Reintroduction or control of 
plant and animal species, planting, pre-commercial and commercial 
thinning, grazing, prescribed burning, control or suppression of fire, 
timber harvesting or, where appropriate and effective, temporary or 
permanent protection should all be available to a manager who is 
restoring a historic native forest. The nature of the tools and 
techniques used to restore a forest are unimportant. The only thing 
that matters is providing this and future generations with an enduring 
legacy of dynamic and sustainable historic native forests that include 
all stages of development, including old-growth.
    Recently introduced in Congress, The National Historic Forests Act 
of 2001 (H.R. 2119) provides the means to restore our native forests. 
The Act authorizes the Secretary of Agriculture to establish and 
maintain historic forests ``that are or, after reasonable restoration, 
will be representative of prehistoric or historic landscapes 
significant in the history and culture of the United States.'' This Act 
may be the last chance to recover our forgotten forest heritage and 
avoid the problems of creating artificial and unsustainable forests 
that fit the popular definition of old-growth.

    Senator Wyden. We thank both our witnesses.
    Let me ask some questions of you, Dr. Franklin. You have 
heard me throughout the afternoon talking about how what this 
effort is all about coming up with an active management plan, 
of which old-growth protection is a part, forest health is 
absolutely key, as is multiple use, and we have said that again 
and again and that is going to be what our effort is all about.
    In terms of trying to clarify some of the terms here, why 
don't you tell us in your opinion what you think the value of 
old-growth is as compared to other ages of forests?
    Mr. Franklin. Let me just begin by saying I have never ever 
suggested that only old-growth forests have value. So let me 
just go on record that I consider all successional stages, all 
development levels in forests, to have value, and I think I 
have indicated that in my testimony.
    The reason why we have a lot of focus on old, as opposed to 
early and mid, successional stages is simply because we do not 
have very much of it left and because there are a number of 
specialized organisms and a number of processes which are 
characteristic of those structurally complex forests. So it 
provides a very special kind of habitat and there are very good 
reasons for it based on the structural architecture of those 
stands.
    Senator Wyden. How much old-growth was cut in the Pacific 
Northwest in the years prior to the Northwest Forest Plan in 
your view?
    Mr. Franklin. Total or Federal?
    Senator Wyden. Both if you have it?
    Mr. Franklin. Well, I thought about that earlier today and 
I do not have the numbers with me, but I would estimate 
something on the order of two-thirds of the old-growth on 
Federal lands was cut during the last century, and probably on 
the order of three-fourths, nine-tenths, a very high 
proportion, when you figure in the fact that all of the private 
lands were cut over.
    Senator Wyden. If there is a thinning program in the LSR's, 
how in your view should it go forward so as to ensure that 
restoration remains a top priority, as opposed to just going 
forward with business as usual and some of the practices that 
left us in this predicament we are in today?
    Mr. Franklin. Well, I think there are a lot of guides out 
there that are available to silviculturalists and managers in 
terms of how they can approach it. For example, the Forest 
Service has had an individual by the name of Andy Kerry, Dr. 
Andy Kerry, in their Olympia lab that has done an awful lot of 
work in developing approaches to management that integrate both 
biodiversity and economic objectives. That work, incidentally, 
was funded by the U.S. Congress in large measure.
    I simply say that as an example of the sort of thing you 
would be doing would be variable density thinning.
    Senator Wyden. That is what I was going to ask you about. 
If you would take some time here to tell me how that works--
that is an area that we are interested in because it does seem 
to be picking up a lot of scientific support.
    Mr. Franklin. Sure. If you were going out there and you 
were focusing on timber production, your thinning activity 
would be generally to think from below, in other words to 
remove the small and inferior species, in order to release the 
dominant crop trees in the stand to grow more rapidly, and you 
would try to create uniformity in your stand. You would want a 
very evenly distributed stand in order to maximize production.
    When you are interested in things like diversity as well as 
wood production, what you do is you vary within your stand your 
prescription for thinning. One term that is used for it is 
``skips and gaps.'' In other words, in portions of the area you 
thin very heavily to provide openings and to allow stimulation 
of the understory plants; in other areas you do not thin at 
all, to maintain a very dense patch; and perhaps over half of 
the area you use an intermediate kind of thinning regime. So 
you do not do the same thing everywhere.
    You also do not just remove the little trees. Sometimes you 
are removing--you are thinning from above. You are removing 
dominant trees that release shade-tolerants that are in the 
understory, hardwood trees, etcetera. So that would be a very 
central element of any kind of restoration.
    Now, that is going to give you a variety of commodities, 
just like traditional commercial thinning would do, but it is 
going to give you a very different kind of stand following 
treatment.
    Senator Wyden. Dr. Bonnicksen, in hopes if maybe getting a 
little common ground here for a moment, give me your sense of 
what you think of the thinning approach that Dr. Franklin is 
talking about, because it is our understanding that variable 
density thinning has been getting additional support in the 
scientific community and I am curious whether this is something 
that you think has some promise, again within the context of an 
active management plan which I have referred to a number of 
times in the course of the afternoon.
    Dr. Bonnicksen. Well, you have said in the beginning and 
reiterated several times that you want to deal with fundamental 
questions. Honestly, the idea of skip thinning in a second 
growth douglas fir forest in order to recreate something that 
you ultimately are having difficulty defining in the first 
place does not sound like addressing a fundamental question.
    The fundamental question is what are you trying to get? And 
if what you are trying to get is a forest that is dominated by 
douglas fir and has several age classes of douglas fir and 
several age classes of western hemlock growing in the 
understory, yes, there are lots of different ways to get that. 
But when you are done, what do you have? You have one big block 
of forest that fits a predetermined idea of what it is you 
value, that cannot be sustained. You cannot keep it. It will go 
away.
    I was driving between Eureka and Reading in northern 
California going by one of these LSR's, late successional 
reserves, and I was amazed because this late successional 
reserve had a few scattered douglas fir, very old, very pretty 
trees in it and the rest of it was just white fir coming up 
underneath. It was actually--talk about decadent; it was in the 
final throes of its life. That was a reserve that would not be, 
I do not think, resurrected ever again as a douglas fir forest. 
It will just turn into a white fir forest.
    So yes, you can thin, you can create those structural 
attributes that you associate with old-growth, and you can use 
a variety of ways to achieve it, and whatever the 
silviculturalists can agree to do is fine with me.
    Senator Wyden. Let us ask Dr. Franklin how he would respond 
to the comment of Dr. Bonnicksen. Dr. Franklin, do you think 
that what Dr. Bonnicksen has described as your thinning program 
is not going to get you much?
    Mr. Franklin. How is that again?
    Senator Wyden. I mean, I think what Dr. Bonnicksen said 
when I asked him about variable thinning and the approach that 
you talked about, he said, what have you got? He described 
something that he thought was not going to meet anybody's 
definition of a good management plan. I just would like your 
reaction the what he just said.
    Mr. Franklin. I obviously disagree with him. We have 
absolute fundamental disagreement and I would suggest that Dr. 
Bonnicksen is outside of the scientific consensus on this 
issue.
    Senator Wyden. Okay, that is what I wanted. That is the 
back and forth I wanted. Look, reasonable people can differ and 
that is the point of hearings in the U.S. Senate.
    Dr. Bonnicksen. I am not going to respond to a personal 
attack like that because I am very well aware of what my role 
is in the scientific community, and I do not depend on Dr. 
Franklin to define that for me.
    But let me say, this other point that was brought up 
earlier about all the scientific values and ecological values 
of old-growth that all the studies have demonstrated. I suggest 
to you as a scientist that if you were to pour the millions of 
dollars into research on the other successional stages that are 
an integral part of a dynamic, functioning forest, you would 
find that each and every one of them had immeasurable 
scientific value rivaling anything anybody has found from old-
growth.
    So just because that is where the money went does not mean 
that is what is really important scientifically or even 
ecologically.
    Senator Wyden. Dr. Bonnicksen, again I want it understood I 
am not going to be attacking anybody----
    Dr. Bonnicksen. I am not suggesting you were.
    Senator Wyden [continuing]. In the course of this debate. 
The reason Senator Craig and I have made headway working with 
Senator Smith is because we are trying to find some common 
ground, and that is what I am going to continue to do. My door 
is open to both of you and I am anxious to do that.
    Let me just ask a couple other questions. I just wanted to 
repeat that for what it is worth here.
    Dr. Franklin, with respect to a forest that has been 
harvested and hand-planted, can that develop into an old-growth 
forest with time?
    Mr. Franklin. A forest that has been cut and hand-planted, 
sure. Fundamentally, if you accept the premise that mature and 
old forests are characterized by particular kinds of structural 
conditions, and assuming that the planting stock is from an 
appropriate seed source so it has the potential to realize the 
growth opportunity on that site, sure.
    What we are dealing with is not questions of whether those 
stands are going to arrive at a structurally complex condition 
at some point. Our goal is to speed that process, because we 
are short on that kind of habitat, in some cases because we 
want to reestablish the integrity of the late successional 
reserves.
    So yes.
    Senator Wyden. I assume that that time could be shortened 
if you had good forest management activities--thinnings, 
individual tree or group selection harvests as well?
    Mr. Franklin. Yes. I have estimated the kinds of things 
that are being laid out, that I laid out and others have laid 
out for thinning in LSR's, could speed the development of some 
of these structural attributes by 3 to 5 decades.
    Senator Wyden. A question for both of you. If Congress or 
an administration drew a line on a map and said you could 
preserve a forest in a specific ecological stage, such as old-
growth or saplings and poles, what would be your reaction?
    Mr. Franklin. Where is it? What type is it?
    Senator Wyden. Dr. Bonnicksen.
    Dr. Bonnicksen. No, you cannot. Congress can pass laws, but 
it cannot violate scientific laws. There are forests that you 
could pretty much leave alone. I have given you one, high 
mountain balsam fir, a very rare forest, a very valuable forest 
from the point of view that it has not changed since the end of 
the Ice Age actually. Beech maple forest, maple basswood 
forest, you could probably draw a line around those two, if you 
allowed people to go in and shoot deer to make sure that they 
could regenerate, because those are wind forests.
    But no, you cannot preserve a forest by drawing a line 
around it. It is not possible.
    Senator Wyden. Gentlemen, I do not have any further 
questions. If you all would like to add anything further, we 
are happy to have it. But just understand that the doors of 
this subcommittee are wide open to both of you. The goal here 
is to get beyond some of what has divided people on this issue, 
to show that you can have a management plan, an integrated 
management plan, where you can manage these forests for all 
Americans. We are going to stay at it until we figure out a way 
to do it, and we need your input and counsel.
    Anything either of you would like to add?
    Dr. Bonnicksen.
    Dr. Bonnicksen. Yes, Mr. Chairman. I would strongly suggest 
that you contact Congressman Mike Simpson from Idaho and 
discuss with him H.R. 2119, the National Historic Forests Act 
that he introduced, because I think you will find in that Act 
many of the answers to your questions and many of the solutions 
to your problem. I would really suggest that.
    Senator Wyden. Well, I think your point is a good one and I 
do know Mike and he is a good man. As you know, that 
legislation has generated a fair amount of opposition. What 
Senator Craig and I did at the outset on the county payments 
bill, which really is a historic step towards trying to get 
some balance in natural resources, is we said, what we are 
going to try to do out of the box is to find some ways to bring 
people together, because what has made this issue so 
contentious in the past is one bill after another has been 
introduced and the people who support it are out and vociferous 
and the people who are against it are equally vociferous, and 
then the discussion ends.
    Incredibly, the county payments bill that Senator Craig and 
I wrote in the last session was the first piece of forestry 
legislation to come to the floor in the U.S. Senate in almost 2 
decades, only because we said we were going to try to do it 
differently.
    So you are absolutely right, Mike Simpson is a good man and 
I am definitely going to look at his bill and everybody else's 
bill in an effort to try to move this along. What I am just 
going to ask everybody else to do is to see if we can maybe 
lower this decibel level a little bit and find a way to get 
people to focus on the areas we agree on and then we will roll 
up our sleeves and deal with the issues that we do not agree 
on.
    That is why I asked as I did on the definition of old-
growth. If we can do nothing else except cut through those 
tomes and find some areas that constitute some common ground, 
we begin to kind of narrow the choices in front of us.
    Dr. Bonnicksen. Mr. Chairman, can I just say one thing? I 
am already at the old-growth stage myself and becoming somewhat 
impatient about a lot of things, one of which is my love of 
forests and my sincere concern for sustaining them. It is sad 
for me to hear you say that the historic forests that graced 
North America and bringing back many of those forests is 
contentious. To me it is our heritage and I am deeply saddened 
that anyone would not want to see them back.
    Senator Wyden. Well, I guess if you are concluding after a 
couple hours of this hearing I am not interested in 
protecting----
    Dr. Bonnicksen. No, no. I am thinking about the contention 
you said was associated with H.R. 2119.
    Senator Wyden. Well, I think that is a matter of public 
record, sir, that there have been a number of groups that have 
come out against it. I think that what Senator Craig and I 
showed is that we were going to take the time before we sent 
everybody off into their armed camps to fight, we were going to 
take some time to try to show the areas where people would 
agree.
    That is what we are going to do here again. As I did with 
your comments, I am sure not interested in attacking you. Your 
sincerity is very evident. I know Mike Simpson; he is a good 
man. I think what we are trying to do is show that there is a 
different way of going about doing it, and I would like you and 
Dr. Franklin to walk out of here knowing that our doors are 
open to you and we are going to look for creative ideas that 
bring people together and do it fast.
    I think you are right, we are all sort of old-growth and we 
have got to do this fast. So give us your counsel and ideas and 
we want to work with you.
    We have got a vote on the floor of the Senate, so I am 
going to have to go make that. If our third panel can just be a 
little bit patient, I will hustle over and make the vote, and I 
will be back. If they can come forward, that will save us some 
time.
    [Recess from 4:42 p.m. to 5:13 p.m.]
    Senator Wyden. The subcommittee will come to order. 
Apologies to all the witnesses. It is just awfully hectic here.
    We are going to make your prepared remarks part of the 
hearing record in their entirety. If you all could summarize 
your principal concerns, that would be helpful. I hope all our 
witnesses have gotten the drift that we are really looking for 
ways to find some common ground here. We look forward to your 
ideas and thoughts on how to do it.
    Mr. Palola, welcome.

   STATEMENT OF ERIC S. PALOLA, DIRECTOR, NORTHEAST REGIONAL 
              OFFICE, NATIONAL WILDLIFE FEDERATION

    Mr. Palola. Yes, good afternoon. My name is Eric Palola. I 
am a natural resource economist and Director of the National 
Wildlife Federation's Northeast Regional Office. I come 
originally from a timber family in Washington State. However, I 
have lived in Vermont for the last 30 years. In addition to my 
work with the Federation, I will soon encounter, like many of 
my rural neighbors, decisions about how to balance private 
income with old-growth forest characteristics, as a recently 
minted private forest land owner.
    I would like to thank you for inviting me and in particular 
for adding an eastern forest perspective to this panel this 
afternoon. I will similarly highlight the written testimony 
which I have submitted.
    There is little doubt, as you have heard from the previous 
speakers today, as to the value of old-growth forests. If we 
agree, however, that old-growth forests, however they may be 
defined regionally, are valuable to society, then the key 
questions from where I sit are, namely, what conditions are 
necessary to maintaining or restoring old-growth forests, how 
much do we need, and how much can we reasonably get, and how 
should we spread the costs of old-growth conservation and 
restoration.
    What conditions are necessary? Any discussion of old-growth 
conservation outside of public lands, at least in the East, 
needs to acknowledge a couple of first order barriers and 
threats to forest tenure and good forest management. Simply 
put, we cannot get to old-growth conditions if the economics of 
forest ownership do not encourage and reward long-term 
sustainable forestry.
    We place practically no market value, for example, on 
forests that provide exceptional ecological services or 
habitats, such as old-growth, unless they happen to serve 
public drinking water or tourism types of values. So it is very 
hard for private forest owners to differentiate the value of 
forest land for anything but the value of the wood that is on 
it, and consequently we see the average parcel sizes declining 
across the Northeast and also turning over more rapidly, on the 
average of about every 8 to 9 years in our region of the 
country.
    Similar to economic uncertainties, old-growth values will 
be quickly discounted if large-scale ecological disruptions, 
such as climate change, induced stand replacement events, or 
persistent effects of acid rain and mercury deposition, 
continue to take their toll on our forest systems, as they have 
for too many years already.
    The clearest example of this is mercury deposition, where 
we have observed that rain falling over New England is 
frequently three to four times above the safe EPA wildlife 
standard for mercury. In addition, some researchers have found 
that trees in areas of the Northeast have essentially stopped 
growing due to suspected stress from cumulative air pollution.
    I can tell you in my own town the Christmas tree growers 
and maple syrup producers are wondering whether Congress will 
act to clean the rain of mercury and acid rain. So with due 
respect to the more specific topic of old-growth, I would be 
negligent if I did not at least comment about the prospects for 
eastern old-growth without commenting on these basic threats to 
forest security.
    How much do we need, how much old-growth? We need more 
forests with more old-growth qualities. True old-growth 
conditions in the East are scarce and, with the exception of 
the Adirondack Park in New York and a few other tracts, are 
relatively small and widely distributed. While many of these 
remnant stands are protected, we should not, as a matter of 
policy, direct all our efforts to simply trying to enlarge 
them. There are no more remnant stands to buy.
    Eastern forests were the first ones, as the writer Bill 
McGibbon put it, to ``hit bottom'' across our country. This 
means that we have to recruit the conditions, both economic and 
cultural, which favor putting old-growth qualities back into 
our ecosystems over time.
    A key impediment in our region is the forest composition. 
The lack of old-growth is a symptom of an overall loss of 
biodiversity. So as much as we might argue for more older 
trees, of equal concern is the case of the missing, those trees 
that evolved in our region and which made up a significant 
percentage of our historic forests, but are essentially gone at 
the forest end level. Examples include chestnut, elm, more 
recently butternut. Vermont, interestingly, used to be the 
lumber capital, lumber export capital of the world. We were 
valued for our tight-grained red spruce.
    Who and how will we pay? As I mentioned earlier, we know 
that we if we improve the economics of sustainable forest 
management, then we improve the likelihood that more of our 
forests will grow to maturity. If we can provide incentives to 
grow forests to their economic maturity--and I am talking about 
select-grade saw logs and veneer logs, not pulp plantations--
then we improve the likelihood that some percentage of trees in 
these forests will be allowed the grow to ecological maturity, 
or old-growth.
    This is admittedly a second order approach, but we need to 
take things in order. Forest longevity follows on forest 
security and forest diversity.
    In my own case, I have a number of individual examples of 
what my forester calls legacy trees or historical markers, and 
they are by no means representative of old-growth conditions, 
but they serve as a proxy for some.
    Who will pay to wait while our relatively young eastern 
forests grow up? Some properties may deserve public protection 
through direct purchase, but in these cases old-growth will 
likely need to be part of a larger package of values that 
include recreation, remoteness or drinking water protection. 
For the majority of forest lands in the East, however, the 
success of old-growth recruitment will depend on the economic 
signals.
    We have enjoyed exceptional leadership from the New England 
delegation on forest matters, especially on the Senate side and 
especially from my two Vermont Senators. We are grateful for 
that. The Congress has made some good starts in the last 10 
years, for example by creating a forestry title in the farm 
bill and by creating Federal cost-share programs, such as the 
forestry incentive, the forest legacy programs. These programs 
are up for reauthorization and the National Wildlife Federation 
urges you to support them as fully as these tightening budget 
times allow.
    Other more experimental programs will help, such as 
payments for carbon offsets, which the chairman has, I know, 
given a lot of thought to; other ideas, community forestry 
bonds, Federal tax incentives for conservation. I have appended 
a list of some of these policy ideas to my testimony.
    To conclude, I would like to reinforce just one theme, 
especially as your full committee considers the Nation's energy 
situation. The National Wildlife Federation is extremely 
worried about an energy policy that emphasizes oil and coal 
development while relaxing air pollution regulations. Eastern 
forests and their inhabitants are experiencing a slow but 
certain cancer from airborne pollutants.
    I was frankly initially tempted to devote all my testimony 
to this problem, it is that serious. It is difficult, frankly, 
for those of us who live in these forests to compartmentalize 
issues of forest health. So I would like the conclude with 
that.
    Thank you again very much for inviting me and for your 
time.
    [The prepared statement of Mr. Palola follows:]
  Prepared Statement of Eric S. Palola, Director, Northeast Regional 
                  Office, National Wildlife Federation
    Chairman Wyden and members of the subcommittee:
    My name is Eric Palola and I am a natural resource economist and 
Director of the National Wildlife Federation's northeast regional 
office. I come originally from a timber family in Washington state, 
however I have lived in Vermont for the past thirty years. In addition 
to my work with the Federation, I will soon encounter, like many of my 
rural neighbors, decisions about how to balance private income with old 
growth forest characteristics as a recently-minted private forest land 
owner. The National Wildlife Federation has been deeply involved in 
forestry issues in the northeast over the last decade starting with the 
work of the Congressionally authorized Northern Forest Lands Council. 
More recently, my office has been involved in a variety of community 
and private forestry endeavors including the independent verification 
of sustainable forestry on roughly 1.5 million acres across six states 
under the internationally recognized Forest Stewardship Council system; 
as one of a dozen special projects under a national community forestry 
demonstration program sponsored by the Ford Foundation, and as a member 
of two state-level commissions involved in assessing forest conditions 
and economic opportunities within the wood products sector.
    There is little doubt, as you've heard from the previous speakers 
today, as to the value of old growth forests. They enrich our 
biodiversity and provide core wildlife habitat for wildlife; they serve 
as genetic repositories while yielding non-timber products such as 
medicinals or herbs. And for many, old growth forests provide 
unparalleled spiritual, aesthetic, and recreational values.
    If we agree that old-growth forests--however they are defined 
regionally--are valuable to society then the key questions from a 
policy standpoint are: What conditions are necessary to maintaining or 
restoring old-growth forests? How much old growth do we need and how 
much can we reasonably get? And, how should we spread the costs of old-
growth conservation and restoration? To answer these questions the 
National Wildlife Federation starts with the following perspectives:
    1. Old growth comprises a set of forest conditions that should not 
be limited to descriptions of the age class of trees alone. For example 
in the northeast, mature hardwood trees of 80-120 years of age can 
satisfy some of the values that are ascribed to 200-300 year old 
forests, such as for certain understory plants, although these trees 
are still vigorously growing.
    2. The nation as a whole, and the east in particular where I live, 
lacks a sufficient component of forests containing old-growth 
characteristics. In general, while the landscape is returning to forest 
cover from two centuries of agriculture, the profile of our forests 
tend to be younger and more simplified than ever before. Our challenge 
is to provide incentives that encourage the recruitment of more 
biological diversity of which a higher percentage of old growth is a 
key indicator.
    3. The restoration of adequate levels of old growth will require a 
variety of tools. We should not rely, for example, on public land 
acquisition as the only, or necessarily best approach. Several existing 
federal cost-share programs, as well as some unexplored or untested tax 
policy mechanisms, can serve to set the stage for old growth 
recruitment in the future
    4. While publicly-held old growth reserves are the most secure 
option, many ``working forest landscapes''--especially those in the so-
called non-industrial forest landowner (NIPF) base can practice and 
showcase long-term sustainable forest management that includes, by 
definition, some recruitment of future old-growth.
    The National Wildlife Federation is focused on encouraging 
conservation on working landscapes across the country whether they are 
managed for crops, livestock, or timber.\1\ We value working landscapes 
not only because this is where the bulk of America's natural resources 
are located and hence some of the best opportunities for conservation, 
but because we value the social fabric, the local knowledge, and the 
contributions that natural resource dependent communities make to our 
sense of who we are as a nation. The question of old-growth 
conservation is deeply embedded in our attitudes, customs, and uses of 
the forest. To draw just one example, I can fairly say that most people 
in the east don't know what an eastern old-growth forest looks like 
they've been reduced to less than one-half of one percent of the forest 
land base--whereas many of us have been able to stand within the 
remaining ancient forests of Redwood National Park, or on the Olympic 
Peninsula, and have a genuine feel for what a really old forest looks 
and smells and sounds like. We have to appreciate these cultural 
differences as we think about old growth in the future.
---------------------------------------------------------------------------
    \1\ Working Landscapes: Cultivating Conservation in the 2002 Farm 
Bill. National Wildlife Federation, 2001
---------------------------------------------------------------------------
    To respond to my initial policy questions:
    1. What conditions are necessary?
    Any discussion of old growth conservation outside of public lands 
needs to acknowledge the ``first-order'' barriers and threats to forest 
tenure and good forest management. Simply put, we can not get to old 
growth conditions if the economics of forest ownership do not encourage 
and reward long term sustainable forestry. Right now, we send very 
inconsistent economic and policy messages about the value and 
importance of timber land as a long term investment, and we place 
practically no market value on forests that provide exceptional 
ecological services or habitat such as old-growth, (unless they happen 
to serve perhaps public drinking water supplies or tourism.) Thus its 
very hard for private forest owners to differentiate the value of 
forest land for anything but the value of the wood that's on it, or 
some other non-forest alternative, such as real estate development. 
Consequently we see average parcel sizes declining and turning over 
more rapidly Standing old-growth certainly doesn't pay, but nor do many 
typical private forests.
    Similar to economic uncertainties, old growth will be quickly 
discounted if large-scale ecological disruptions, such as climate 
change-induced stand replacing events or if the persistent effects of 
acid rain and mercury deposition continue to take their toll on our 
forest systems--as they have for too many years already. Only in the 
last ten years, have scientists been able to begin to draw firm causal 
links between air pollution and the health of wildlife and forests. The 
clearest example is mercury deposition where we've observed that rain 
falling over New England is frequently 3-4 times above the safe EPA 
wildlife standard for mercury.\2\ In addition, researchers have found 
that trees in some areas of the northeast have simply stopped growing 
due to the suspected stress from cumulative air pollution.\3\ Red 
spruce, once the prized lumber export of our region, now has difficulty 
regenerating and is dying at high elevations. I can tell you that 
Christmas tree growers and maple syrup producers in my town are 
wondering whether Congress will act to ``clean the rain'' of mercury 
and acid rain. So, with due respect to the more specific topic of old 
growth, I would be negligent for me to talk about the prospects for 
eastern old-growth without commenting on these basic threats to forest 
security in the northeast.
---------------------------------------------------------------------------
    \2\ Clean the Rain--New England report. National Wildlife 
Federation, September 2000.
    \3\ The Toll from Coal: How Emissions from the Nation's Coal-Fired 
Power Plants Devastate Wildlife and Threaten Human Health, National 
Wildlife Federation, 2000
---------------------------------------------------------------------------
    2. How much do we need?
    We need more forests with more old growth qualities. This means not 
just a higher component of older trees, but forests which are 
representative of the range of old growth attributes: multiple growth 
layers, large fallen logs, plentiful snag and cavity-nesting trees, 
abundance of lichens and fungi, an undulating forest floor resulting 
from decomposition and undisturbed soils, and well shaded streams. True 
old growth conditions in the east are scarce and, with the exception of 
the Adirondack Park and a few other tracts, are relatively small and 
widely distributed. While many of these remnants stands are protected, 
we should not as matter of policy direct all our efforts to simply 
trying to enlarge them. There are no more remnant stands to buy. 
Eastern forests were the first ones, as the writer Bill McKibben has 
put it, ``to hit bottom'' across our country. This means that we have 
to recruit the conditions both economic and cultural--which favor 
putting old growth qualities back into our ecosystems over time .
    A key impediment in our region relates to forest composition. The 
lack of old growth is but a symptom of an overall loss of biodiversity 
that stems primarily from past heavy cutting practices and the problem 
of invasive pests and diseases. The loss of old red spruce was one 
casualty. As much as we might argue for more older trees, of equal 
concern is the case of the missing: those trees that evolved in our 
region, and which made up a significant percentage of our historic 
forests, but which are essentially gone at the forest stand level. 
Examples include chestnut, elm, or more recently butternut. This loss 
of biodiversity means that a whole host of other relationships between 
plants, birds, mushrooms, and understory plants that were in the 
forests of our forefathers are now missing or compromised.\4\ Thus, if 
we want more old growth for biodiversity or for carbon sequestration 
reasons, then policies which encourage restoration of the full array of 
forest attributes and species including large predators such as 
mountain lions and wolves--may be just as important as recruiting older 
trees from within a given stand.
---------------------------------------------------------------------------
    \4\ For an excellent reference on ecological issues associated with 
old growth maintenance and recovery see: Eastern Old Growth Forests: 
Prospects for Rediscovery and Recovery, M.B. Davis, Editor, Island 
Press, 1996.
---------------------------------------------------------------------------
    3. Who, and how, will we pay? . . .
    We can afford to put more old growth characteristics back in our 
forests by being smart about how we spread the costs and incentives of 
restoration. As I mentioned earlier, we know that if we improve the 
economics of sustainable forest management, then we improve the 
likelihood that more of our forests will grow to maturity. If we can 
provide incentives to grow forests to their economic maturity--and I'm 
talking about select grade sawlogs and veneer logs, not pulp 
plantations--then we improve the likelihood that some percentage of 
trees in these forests will be allowed to grow to ecological maturity, 
or old growth. This is admittedly a ``second best'' approach, but we 
need to take things in order: forest longevity follows on forest 
security and forest diversity. In my own case, I have a number of 
individual examples of what my forester calls ``legacy trees'' or 
``historical markers.'' They are by no means representative of old 
growth conditions but they serve as a proxy for some. Fortunately, I 
think the mainstream forestry community has a much deeper appreciation 
of the role of old growth than ever before. I think many forest 
managers would opt to see more older trees in the woods, rather than 
rely solely on public ``tree museums'', if some of the economic 
constraints were removed.
    But who will ``pay to wait'' while our relatively young eastern 
forests grow up? Some properties which have outstanding old-growth 
qualities may deserve public protection through direct purchase, but in 
these cases old-growth will likely need to part of a larger package of 
values that include recreation, remoteness, or drinking water 
protection. For the majority of forest lands in the east, however, the 
success of old growth recruitment will depend on the economic and 
policy signals. Many of my friends in the policy community have given a 
lot of thought to these issues. We've enjoyed exceptional leadership 
from the New England delegation on forestry matters--especially on the 
Senate side--and especially from my two Vermont Senators. We're 
grateful for that. The Congress has made some good starts in the last 
ten years, for example, by creating a forestry title in the Farm Bill, 
and by creating federal cost-share programs such as the Forestry 
Incentive Program and the Forest Legacy Program. These programs are up 
for re-authorization and the National Wildlife Federation urges you to 
support them as fully as these tightening budget times allow. Other, 
more experimental programs will help, such as payments for carbon 
offsets, community forestry bonds, and federal tax incentives for 
conservation. Let try some of them. Any effort that hitches 
affordability to conservation will help in the ultimate decision of 
whether forests get to remain as forests, and then perhaps the option 
of old growth. Along these lines, I want to note that I've appended a 
short list of recommended policies with my testimony.
    To conclude I'd like to reinforce just one theme, especially as 
your full committee considers the nation's energy situation. The 
National Wildlife Federation is extremely worried about an energy 
policy that emphasizes oil and coal development while relaxing air 
pollution regulations. Eastern forests and their inhabitants are 
experiencing a slow but certain cancer from airborne pollutants. I was 
initially tempted to devote all of my testimony to this problem--its 
that serious--and its difficult, frankly, for those of who live in 
forests to compartmentalize issues of forest health.
    Thank you for your time this afternoon.

    Senator Wyden. Thank you very much, Mr. Palola.
    Mr. Johnston, thank you, from Eugene, Oregon.

           STATEMENT OF JAMES JOHNSTON, CO-DIRECTOR, 
             CASCADIA WILDLANDS PROJECT, EUGENE, OR

    Mr. Johnston. Yes, Mr. Chairman. Thank you very much for 
asking me to appear today. My name is James Johnston. I am the 
co-director of the Cascadia Wildlife Project and I also 
coordinate Federal forest issues for the Oregon chapter of the 
Sierra Club, and I am going to be directing my comments 
specifically to the old-growth forests of the west side, 
western Oregon and Washington.
    I grew up in a small logging town in the Oregon Coast Range 
and I have been working on old-growth issues for about 10 years 
now, so I have had a front row seat for the debate over old-
growth logging and the management of Federal forests in western 
Oregon and Washington.
    I could easily talk to you about old-growth and Federal 
forest management for days, but if I had to distill my 
perspective into one sentence I would say that a sound 
management plan for Federal forests must be legally defensible, 
based on sound science, and supported by the public. Now, we 
have taken important steps in that direction with the Northwest 
Forest Plan and ecosystem management strategy. But the plan has 
a serious flaw. It still allows the Forest Service and the BLM 
to log old-growth and there is not much old-growth left.
    Now, Mr. Chairman, you have many years of experience with 
the debate over management of national forests in Oregon and 
you have undoubtedly grown accustomed to hyperbole, so I do not 
need to tell you that the old-growth forests of Oregon are the 
best forests in the world. Unfortunately, only about 10 percent 
of these, these ancient forests, remain. Most of them are on 
public lands, and most Americans would be shocked to learn that 
the Forest Service and BLM still spend taxpayer dollars to log 
them. Right now, some of the best old-growth left in the 
Pacific Northwest is on the chopping block, including trees 
more than 8 feet in diameter and 500 years old.
    Under the Northwest Forest Plan, we will be logging 1.1 
million acres of late successional forests, about half of which 
are these classic ancient forests or cathedral forests. This 
type of logging is dramatically out of step with societal 
values. We do not need to harpoon whales for lantern oil or 
shoot elephants to make piano keys. Similarly, we do not need 
to log trees that are hundreds of years old to produce wood 
products or to maintain quality jobs in the wood products 
industry.
    Today, only 3 of the 71 saw mills in western Oregon depend 
on Federal timber to any significant extent. Federal logging 
accounts for less than 8 percent of total wood production, down 
from 34 percent during the height of the Federal logging boom 
in the 1980's, and the wood products industry represents less 
than 2 percent of total employment in Oregon and Washington.
    Now, I am not suggesting that timber is not an important 
industry and I am not suggesting that we should stop practicing 
forest on public lands. In fact, I believe that there should be 
an increased role for forestry. But we cannot get Federal 
forests back to work unless the Forest Service and BLM get out 
of the old-growth business.
    It hardly needs to be said that ancient forest logging is 
extremely unpopular government policy. As Teddy Roosevelt 
noted, Americans like big things. You will find overwhelming 
support among your constituents for ending old-growth logging.
    Now, there are alternatives to old-growth logging. The 
Forest Service and BLM could stop clearcutting older forests 
and implement a restoration silviculture program in young 
managed stands, in tree farms. This alternative has been 
discussed by previous witnesses.
    I do not want the committee to get the impression that 
thinning is a panacea for ending old-growth logging. It is an 
alternative and something that is worthwhile being explored. We 
do not want to turn thinning into another political hot potato 
similar to what old-growth logging is. We want to proceed 
carefully and let science chart a direction for us, not just 
set another timber target that we are not going to be able to 
meet.
    But there is definitely room for discussion of thinning 
opportunities. In fact, we believe that the problem with 
management of public lands currently is the forests are not 
being managed. Agencies are devoting scarce resources to 
clearcutting older stands and meeting the legal requirements 
for this type of logging, including surveys for rare species. 
At the same time, there are hundreds of thousands of acres that 
could be restored, hundreds of thousands of acres of tree farms 
that could be restored. In our region, the Forest Service and 
BLM are only meeting about 10 percent of that need.
    Now, as I said, I could talk about management of Federal 
forests for days. Mostly, I would be telling you what is wrong 
with the Forest Service and BLM. But I will conclude by telling 
you about something that is right. I strongly urge the 
committee to acquaint themselves with the work that is being 
done in Oregon's Siuslaw National Forest. I spent several days 
there last week with other conservationists, agency staff, 
scientists, representatives from community economic development 
organizations, the timber industry, labor unions, county 
commissioners, watershed councils.
    To our surprise, we actually all got along pretty well. 
Mostly we agreed that there is a lot of opportunities for work 
on this forest. The Siuslaw, unlike other forests, emphasizes 
watershed restoration, with a variety of projects, from 
placement of in-stream habitat structures to thinning of 
overstock plantations.
    Although production of wood fiber is largely an incidental 
by-product of restoration efforts, the Siuslaw produces around 
25 million board-feet of timber annually, and this is 
considerably more timber per acre than the forests you assume 
are going to produce a lot of wood volume, the workhorses like 
the Willamette and Gifford Pinchot National Forest.
    The Siuslaw could be doing a lot more. They could be 
thinning 5,000 acres of overstock tree plantations. They are 
only budgeted to manage about 3,000. Funding work like that 
which is being done on the Siuslaw National Forest is not 
welfare for watersheds. It is an investment in our future that 
will pay huge dividends down the road when we have clean water, 
healthy salmon runs, healthy communities, healthy forests, a 
world-class tourist destination.
    For years, we subsidized clearcutting of old-growth forests 
because that type of logging built roads and schools and 
provided a way of life for the residents of our region. Today, 
logging does not drive our economy. The new economy depends on 
the non-timber amenities provided by public lands. Times have 
changed a lot in our region and government priorities need to 
change, too. Ending old-growth logging and investing in our 
forests is an idea whose time has come.
    Thanks.
    [The prepared statement of Mr. Johnston follows:]
 Prepared Statement of James Johnston, Co-Director, Cascadia Wildlands 
                          Project, Eugene, OR
    Mr. Chairman, members of the committee, thank you for the 
opportunity to appear today. My name is James Johnston; I am the 
director of the Cascadia Wildlands Project, a non-profit conservation 
organization based in Eugene, Oregon. I also coordinate federal forest 
issues for the Oregon Chapter of the Sierra Club. And I am also here 
today representing a new coalition of regional conservation groups 
that's working to protect remaining late-successional and old growth 
forests in western Oregon and Washington.
    I grew up in the Oregon Coast Range, next to a small logging town. 
I have had a front row seat for the intense debate over old growth 
logging and the management of federal forests in the Pacific Northwest. 
I could talk easily talk about old growth and federal forest management 
for days. But if I had to distill my perspective into one sentence I'd 
say that a sound management plan for federal forests must be legally 
defensible, based on sound science and supported by the public.
    We've taken important steps towards achieving those goals. Today 
the federal forests of western Oregon, Washington and northern 
California are managed under the Northwest Forest Plan, one of the 
first true ecosystem management strategies. But the Plan has a serious 
flaw: It still allows the Forest Service and Bureau of Land Management 
to log old growth, and there's not much old growth left.
    In my testimony today I want to give the committee:
    1. Background on old growth logging under the Northwest Forest 
Plan.
    2. Some information about changes to the economy and workforce of 
the Pacific Northwest that suggests the need to develop alternatives to 
logging older forests.
    3. A review of the progress of the Northwest Forest Plan in meeting 
agencies' legal mandates, the public's expectations and timber 
production goals.
    4. A brief sketch of an alternative management strategy.
                         ancient forest logging
    Mr. Chairman, you have many years' experience with the controversy 
over management of public lands in the Pacific Northwest. By now you 
have undoubtedly grown accustomed to hyperbole. Conservationists have 
overused words like ``unique,'' ``magnificent'' and ``critical'' to 
describe the forests of our region, particularly when they are 
threatened with destruction. Nevertheless, the ancient forests found in 
western Oregon, Washington and northern California are a truly 
exceptional natural heritage. They contain more biomass per acre than 
any other terrestrial ecosystem, and are home to some of the world's 
largest and oldest living things.
    Many observers have used the term ``cathedral forest'' to describe 
stands of Douglas fir, western red cedar and Sitka spruce that tower 
more than 300 feet above the ground. Unlike a tree farm, the cathedral 
forest is a structurally complex ecosystem, characterized by a multi-
storied canopy, copious snags and downed logs. This complexity results 
in rich biodiversity; there are thousands of species of plant and 
animal life associated with this forest type, with more discovered 
every day. Like a cathedral, these forests have been a source of 
inspiration for millions of visitors, and a source of pride for those 
of us who live in the Pacific Northwest.
    In addition to their aesthetic appeal, westside ancient forests 
also provide important services. Their complex structure acts as a 
natural filter, providing extremely pure water to municipalities. The 
clean cold water produced by ancient forests is also critical to the 
persistence of salmon runs, which in turn support an industry that 
employs as much as 60,000 workers. Ancient forests are giant carbon 
sinks that mitigate global climate change. They provide unique 
recreation experiences that pump millions of dollars into local 
communities. As we learned from our experience with the Pacific yew, 
the biological richness of ancient forests also has enormous potential 
for scientific research that yields new medical treatments and a 
variety of commercial applications.
    After decades of intensive logging, only about 10% of these 
westside ancient forests remain. Almost all of what's left is found on 
the National Forests and Bureau of Land Management Districts managed 
under the direction of the Northwest Forest Plan. These lands are owned 
by all of us, and most Americans would be shocked to learn that the 
Forest Service and BLM still spend taxpayer dollars to log ancient 
forests. Timber sales in western Oregon and Washington like the Goose 
Egg, Solo, Clark, North Winberry, Snog, Peanuts, Fish Creek, Warm 
Springs and Mr. Wilson sales, and many others, would log trees up to 9 
feet in diameter, more than 300 feet tall and more than 500 years old. 
The Forest Service and BLM are currently logging, or plan to log some 
of the biggest and oldest trees left in the country. Under the 
Northwest Forest Plan, the Forest Service and BLM will log more than 
1.1 million acres of late-successional forests, almost half of which 
are the classic cathedral forests that I described a moment ago.
    This type of logging is dramatically out of step with societal 
values. We don't need to harpoon whales for lantern oil, or shoot 
elephants to make piano keys. Similarly, our country doesn't need to 
log trees that are hundreds of years old to produce wood products, or 
to maintain quality jobs in the woods products industry.
                     jobs and the regional economy
    Unfortunately, conservationists' proposals to protect older forests 
are commonly painted by timber interests as costing workers their jobs 
and undermining the stability of rural communities. When court 
injunctions and the last administration's Northwest Forest Plan reduced 
logging levels from their historic highs in the late 1980s, industry 
lobbyists warned that our region would suffer an economic catastrophe 
and the loss of thousands, if not hundreds of thousands of jobs. 
Economist Ernie Niemi and colleagues addressed the Pacific Northwest's 
response to federal logging reductions in a recent report entitled 
``The Sky Did Not Fall.'' They point out that our regions' economic 
life had already begun to change long before implementation of new 
forest protections. Today, our economy has transformed itself to the 
point where we are ready to adopt alternatives to old growth logging. 
Consider the following facts:

  <bullet> Due in large part to automation and exportation of both raw 
        logs and production capacity, the wood products industry had 
        already lost thousands of jobs while logging levels on federal 
        lands increased. During the period of heaviest logging on 
        federal lands in the Pacific Northwest, from 1979 to 1989, 
        timber employment declined by more than 27,000 jobs. The wages 
        paid to remaining workers in the wood products industry fell by 
        18%.
  <bullet> Despite industry fears, the Pacific Northwest prospered when 
        federal logging levels were reduced in the early 1990s. Total 
        employment in our region increased 27 percent, with more than 
        825,000 new jobs created.
  <bullet> When the Northwest Forest Plan was adopted in 1994, it was 
        assumed that the timber industry needed to log older forests to 
        survive. This assumption is clearly no longer valid. Today, 
        only 3 of the 71 sawmills in western Oregon depend on federal 
        timber to any significant extent, and 40 process no federal 
        timber whatsoever. Three-quarters of western Washington's 
        sawmills process no federal timber, and only one mill depends 
        on federal timber for more than one-third of its log supply.
  <bullet> During the federal forest logging boom in western Washington 
        and Oregon in the mid 1980s, federal logging accounted for 34% 
        percent of total timber production. By 1996, federal logging in 
        western Oregon and Washington was 7.5 percent of total timber 
        production, and continues to decline.
  <bullet> Today, the wood products industry represents less than 2% of 
        total employment in Oregon and Washington. A minute percentage 
        of these jobs depend on logging older forests on westside 
        federal forests.

    At the same time as the Pacific Northwest's economy has become less 
dependent on federal forest logging, the value of unlogged forests has 
increased. A full description of this trend would be take some time, 
but consider the following brief examples:

  <bullet> Studies suggest that the services associated with pristine 
        forests in our region things like camping, hunting, fishing and 
        hiking opportunities account for 90% of the total value of all 
        commodities derived from these lands. Timber production 
        accounts for only 10% of this total.
  <bullet> Whereas in the past our region's economy depended on 
        extracting natural resources, today it depends on attracting 
        new businesses and a skilled and productive workforce. Research 
        indicates that people live and work in western Oregon and 
        Washington because they receive a second paycheck in the form 
        of recreation opportunities, clean water and scenic beauty. 
        Every old growth timber sale logged represents a pay cut for 
        the thousands of people who live in our region for the natural 
        amenities.
  <bullet> Taxpayers and businesses incur substantial costs to offset 
        the effects of environmental degradation from logging older 
        forests, such as impacts to salmon runs, cost to repair damaged 
        filtration plants, loss of tourist business and loss of funding 
        for needed social services and economic development projects.

    I'm not suggesting that timber isn't an important industry, and I'm 
not suggesting that we stop practicing forestry on public lands. In 
fact, I believe that there should be an increased role for forestry on 
hundreds of thousands of acres of planted young managed stands. Before 
I conclude my testimony with a discussion of these opportunities, let 
me describe the current status of the Northwest Forest Plan.
                   state of the northwest forest plan
    Land management agencies have been trying to create an old growth 
logging program that is legally defensible and reflects the public's 
values for almost 15 years, and they have failed. It is highly unlikely 
that they will ever succeed.
    The Forest Plan has failed to produce wood volume while meeting 
federal agencies' legal mandates. Two recent lawsuits--Oregon Natural 
Resources Council Action v. the U.S. Forest Service and Pacific 
Federation of Fisherman's Associations II v. National Marine Fisheries 
Service--have enjoined most federal timber sales during the past two 
years. At present, most federal forests in western Oregon and 
Washington are producing less than 10% of the timber volume projected 
by the Plan. These legal actions are the direct result of the agencies' 
decision to concentrate logging in older forest stands, which are 
critical to the persistence of a variety of threatened wildlife species 
and important ecological processes.
    It hardly needs to be said that ancient forest logging is an 
extremely unpopular government policy. As Teddy Roosevelt once noted, 
``Americans like big things.'' We have a visceral reaction to the 
destruction of a unique natural legacy. A public opinion survey 
conducted in April by a respected, non-partisan polling firm in 
Portland found that that 75% of Oregon and Washington residents support 
ending old growth logging. This support cuts across demographic and 
party lines, and is strong in rural, urban and resource-dependent 
communities.
    At the same time we are learning more and more about the importance 
of older forests. Seven of the leading old growth researchers in the 
country recently petitioned the Forest Service and BLM to protect all 
remaining late-successional and old growth forests in our region. They 
point to new scientific research that strengthens the view that each 
old forest is to some degree unique, and therefore of critical 
importance.
    Although logging ancient forest is clearly bad for the environment, 
there are other types of logging that conservationists can support. 
Thinning young, single-age, single-species plantations can benefit the 
forest in western Oregon and Washington. Many of these westside tree 
farms are overstocked and characterized by uniform stand structure and 
low species diversity. Federal agencies, distracted by their outdated 
old growth logging agenda, are currently neglecting opportunities to 
practice forestry in these plantations.
    Protecting forests against fire, disease and pest infestation is 
another important consideration. Ancient forests, with their high 
canopies, thick, fire resistant bark and wide spacing, are naturally 
resistant to these disturbances. Fires in ancient forests tend to be 
low intensity burns. Overstocked small diameter tree farms have a 
single-layer canopy and are at the greatest risk of a catastrophic 
fire. The Forest Service and BLM set the stage for wildfire by 
converting fire resistant ancient forests into fire prone tree farms. 
This must stop.
    During the past five years there have been approximately 350,000 
acres of tree plantations available annually in the national forests of 
western Oregon and Washington in need of active management. During that 
period, the Forest Service has only treated about 50,000 acres. The 
Bureau of Land Management has about 210,000 acres of young tree farms 
from 0-30 years of age in late-successional reserves that could 
potentially benefit from active management. The BLM anticipates 
treating only 17% of this need.
    The problem with the management of public lands under the Northwest 
Forest Plan is that forests are not being managed. Clearcutting old 
growth is not management; it's strip mining in the forest. Forest 
management involves manipulating vegetation to improve forest health, 
restore degraded landscapes and provide for sustainable human 
communities. Under the Northwest Forest Plan, federal land management 
agencies are devoting scarce fiscal and personnel resources to 
clearcutting older stands and meeting the legal requirements for this 
type of logging, including surveys for the rare species inhabiting 
these forests. These skewed priorities result in the agencies' 
inability to manage plantations.
                   alternatives to old growth logging
    Today, seven years after implementation of the Northwest Forest 
Plan, policy makers have a choice. We can continue to operate in 
gridlock, moving from one crisis to another, or we can chart a new 
direction. There are alternatives to logging ancient forests that 
provide high quality jobs, produce wood fiber and protect the 
environment. We are requesting that the Senate act to re-orient the 
federal timber sale program from its reliance on clearcutting older 
stands to a forest restoration program, with a focus on recovering 
plantations. Treatments in plantations would be designed to accelerate 
the development of late-successional characteristics by increasing tree 
growth, stem diameter and introducing horizontal and vertical 
structural diversity.
    Because there are hundreds of thousands of acres of plantations 
available for restoration silviculture, significant timber volume will 
be produced as a byproduct of thinning treatments. A restoration 
silviculture management strategy could potentially produce more wood 
fiber than is currently coming out of the gridlocked forests managed 
under the Northwest Forest Plan.
    And there's much more to restoration than just silviculture. There 
is a huge need for projects that repair a crumbling road 
infrastructure, decommission unnecessary and environmentally 
destructive roads, improve stream habitat and stabilize slope failures, 
to name just a few stewardship opportunities. There is no shortage of 
high skill, family wage jobs that can be created with modest public 
investments in restoration management.
    I believe this proposal will resolve much of the controversy that 
has surrounded implementation of the Northwest Forest Plan. It would 
improve forest health by protecting dwindling late-successional forests 
rich in biodiversity, accelerating the development of late-successional 
characteristics in tree plantations and reducing risk of fire, pests 
and disease. Most importantly, restoration silviculture, if 
conscientiously implemented, is likely to meet legal tests and avoid 
public controversy.
    This proposal addresses deficiencies in the Northwest Forest Plan, 
but I am not suggesting that the Plan be abandoned. Indeed the 
foundation of the Plan's management strategy is the concept of 
``adaptive management.'' Adaptive management assumes that as we learn 
more about forest ecosystems and local communities, the Plan will 
integrate new strategies and techniques. I believe that it is time to 
update the Northwest Forest Plan to reflect the best science, societal 
values and the restoration silviculture opportunities that are now 
available.
    In addition to a change in forestry practices, we need a renewed 
commitment to quality employment and the integrity of rural 
communities. For too long the debate about the management of federal 
forests has been dominated by board feet figures and timber volume 
targets. These benchmarks do not address forest health, and they deal 
with the health of local communities indirectly at best. If quality 
employment and community stability is indeed an important goal of 
forest management, we should articulate these values clearly instead of 
remaining fixated on timber targets.
    The first thing that the Senate can do is to fully fund existing 
Department of Agriculture and Interior community assistance programs, 
particularly the Forest Service's Pacific Northwest Assistance line 
item in its Cooperative Forestry budget. The Senate should explore a 
variety of avenues for delivering technical assistance, economic and 
infrastructure development grants, and other tools that leverage 
communities' economic transition.
    As I said, I could talk about management of federal forests for 
days. Mostly I'd be telling you what's wrong with the Forest and BLM. 
But with my limited time I want to tell you about a success story. I 
strongly urge the committee to acquaint themselves with the work that's 
being done on the Siuslaw National Forest on Oregon's coast. The 
Siuslaw protects remaining older forests and emphasizes watershed 
restoration, with a variety of projects that include placement of in-
stream habitat structures and commercial thinning of overstocked 
plantations. Although production of wood fiber is largely an incidental 
by-product of restoration efforts, the Siuslaw produces around 25 
million board feet of timber annually, and has had great success 
marketing this timber to local mills. Even though the Siuslaw 
emphasizes restoration, and has a fraction of the timber budget of the 
industrial workhorses like the Gifford Pinchot, Willamette and Umpqua, 
they actually produce considerably more timber per acre than these 
forests. The Siuslaw is a forest that works.
    I spent several days last week on a collaborative learning field 
trip on the Siuslaw with other conservationists, agency staff, and 
representatives from community economic development organizations, the 
timber industry, labor unions, county commissioners and watershed 
councils. To our surprise, we actually all got along pretty well. 
Mostly we agreed that there are huge opportunities for work on this 
Forest. And we heard from community members who are eager to take 
advantage of these employment opportunities. Unfortunately, there is 
currently neither the funding nor the political will to create these 
jobs.
    The Siuslaw National Forest could be commercially thinning 5,000 
acres of overstocked tree plantations annually. Currently their budget 
supports only 3,000 acres of thinning. They could be pre-commercially 
thinning 5,000 acres, but their budget currently supports a quarter of 
this need. They could be restoring 25 miles of streams annually, but 
can only afford to do a third of that work. They could be treating 175 
miles of unstable roads, but, again, are only able to accomplish a 
third of that goal. Three million people could be enjoying 230 miles of 
trail, with a huge payoff to the local economy, yet the Forests' budget 
is only able to realize half of that potential. The communities near 
the Siuslaw National Forest need your leadership to protect ancient 
forests, restore watersheds and create jobs in the process.
    Funding work like that which is being done on the Siuslaw National 
Forest is not welfare for watersheds. It's an investment in our future 
that will pay huge dividends down the road when we have clean drinking 
water, abundant salmon runs, a world-class tourism destination, healthy 
forests and healthy communities. For years we subsidized clearcutting 
of old growth forests because that type of logging built roads and 
schools and provided a way of life for the residents of our region. 
Today, logging doesn't drive our economy. The real engines of 
prosperity are high technology and service jobs. This new economy 
depends on the non-timber amenities provided by public lands. Times 
have changed a lot in our region. Government priorities need to change 
too. Ending old growth logging and investing in our forests is an idea 
whose time has come.
    That concludes my prepared comments. I'd be happy to answer any 
questions from the committee.

    Senator Wyden. Thank you, Mr. Johnston. You know, as I 
listen to you--and think all of our witnesses have been very 
good today. We have had a spirited debate. You have come back 
to a point that I think cannot be emphasized enough, and that 
is that old-growth does not exist in a vacuum. It exists in the 
context of an overall set of policies that make sense for the 
health of the forest. I think that it is very constructive that 
you are making that point, and I appreciate it and we are going 
to be working closely with you.
    Mr. Daucsavage, usually I talk to you early in the morning 
when we were in a state of high peril and panic about some 
forestry policy. I am glad you are here today.

           STATEMENT OF BRUCE DAUCSAVAGE, PRESIDENT, 
             OCHOCO LUMBER COMPANY, PRINEVILLE, OR

    Mr. Daucsavage. Thank you very much for your invitation and 
good afternoon.
    My name is Bruce Daucsavage and I am the president of 
Ochoco Lumber Company of Prineville, Oregon. Prineville is 
located in central Oregon. My testimony today also reflects the 
views of the American Forest Resource Council and its nearly 90 
forest land owners and wood products manufacturers located in 
12 States west of the Great Lakes. Our proud forest products 
industry has sales of over $195 billion annually and employs 
1.6 million people, making a significant contribution to our 
Nation's economy. Ochoco Lumber Company, the members of the 
AFRC, and the forest products industry are committed to 
sustainable forestry for all forest lands, public and private.
    Today's hearing is about old-growth, a topic that has been 
studied and debated in the Pacific Northwest for a long time. I 
am not here to offer my definition of old-growth because I am 
not a scientist and I believe that it is virtually impossible 
to render a single comprehensive definition. But if I did give 
you a definition, I would describe it in today's environment as 
any tree of value that we are unable to harvest due to legal 
and government constraints.
    What I am here to tell the subcommittee is about my 
company's experiences during the old-growth debate, the 
decisions we have made, the actions of others and ultimate 
consequences. The reality is that our mill is closed in 
Prineville and our forests are threatened with catastrophic 
wildfires while offshore forests are meeting a larger portion 
of the Nation's domestic wood products consumption.
    Ochoco Lumber Company started in 1923 and we built our 
first sawmill in Oregon in 1938. Originally, our log supply 
came exclusively from private lands because we acquired the 
cutting rights to approximately 80,000 acres. The forests of 
central and eastern Oregon have been managed under a mixed-age 
scenario and harvest was done on a selected tree basis. The 
criteria for cutting the private land included removal of the 
dead, diseased, and the high risk trees.
    In the 1970's, we experienced the wilderness debate, RARE I 
and RARE II assessments. During this period, timber sale 
projects that were planned for unroaded areas were put on hold. 
As a consequence, management was limited to those areas 
previously treated. Management objectives for these areas 
included improving forest health and reducing fuel loads. 
Prescriptions typically were removing larger and dead and dying 
trees and thinning overcrowded stands.
    As the years passed, it became increasingly obvious that 
the direction the Forest Service was heading was to do more 
thinning of smaller diameter classes, so in 1988 our company 
invested over $15 million to build a small log mill to 
complement the original mill. To remain competitive we needed 
to adjust our sawmilling operations to more effectively 
manufacture the increased percentage of small logs from the 
surrounding national forests.
    Our future at that time told us that long-term balance had 
been struck. The Forest Service had decades of thinning to do 
in conjunction with selectively harvesting large, high-risk 
trees. During this time, the door and window and molding 
manufacturers continued to demand the high quality boards of 
Ochoco Lumber, while we found new markets in the furniture and 
construction industries to utilize the narrow and the lower 
quality boards.
    Currently, Ochoco Lumber has about 60,000 acres of our own 
private land and, although our sawmills are starved for the raw 
materials growing on them, we have remained good stewards of 
the land and only harvest what is sustainable on those lands. 
Our private timber lands only produce about 20 percent of our 
needs.
    As I previously mentioned, on May 25, 2001, we made a 
difficult announcement that we were closing our Prineville 
operation. Prior to that time, Ochoco had employed 180 people 
with a payroll of nearly $5 million. Contract loggers and 
truckers were paid an additional $8 to $10 million. The U.S. 
Treasury was receiving annual payments from us of about $15 
million for timber sales. Our operation's daily shipments of 10 
to 15 rail cars of wood chips and lumber were instrumental in 
keeping the city of Prineville Railroad operating, since Ochoco 
Lumber accounted for approximately 40 percent of the shipments 
of this short line.
    We have been committed to the community. We have 
scholarship programs for our college students of graduating 
seniors. In fact, 50 students currently go to college on our 
scholarships. So we felt we did everything right for the 
longevity of the company and the betterment of our community. 
We had dedicated, skilled employees and we made products 
demanded by consumers. We invested in our manufacturing 
facilities and forest land base and we supported our local 
communities.
    But no one ever expected that our Federal Government would 
establish forest policies that made it impossible to continue 
operating a viable business. This first became apparent in 1990 
when the forest plans were finalized, lowering the intended 
levels of timber from the surrounding national forests by 
roughly 30 percent.
    The fact is that during the last 8 years our domestic 
dependency on foreign forests for lumber production has 
increased from 20 percent to almost 40 percent. Finally, with 
the collapse of the public timber sale program in our 
surrounding national forests and the resulting closure of 
sawmills, our customers have had to turn elsewhere for the 
products they need. Today, the secondary manufacturing located 
in Oregon is using pine products grown in Chile, Brazil, and 
New Zealand. These secondary manufacturers that depended on the 
quality lumber we once produced have begun building their own 
sawmills and secondary manufacturing facilities in countries 
where the resource is plentiful.
    The science tells us that forests are dynamic and cannot be 
preserved in static condition. Making a decision to preserve or 
protect more acres by excluding some management decisions--we 
call sound management forest practices taking care of the 
health of our forests.
    But our rural communities and an important manufacturing 
sector of our economy has to be sustained with the help of our 
National Forest System. Let us provide the professional 
managers the tools they need to do what is right and not 
legislate a political solution that just makes the situation 
worse.
    This concludes my prepared remarks.
    [The prepared statement of Mr. Daucsavage follows:]
   Prepared Statement of Bruce Daucsavage, President, Ochoco Lumber 
                        Company, Prineville, OR
    Good afternoon Mr. Chairman. My name is Bruce Daucsavage and I am 
the President of Ochoco Lumber Company of Prineville, Oregon. My 
testimony today also reflects the views of the American Forest Resource 
Council and its nearly 90 forest landowners and wood product 
manufacturers located in twelve states west of the Great Lakes. Our 
proud forest products industry has sales of over $195 billion annually 
and employs 1.6 million people, making a significant contribution to 
our nation's economy. Ochoco Lumber Company, the members of AFRC, and 
the forest products industry are committed to sustainable forestry for 
all forestlands, public and private.
    Today's hearing is about old growth, a topic that has been studied 
and debated in the Pacific Northwest for a long time. I am not here to 
offer my definition of old growth because I am not a scientist and I 
believe that it is virtually impossible to render a single 
comprehensive definition. Just in my State of Oregon, there are at 
least a dozen forest ecosystem types, each of which should have their 
own definition for this ecological stage in the life of a forest. 
Unfortunately, in the public debate over forest management, the term 
old growth is regularly abused to define forests that environmental 
activists do not want to see managed.
    What I am here to tell the subcommittee about, is my company's 
experiences during this old growth debate, the decisions we have made, 
the actions of others and the ultimate consequences. The reality is 
that our mill is closed and our forests are threatened with 
catastrophic wildfires, while offshore forests are meeting a larger 
proportion of our nation's domestic wood product consumption.
    Ochoco Lumber Company started in 1923 and we built our first 
sawmill in Prineville, Oregon in 1938. Originally, our log supply came 
exclusively from private lands because we had acquired the cutting 
rights to approximately 80,000 acres. The forests of central and 
eastern Oregon have been managed under a mixed aged scenario and 
harvest was done on a selective tree basis. The criteria for cutting 
the private land included removal of the dead, diseased and high-risk 
trees.
    Shortly before the end of World War II, the Forest Service began 
offering timber sales on the surrounding national forests. Since these 
forests were comprised of about 70 percent ponderosa pine, all of the 
sawmills in the Prineville area including Ochoco Lumber Company gained 
a reputation for producing quality ponderosa pine boards. Our motto was 
``quality pine is our line.'' Our operation stayed basically the same 
from the 1940's-1970's, which was operating a large-log sawmill 
producing high quality, select, moulding, and shop grade lumber.
    In the late 1970's we experienced the Wilderness debate and the 
RARE I and II assessments. During this period, timber sale projects 
that were planned for unroaded areas were put on hold. As a 
consequence, management was limited to those areas previously treated. 
Management objectives for these areas included improving forest health 
and reducing fuel loads. Prescriptions typically were removing larger 
dead and dying trees and thinning overcrowded stands.
    In response to these changing conditions, we installed new sawmill 
equipment in 1978 to better utilize the small logs being harvested from 
the national forests. These multi-million dollar improvements made it 
possible to continue to process large logs, but also efficiently handle 
the higher percentage of small logs. Ochoco's customers were still 
demanding the wide (10"-30") high quality boards for use in door and 
window plants, and in high-grade furniture. During this time we 
developed new markets for clear lumber selling to customers who were 
slicing this lumber into veneer to be used as overlays on engineered 
wood products. In addition we started marketing narrower boards (4"-8" 
wide) for non-appearance grade uses.
    As the next few years passed, it became increasingly obvious that 
the direction the Forest Service was heading was to do more thinning in 
the smaller diameter classes, so in 1988 we invested $15 million to 
build a small log sawmill to compliment the original sawmill. To remain 
competitive, we needed to adjust our sawmilling operations to more 
efficiently manufacture the increased percentage of small logs from the 
surrounding national forests. Our forecast at the time told us that a 
long-term balance had been struck. The Forest Service had decades of 
thinnings to do in conjunction with selectively harvesting large high-
risk trees.
    During this time, the door, window and molding manufacturers 
continued to demand the high-quality pine boards from Ochoco Lumber 
Company, while we found new markets in the furniture and construction 
industries to utilize the narrower and lower quality boards that began 
to dominate our production. Also during this period we acquired more 
private timberland as an insurance policy. Currently, Ochoco Lumber 
Company has over 60,000 acres of private timberland, and although our 
sawmills are starved for the raw materials growing on them, we have 
remained good stewards of the land, only harvesting what is sustainable 
from those lands. Our private timberlands only produce about 20 percent 
of our needs, and we will not deplete and degrade our lands short term 
to supply our sawmills.
    But as I mentioned previously, on May 25, 2001 we made a difficult 
announcement that we were closing our Prineville operations. Prior to 
that, Ochoco Lumber Company was employing 180 people with a payroll of 
nearly $5 million. Contract loggers and truckers were paid an 
additional $8 to10 million. The U.S. Treasury was receiving annual 
payments totaling about $15 million for timber sales, which resulted in 
significant payment to the local counties. Our operation's daily 
shipments of 10-15 railroad cars of wood chips and lumber were 
instrumental in keeping the City of Prineville Railway operating since 
Ochoco Lumber Company accounted for approximately 40 percent of the 
shipments on this short line. Finally, Ochoco Lumber has proven itself 
to be a very civic-minded member of the community always willing to 
lend a hand or help support a good cause. An example of this is the 
Ochoco Lumber scholarships for graduating seniors and currently 50 
college students are recipients of this program.
    So we did everything right, just as an MBA student is taught. We 
had dedicated and skilled employees, made products demanded by 
consumers, invested in our manufacturing facilities and a forestland 
base, and supported our local community. But no one ever expected that 
our federal government would establish forest policies that made it 
impossible to continue operating a viable business.
    This first became apparent in the early 1990's when forest plans 
were finalized lowering the intended levels of timber from the 
surrounding national forests by roughly 30 percent. Furthermore, the 
Forest Service failed to accomplish these reduced levels. With the 
listing of endangered species, interim guidelines were introduced that 
prohibited trees over 21 inches in diameter from being harvested. 
Additional riparian buffer widths were established and wildlife 
connectivity corridors were designated between large blocks of older 
forests.
    Reductions in acres available for management and increased, and 
often questionable, restrictions on management are only part of the 
problem. In addition to these, the agency, reeling from administrative 
appeals and lawsuits, has become paralyzed by process. This process, 
intended to ``bulletproof'' agency decisions, has had detrimental 
effects. Now the agency spends obscene amounts of time and money on 
processes with no measurable benefits.
    The fact is that during the last eight years, our domestic 
dependency on foreign forests for our lumber products increased from 
about 20 percent to over 40 percent. Finally, with the collapse of the 
public timber sale program on our surrounding national forests and the 
resulting closure of sawmills, our customers have had to turn elsewhere 
for the products they need. As I mentioned earlier, some of our largest 
customers were the secondary manufacturers that produce doors, windows 
and molding. When we were no longer able to provide them with the size 
and quality of pine products they needed, they went offshore for 
suppliers.
    Today, the secondary manufacturers located in Oregon are using pine 
products grown and milled in Chile, Brazil, and New Zealand. These 
secondary manufacturers that depended on the quality lumber we once 
produced have begun building their own sawmills and secondary 
manufacturing facilities in countries where the resource is plentiful, 
and where the forest products industry is welcome. Not only are we 
losing local jobs, but also exporting our knowledge, equipment, and 
financial strength.
    Equally disturbing is the fact that our country has some of the 
most productive forests of any in the world and some of the most 
comprehensive environmental laws and regulations. The reality is that 
during the last eight years, our nation's dependency on foreign forests 
for our lumber products increased from about 20 percent to over 40 
percent. Our failed federal forest policy has moved our demand offshore 
to forests ecosystems where environmental safeguards are cursory 
concerns.
                               conclusion
    Mr. Chairman, I cannot overemphasize the fact that our company and 
industry is dedicated to the long-term sustainability of all 
forestlands. Certainly our business' future requires maintaining the 
productivity of federal and non-federal lands. We are also committed to 
help the agencies as a partner to implement projects, designed to meet 
resource objectives. But we cannot do it without economically viable 
projects that allow companies like Ochoco Lumber Company to stay in 
business--contributing to the management of forest ecosystems, 
producing products demanded by consumers and providing economic 
stability to our rural communities. Our federal forest policies must 
involve the local communities and industry if they are to be 
successful.
    Any attempt to protect or preserve older forests is doomed to 
failure. History has shown, with efforts such as the Northwest Forest 
Plan, the Interior Columbia Basin Ecosystem Management Project, and the 
Sierra Nevada Framework, that these forests are continually changing 
and must be managed to avoid undue risk of insect and disease 
infestations and catastrophic wildfires. This is particularly true in 
the forests of the interior West. We know that today's forest health 
problems stem from past management including fire suppression. For 
these forests this has led to unnatural conditions of overstocked 
stands and an overabundance of species that are more susceptible to 
insects and disease.
    The science tells us that forests are dynamic and can't be 
preserved in a static condition. Making a decision to preserve or 
protect more acres by excluding sound forest management not only seals 
the fate of the forest, but our rural communities and an important 
manufacturing sector of our economy. Let's provide the professional 
managers the tools they need to do what is right and not legislate a 
political solution that just makes the situation worse.
    This concludes my prepared remarks, I would be glad to answer any 
questions you or the subcommittee may have for me regarding this 
important issue.

    Senator Wyden. Bruce, thank you for excellent remarks. Let 
me tell you, I am very proud of the way you all conduct your 
business in rural Oregon. I think, like Jim Johnston, you bring 
a sense of willingness to work with people and find the kind of 
common ground. I want you to know that I am going to continue 
to do everything I can to shake some Federal timber land loose 
for you so that you can get up and running again. As you know, 
David Blair in our central Oregon office and Sarah, who is 
here, have been having these discussions with the forestry 
officials, and clearly we have got to get some buy-in at the 
local level to give you all the assurance that it is not going 
to be just another lawyers full employment program and 
everybody is going to run off and sue each other.
    But I just want you to know that I think you have shown 
your willingness to manage forests for the future in the spirit 
that Jim was talking about, in a sustainable way. That is what 
you have done with your private lands. That is how you have 
gone about it with your private lands. We have got to stay on 
it until we shake some Federal timber free for you. I am just 
frustrated that I cannot snap my fingers and through a 
combination of an aggressive thinning program and some other 
steps get it going.
    But a big focus of what I am trying to do here is this. I 
have seen what you all are trying to go through at Ochoco. I 
thank you for a very thoughtful presentation. I will have some 
questions in a moment, but you and Jim I think in terms of 
bookends representing an environmental and industry position, 
make Oregon proud by coming here and showing that you are 
willing to reach out and meet people halfway to come up with an 
approach here that makes sense for the future. I thank you for 
it.
    Senator Torgerson, welcome. I already told your Senator, 
Senator Murkowski, that I am going to work very closely with 
him on this. I know you all have some special situations up 
there with respect to the second growth and the like, and just 
as you begin your testimony please know that Senator Murkowski 
has made me aware of that situation and we are anxious to be 
responsive to you.
    Maybe we could do something where we can take some steps 
that will be useful to you up in Alaska and you can help us on 
some things for the other States and find some common ground.
    Please proceed.

STATEMENT OF JOHN TORGERSON, ALASKA STATE SENATOR AND CHAIRMAN, 
      COMMITTEE ON NATURAL RESOURCES, ALASKA STATE SENATE

    Mr. Torgerson. Thank you, Mr. Chairman. I know Senator 
Murkowski is a great advocate for us being treated fairly by 
the Forest Service.
    Senator Wyden. He is indeed.
    Mr. Torgerson. My name is John Torgerson, for the record. I 
chair the Senate Resources Committee for the Alaska State 
Legislature. I am also a former director of the Alaska Forest 
Association, called AFA, and at that time it was known as the 
Alaska Loggers Association. I began working and logging in the 
coastal forests of Alaska in 1970, so I am familiar with forest 
issues in the State both through my own participation and 
through my oversight and my Senate responsibilities.
    At the request of George Woodbury, the current president of 
the AFA, I am here today to offer his testimony on behalf of 
the association. The AFA represents approximately 80 regular 
and 120 associate member companies doing business in the forest 
products industry throughout Alaska. Nearly all the AFA's 
regular members are small business firms as defined by the 
Small Business Administration and qualify for independent and 
small business set-aside timber sales.
    The AFA, its members, their employees, and timber-dependent 
communities of Southeast Alaska depend on the Forest Service 
the provide economic timber sales of significant volume to meet 
the needs of the Southeast Alaska timber industry. In Alaska, 
old-growth forests are the lifeblood of the timber industry. 
The national forests are the only source of raw materials for 
the Alaska sawmills and veneer plants. All the timber from the 
Alaska national forest is old-growth.
    The industry is only 50 years old and therefore adequate 
second growth opportunities for raw material supply have not 
yet developed. In order to maintain the industry, harvest must 
continue in the old-growth until a second growth supply is 
available. The time that it takes to develop an adequate supply 
of second growth will depend on the way the old-growth is 
managed and on the degree and type of management performed on 
second growth stands.
    For the first 35 to 40 years, timber management was 
conducted using an even-aged clearcutting management 
prescription. This has resulted in healthy and vigorous second 
growth stands. Some of the second growth is ready for 
commercial thinning, but more if it is in need of pre-
commercial thinning.
    For the last 10 years, the forests have been managed under 
an experimental management scheme designed around alternatives 
the clearcut. The effects of the new management scheme is yet 
undetermined, but concerns remain about stand composition and 
overall forest health implications of these alternative 
approaches. What we already know is that the alternatives have 
significantly hampered the economics of the timber sale 
offerings.
    Preliminary indications are that these new methods will 
provide growth rates better than the zero growth rates in uncut 
stands, but growth rates are inferior to clearcut stands. We 
are concerned that the trees left uncut will infect the second 
growth with disease, dwarf mistletoe being a primary problem in 
our hemlock stands. The alleged benefits are based on visual 
concerns and speculative benefits to wildlife.
    The need to apply these alternative measures in areas 
available for timber harvest in the face of the millions of 
old-growth acres where no timber harvest is allowed is not 
evident. In addition, the steep uneven terrain in Alaska makes 
working in partial clearcuts inherently unsafe for our workers.
    There has been large areas set aside in Alaska's Tongass 
National Forest that are managed under single use 
prescription--wilderness, back country recreation, and other 
prescriptions that forbid any timber harvest or multiple uses. 
These withdrawn areas have reduced the acreage available for 
timber production to about 676,000 acres, of which about 
250,000 acres are in second growth condition. This leaves about 
12 percent of the productive old-growth from the Tongass for 
timber harvest, only about 4 percent of the Tongass.
    The Tongass is managed under an old-growth conservation 
strategy which is part of the Forest Service plan. This 
strategy includes reservation of 3.5 million acres of the 5 
million acres of productive old-growth. This is not a 
reservation of rock and ice; it is a prohibition of timber 
harvest on timber-producing sites. In addition, there are 
another 4.2 million acres in unproductive old-growth available 
for wildlife habitat.
    Any prescription that reduces the yield potential of the 
acreage available for timber production puts more pressure on 
the reserve acres and controversies that result in costly and 
nonproductive expenditures on environmental lawsuits.
    There is other evidence that shows that the second growth 
stands resulting from clearcuts can be managed to provide 
wildlife habitat and still produce a viable timber industry. It 
is crucial to the future of Alaska's timber industry that a 
reliable source of economic timber is available, is provided 
from our areas of the forest that are available for timber 
harvest. These areas must be managed under prescriptions that 
make it clear that timber harvest is the primary use.
    The Forest Service needs to remove prescriptions that 
provide the basis for environmental lawsuits. Using the already 
existing second growth potential in conjunction with the 
designated acreage of old-growth that will be available on a 
reliable economic basis until the industry can sustain on 
second growth is the answer to Alaska's old-growth controversy.
    With that, Mr. Chairman, that concludes my remarks. Thank 
you for the opportunity.
    Senator Wyden. Thank you very much, Senator. Again, we are 
going to be very anxious to work with you in Alaska and 
recognize that there are very different circumstances. Senator 
Murkowski has already given me a couple of really good ideas 
that track what you have been saying, and that is very 
constructive.
    Let me ask a question of our sort of whole panel. I think 
you have heard me say that what I would like to do is to focus 
on a fundamental proposition. That is to see if we can marry 
together the idea of additional protection for old-growth with 
the kind of thinning and other active management practices that 
people in resource-dependent communities would see as 
constructive and give them a chance to get fiber in their mills 
and put people to work.
    If one were to talk about an integrated forest management 
plan built on sort of those two key precepts, why don't each 
one of you tell me what you think the key features of such an 
integrated management plan would be? Just kind of tick off some 
of the key features of an integrated management plan that was 
built on those sort of two ideas I am talking about.
    Mr. Palola.
    Mr. Palola. Yes, thank you. I can give you a couple of 
indications of where I know some of the best forest managers in 
our region, what they are doing already. One is they are 
cutting less than their annual growth. They are essentially 
designating an increment of the forest productivity to long-
term, you can call it a reserve or a biodiversity increment or 
an old-growth increment, but they are not red-lining their 
forest, so to speak.
    A high degree of snag retention and some of the other 
characteristics that Dr. Lewis talked about earlier this 
afternoon. They are looking to recruit those particular 
attributes back into their forests.
    I would also say that some of the nuances of this are also 
bound up in the kinds of relationships that they have with 
people, with forest workers, particularly loggers, in terms of 
how they specify timber sale contracts and their expectations 
for the quality of the work that is being done. I could provide 
some more specifics on that later on.
    Senator Wyden. Good suggestions.
    Mr. Johnston.
    Mr. Johnston. Well, I could certainly address myself to 
ecological standards that the conservation community would like 
to see incorporated into such a plan. Sticking out among them 
would be protection of native forests that provide important 
ecological functions and a restoration focus with silviculture, 
projects that genuinely are designed to make the forest 
healthier, most particularly thinning of these dense tree 
farms.
    But I am not going to do that. Instead, I will actually 
address myself to the issue of jobs and community stability in 
designing such a plan. I would suggest that we are going about 
this the wrong way by remaining fixated on timber targets. 
Timber targets certainly do not address the health of the 
forest and they only address rural community stability and jobs 
indirectly.
    If one of the goals of such a plan of forest management is 
to be good jobs, healthy communities, then let us make that a 
goal. Let us not make timber targets a goal or production of 
wood fiber a goal, although certainly I think there will be 
production of wood fiber. If we are serious about jobs, then 
let us set targets that reflect that value.
    Senator Wyden. Good point.
    Bruce.
    Mr. Daucsavage. For us in the industry, especially in 
central Oregon, the issue is forest health. We believe, given 
the ability to manage the forests with economically viable 
timber sales, in other words sales that work, there is--we can 
sustain a long-term timber sale program and create what you are 
looking for, I think, in the way of the old-growth type forest.
    If you have a healthy forest, that means you are going to 
have larger trees. We believe also there are cases where you 
need to take some of the larger trees. We certainly do not need 
someone to tell us that 21 inches and larger is the right size, 
because it is not.
    I have timber sales here in front of me that we cannot bid 
on from a fire. They have been on the ground for a year. These 
are not and wilderness areas, they are in management areas, and 
we cannot harvest those trees and we have to shut down a 
sawmill.
    So I think the key here is forest health and that in itself 
will create the type of environment I think you are looking 
for.
    Senator Wyden. Know that we are going to continue to try to 
help you get that dead and dying material off the forest floor. 
I think we can do it in line with the environmental laws and in 
a way that promotes sustainable forestry.
    Mr. Torgerson.
    Mr. Torgerson. Thank you, Mr. Chairman. As I said in my 
testimony, Alaska is basically dependent upon old-growth 
currently. But we need some commercial pre-thinning in our old-
growth areas that are basically--not the old-growth, but in the 
second growth areas. It was interesting that the other 
panelists mentioned the health of the forest. Up in the area 
that I currently live, the collective governments have ignored 
the Borealis Forest up there and we now have an epidemic of 
dead trees. We have loved that forest to death. Approximately 
1.2 million acres out of 1.3 million acres of commercial timber 
is dead and it is past the point now or almost past the point 
now where we can harvest it.
    The Forest Service in one area, they prescribed a timber 
sale and, because of the opposition to logging, they decided to 
go in there and burn it. That was the one of our fires that was 
out of control in the Nation last year. So I would like to see 
them put together a better plan than using burning as a way of 
managing the forests.
    Senator Wyden. Senator Murkowski, I know, is very concerned 
about the white spruce climax forests up in your area that are 
suffering from the beetle infestation and very high risks, and 
I know that he would be very interested in making sure that the 
committee has your thoughts on the management of those lands 
and sort of how there is an interaction there to the old-
growth.
    Mr. Torgerson. Well, Mr. Chairman, thank you. That is what 
I was just talking about. Really, the trees are all dead now. 
The old-growth, some of it is standing, some of it is being 
blown over.
    Senator Wyden. Maybe I missed the point and, Senator, you 
can correct me. I thought you had been talking mostly about the 
coastal forests.
    Mr. Torgerson. I have been.
    Senator Wyden. Oh, I see. Up until now you were talking 
about the coastal forests and that is hemlock and sitka spruce, 
and now we are moving over to the white spruce forest?
    Mr. Torgerson. In the testimony earlier than this, I split 
it. I was talking some about the old-growth and the need for 
pre-commercial thinning in the second growth areas down in 
southeast Alaska, and then I jumped ahead to the white spruce, 
which are our forests around where I live. I cannot add much 
more to it. It has not been managed. We have had commercial 
operations come in the look at removing it and basically they 
went broke, not having timber supply. So it has been very--I 
have sat and watched this forever and it is disheartening to 
see that.
    No matter if you are environmentalists or preservations or 
a logger, that is a wasted forest totally.
    Senator Wyden. It seems to me that the point that you and 
Senator Murkowski are making in this area is very valid, and we 
are going to follow it up and check it out for you.
    Mr. Torgerson. Yes, sir, thank you.
    Senator Wyden. I am going to recognize the minority counsel 
for some questions, minority staff from some questions here in 
a minute. But the reason I asked the question is that I think 
there are some ways that this panel, which reflects sort of a 
cross-section of opinion in terms of industry and environment 
and certainly points of view that could be contentious and have 
been contentious, can find some common ground.
    Mr. Johnston talked about jobs and thinning. Mr. Daucsavage 
talked about sustainability. You had an East Coast perspective 
that made sense, and Mr. Torgerson was talking about thinning 
in areas that I am certainly convinced we should have been 
working on quite some time ago. So now it is the job of the 
Congress to work with these agencies to try to build on your 
goodwill and desire to actually move forward and manage these 
resources so that all Americans can say that we have tapped 
every opportunity to make sure that these special places are to 
the benefit of all.
    So I thank you for how constructive you have been.
    Frank, why don't you just come on up and ask the questions 
you would like to get into.
    Mr. Gladics. Thank you, Senator. I will be mercifully 
short.
    As we have looked at this issue--and Senator Wyden, I 
appreciate your willingness to look at thinning in some areas 
that we have not been able to thin in, and I think that is a 
huge step forward. And I appreciate the witnesses' apparent 
willingness to look at that. The Northwest Forest Plan was a 
balance both politically and ecologically. It involved thinning 
in younger stands, harvesting in old-growth stands, and trying 
to come up with a solution that would fit most people. It has 
not worked out.
    Mr. Johnston, you have said that you want to not harvest 
any old-growth trees, right?
    Mr. Johnston. You also want to go into thinning. Balance-
wise, there is going to be a change in the amount of total 
volume that might be available and the economic stability. We 
will see some more changes in economic stability with that. I 
am wondering, if Congress were to direct the Forest Service to 
reopen that plan and look at it, would you perceive a re-look 
at the number of acres that are in Matrix land versus LSR 
versus set-asides?
    Mr. Johnston. Well, first of all, I do not think that the 
Northwest Forest Plan is broken. I think that it is based on 
sound science and serves as a framework from which we can move 
forward. If there is anything wrong with the Northwest Forest 
Plan, I would say that it has not adapted as well as it can. 
The plan's foundation is this concept of adaptive management. 
We take new societal priorities, new information, and we adapt 
the plan to those circumstances. I think that is what needs to 
be done in terms of old-growth protection.
    Specifically, in terms of your question, would we support 
changing boundaries or adding or subtracting from the Matrix or 
other land allocations, again I think that the science supports 
large blocks of reserved habitat in terms of recovering species 
like the northern spotted owl, and I think that that should be 
maintained.
    What we could support is restoration silviculture in these 
tree farms to accelerate the development of late successional 
characteristics. We are talking about the Forest Service doing 
business differently, because currently most of their focus is 
on logging on older stands. There is lots of different 
mechanisms and vehicles to accomplish this. I think Congressman 
DeFazio earlier today brought up what I think is one of the 
best ones, which is to separate that restoration work from 
market pressures by contracting with companies to do that 
restoration work, that plantation recovery and that thinning, 
and the Forest Service selling those logs from public sort 
yards. I would certainly urge the committee to look into that.
    Mr. Gladics. So, looking for common ground here, if the 
science led us to going back into some areas that are reserved 
because values are protected, yet they could do some 
management, you folks would look at that in the long run?
    Mr. Johnston. Certainly, if the science supports 
restoration silviculture as I have described it, I would 
support it, and I do not think that there is anything in the 
plan currently that would prohibit it. For instance, the plan 
sets aside late successional reserves, but the plan allows 
thinning in those reserves currently. So I do not even know 
that we would need to adapt the plan in that sense.
    Mostly what we are up against is the question of policy 
direction and funding. The agency's budget structure and 
personnel structure leads it to emphasize logging older stands, 
and the direction that it has received of Congress, I think, at 
this point has interpreted the Northwest Forest Plan to mean 
get in there and log old-growth. Certainly I would like to see 
Congress give new signals to the agency, that instead the 
emphasis should be on restoration work, thinning in tree farms 
perhaps, and at that point I do not think that you would need 
to draw new lines on the map or anything like that.
    Mr. Gladics. One quick last question. Has your organization 
actively been involved in the NEPA process on some of the 
thinning in the LSR's that have been proposed, and have you 
supported or opposed individual projects?
    Mr. Johnston. We are actively involved in the NEPA process 
for quite a few timber sales in western Oregon, including 
thinning in late successional reserves. We have participated in 
that process. We have commented. For the most part I think that 
those projects, my organization feels that those projects have 
merit. We do not object to most of them as we have seen them on 
the ground.
    We have suggested ways that they could be improved, some of 
which have been incorporated. In fact, a lot of late 
successional reserves thinning that is being done on forests 
like Siuslaw National Forest, I think that they are doing a 
really good job.
    Mr. Gladics. Thank you.
    Mr. Palola, ice storms and wind are a major change agent in 
the Northeast and as we begin to try to develop these old-
growth stands those events continue to occur. Have you got some 
thoughts on how we can develop a policy that would allow us to 
deal with those kind of events and do what is good for the 
land, as well as the communities?
    Mr. Palola. That is a great question. I think we have to 
accept that those events are going to happen, number one. There 
is some concern that they are happening with more frequency 
because of the effects of climate change, although it is very 
hard to pin down what causes what. We are certainly seeing more 
droughty, more freezing and thawing conditions than historical 
records seem to have supported.
    I think that the forest community has responded to these in 
a very responsible way by and large. We have not had the kind 
of controversies around salvage sales, for example, from major 
wind-throw events or fire events that have taken place in the 
West.
    I think that I would come back to some of the basic premise 
of my testimony, which is that if we can prevent forest 
fragmentation and enhance forest security then people are going 
to be in a better position to ride out these sorts of 
disruptions, whether they are stand-replacing events or whether 
they are more minor kinds of things, which we see quite 
frequently.
    I talked earlier about legacy trees as being a kind of a 
proxy or a halfway house to get you to more complete old-growth 
conditions. One of the biggest threats to relying on that as a 
strategy and why I call it a second best strategy is that those 
kinds of kind of ecological hazards--and in our region wind-
throw, hurricane event, is the major problem. You can very 
quickly eliminate the remnant stands that you have or the 
remnant legacy trees, and that is a risk that many forest 
managers run who are trying to actively promote and maintain 
old-growth characteristics.
    Mr. Gladics. Thank you.
    Senator Torgerson, you mentioned both commercial and pre-
commercial thinning and the position of the Alaska Forestry 
Association. Is there more money needed in Alaska to help do 
that, through the agencies?
    Mr. Torgerson. Through the agencies? I believe there is, 
particularly in the second growth. As I testified earlier, we 
have not done any thinning or pre-commercial thinning in that 
second growth. It could be considered like a business, that you 
have to make an investment, you have to go in and take care of 
your product, you have to go in and take care of your stock or 
your shelf life of things. If you ignore it, you end up with 
less value and in this case less commercial forest.
    So it would be important for the Forest Service to go in 
and start actively managing those forests.
    Mr. Gladics. Thank you.
    Bruce, one quick question for you. You have been through a 
rather traumatic experience with what you have done, all the 
things you have done in your mill. If there were one thing that 
you look back on in the last 15 years that could have changed 
things, is there something that sticks out in your mind, or is 
this really a series of problems stacked up on one another that 
we have not dealt with and need to unravel a large ball of 
string instead of one knot?
    Mr. Daucsavage. Well, I think Sally Collins' testimony this 
morning was excellent in that it described some of the things 
that she had done in central Oregon when she was there. To our 
chagrin, we do not know why the thinning projects, the forest 
health issues, have been dropped or timber sales have not been 
put up that are viable, in other words economically viable.
    The fact that they have stopped and the fact that we have 
this 21-inch or greater DBH limit on harvesting timber has 
changed the overall makeup of what we are capable of doing. I 
think with that screening process that was put in place, we are 
not subject to the Northwest Forest Plan, but the screening 
process, along with the stopping of the forest health 
restoration that we had done in the past, is probably one of 
the issues that have bothered us the most.
    We do have some projects that we have done in the past, in 
particular the Trout Creek sales projects, where it involved 
entering a watershed of 15,000 acres with numerous timber 
sales, where we restored that particular part of the forest. It 
was very successful. We do not need more demonstration 
projects. We have demonstrated that this can work and we have 
this mixed conifer forest that is very healthy now, and I think 
this is something we should all take a look at and continue to 
operate under that scenario.
    Mr. Gladics. Thank you.
    Senator Wyden. Frank, thank you.
    Let me leave it this way. 3\1/2\ hours ago, we started this 
discussion of how we could protect old-growth, have active 
management, and promote forest health. I was convinced it was 
doable then. I will tell you, I am more convinced now as I wrap 
up this hearing with a panel of environmental and industry 
representatives.
    What it is going to come down to is what I think Senator 
Craig and I thought broke upon this county payments bill last 
session. Everybody said it could not be done, things were just 
too polarized. One side said sever the link between the 
counties and the Federal Government and just send the rural 
communities a check, and another said, well, let us use this 
legislation to go out and settle every grievance when you did 
not think the cut was high enough.
    Senator Craig and I said we were not going to do it that 
way. What we were able to do there by lowering the decibel 
level was make it possible for a number of rural communities in 
our country to survive. Now, we have a lot more to do.
    Bruce, your point about getting dead and dying material off 
the floor of the forest is to me just patently obvious, 
patently obvious from a forest health standpoint, patently 
obvious from the standpoint of the economic needs of rural 
communities. Jim Johnston, to his credit, has said he and his 
organization are willing to work on that and willing to work to 
try to provide the jobs that are a lifeline for rural areas.
    So please know that we are going to keep the record open. I 
guess we will keep the record open for, I think the rule is, 2 
weeks. Your additional comments will be welcome, as those of 
other citizens.
    I thank you very much for your patience, and know that we 
are going to pursue this topic very, very aggressively. This 
debate has been too polarized for too long. Too many 
communities have suffered as a result. Too many treasures have 
been lost as a result, and there has not been enough active, 
integrated management of our forests that is clearly in the 
interest of all Americans, and we are going to try and change 
it. You all have helped us get off to a good start.
    With that, the subcommittee is adjourned.
    [Whereupon, at 6:07 p.m., the hearing was adjourned.]

    [Subsequent to the hearing, the following statement was 
received for the record:]
Statement of David Perry, Professor (Emeritus) of Ecosystem Studies and 
   Ecosystem Management, Department of Forest Science, Oregon State 
                               University
    Mr. Chairman and members of the committee, thank you for this 
opportunity to present some brief thoughts on old-growth forests. I 
apologize for being unable to do this is person.
    My name is David Perry. I am Professor (emeritus) of Ecosystem 
Studies and Ecosystem Management, Dept. of Forest Science, Oregon State 
University, and Affiliate Professor in the College of Agriculture, 
Forestry, and Natural Resources, University of Hawai'i at Hilo. I am a 
past member of the National Research Council's Committee on 
Environmental Issues in Pacific Northwest Forestry, the Eastside 
Forests Scientific Societies Panel, and the old-growth expert panel 
convened to advise the scientists formulating the Pacific Northwest 
Plan. I currently sit on the Marbled Murrelet Recovery Team and The 
National Commission for the Science of Sustainable Forestry. I am 
author of the textbook, Forest Ecosystems, lead editor of Maintaining 
Long-term Productivity in Pacific Northwest Ecosystems, and author or 
co-author of numerous publications having to do with the ecology and 
management of ecosystems and landscapes.
    My comments will be restricted to the area in which I have the 
greatest familiarity, which is the Pacific Northwest, both east and 
west of the crest of the Cascades.
    Echoing the recommendation of the NRC Committee on Environmental 
Issues in Pacific Northwest Forests, I support extending protection to 
all old-growth forests on federal lands within the Pacific Northwest. 
In my view, and that of the NRC Committee, keeping all that remains 
offers the best chance of maintaining native biological diversity on 
public lands. I believe the economic and social situation has changed 
sufficiently since the early 1990's to allow protecting all old-growth 
without creating undue economic hardship. In fact, with a shift in 
harvesting strategy (which I'll discuss further below), remaining old 
growth might be protected with little or perhaps even no economic 
impact.
    Four facts about old-growth forests seem beyond dispute: (1) They 
have been logged to levels far below historic range of variability both 
east and west of the Cascades crest; (2) they are ecologically unique, 
containing structures, species and species assemblages that occur in 
low abundance or not all in most young, managed forests; (3) on a per 
acre basis they are worth a lot of money; (4) for many people, they 
embody core values that transcend the marketplace. As you are well 
aware, the issue for over four decades, not only here but in many 
places throughout the world, has been finding a proper balance between 
the latter three. In the United States, the search for balance plays 
out in the context of the first: the current rarity of old-growth 
forests compared to historic norms.
    My recommendation, and that of the NRC committee of which I was a 
member, reflects the belief that, once the extent of a given habitat 
has been sharply reduced, as is the case with old-growth forests, 
further reductions significantly increase the risk of extinctions. In 
fact, models predict the existence of thresholds, in which small 
changes in habitat can have large effects on species viability, and 
delayed effects--what David Tilman and colleagues have termed the 
``extinction debt''. I emphasize these beliefs and models exist within 
a background of large uncertainty--we are in new territory here, and 
the territory is exceedingly complex. But on that score the principles 
of conservation science are no different than those of prudent 
investing: in the face of uncertainty, don't take unnecessary risks. 
So, as I see it, the question of how much old growth to protect turns 
not so much on science as on balancing the risks of extinction and 
diminishment of esthetic and spiritual values against the needs of the 
economy. I believe that equation has changed over the past decade.
    In the Pacific Northwest of 10 years ago, the search for balance 
between conservation and economics required leaving some of the 
remaining old growth open to logging. At least two things have changed, 
however, which argue that risk is no longer necessary. First, the 
economy of the Northwest has diversified, and the lumber industry, 
while still important in some areas, is a minor component of the 
overall regional economy. Moreover, the lumber industry depends much 
less on federal logs than previously. By the late 1990's, only 5 of 130 
sawmills in western Oregon and Washington used federal logs for more 
than one-third of their total supply.
    The second change has been a growing awareness on the part of 
scientists and foresters of the largely untapped potential for 
producing logs through thinning plantations (generally less than 80 
years old). Done correctly, this time-honored silvicultural practice 
not only produces logs, but diversifies stands and increases the vigor 
of residual trees. According to a report by the U.S. Forest Service, 
approximately 400,000 acres of young stands are in need of treatment 
annually on federal lands in Oregon and Washington west of the 
Cascades, and only 15% are getting it. By my rough, but reasonable, 
back-of-the-envelope calculations, annual wood volume attainable by 
thinning plantations in western Oregon and Washington more than 
compensates for those that would come from liquidating unprotected 
west-side old growth over a 10-year period. This is true even with the 
so-called ``variable density'' thinning (not all areas thinned 
equally), which is increasingly recommended as an ecologically sound 
approach.
    There is an issue regarding thinning in the dry forest types that 
needs mentioning. Numerous scientists and foresters have argued that 
forests in the dry portions of the region are currently overstocked 
with trees established during the past 100 years of fire exclusion, a 
situation that has increased susceptibility to crown fires and insect 
infestations. I agree, with the proviso this does not necessarily apply 
to every dry forest, but it certainly does to many. In recommending 
protection for remaining old growth, I am not asking that the door be 
shut on thinnings aimed at restoring health of older stands--that would 
be a mistake in my opinion. However, in logging for forest health, it 
is important that we don't trade one set of problems for another. 
Elsewhere, I have recommended the following guidelines: (1) thin from 
``below'', i.e., leave the larger, older trees; (2) don't build new 
roads; (3) treat thinning slash (otherwise it creates a high fire 
hazard); (4) protect soils and streams.
    In closing, I'd like to take off my scientist's hat and relate a 
recent, personal experience. On Sept. 14, I took a class into an old-
growth forest in the western Cascades. Like many others, I think we 
were all still in shock from the events of the past Tuesday. Vigils of 
prayer and remembrance had been scheduled across the country on that 
day, and some of the students asked if we could take time out so that 
each could participate in whatever way they were called. I thought it 
was a fine idea, and at the appointed time we fanned out to find our 
own places of solitude. I sat with my back nestled into an old tree, 7 
feet in diameter, 30 stories high, and looked out over a stream. 
Unbidden, there came to my mind Wendell Berry's poem, the Peace of Wild 
Things, which begins

                  When despair for the world grows in me
                  And I wake in the night at the least sound
                  In fear of what my life and my children's lives may 
                be,
                  I go and lie down where the wood drake
                  Rests in his beauty on the water, and the great heron 
                feed.
                  I come into the peace of wild things . . .

    Why do a large majority of people in the Pacific Northwest, urban 
and rural, favor protecting old growth forests? I can't answer that, 
but suspect a large part of the reason is that the old forests embody 
qualities we need very much in today's world: strength, endurance, 
tranquility, peace.

                                    

      

</pre></body></html>
